<html>
<title> - SPAM (UNSOLICITED COMMERCIAL E-MAIL)</title>
<body><pre>[Senate Hearing 108-968]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 108-968
 
                  SPAM (UNSOLICITED COMMERCIAL E-MAIL)

=======================================================================


                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,

                      SCIENCE, AND TRANSPORTATION

                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 21, 2003

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION





                  U.S. GOVERNMENT PRINTING OFFICE
85-548                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                     JOHN McCAIN, Arizona, Chairman


TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South 
CONRAD BURNS, Montana                    Carolina, Ranking
TRENT LOTT, Mississippi              DANIEL K. INOUYE, Hawaii
KAY BAILEY HUTCHISON, Texas          JOHN D. ROCKEFELLER IV, West 
OLYMPIA J. SNOWE, Maine                  Virginia
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              JOHN B. BREAUX, Louisiana
PETER G. FITZGERALD, Illinois        BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  RON WYDEN, Oregon
GEORGE ALLEN, Virginia               BARBARA BOXER, California
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
                                     MARIA CANTWELL, Washington
                                     FRANK R. LAUTENBERG, New Jersey
      Jeanne Bumpus, Republican Staff Director and General Counsel
             Robert W. Chamberlin, Republican Chief Counsel
      Kevin D. Kayes, Democratic Staff Director and Chief Counsel
                Gregg Elias, Democratic General Counsel



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 21, 2003.....................................     1
Statement of Senator Allen.......................................    10
Statement of Senator Burns.......................................     8
Statement of Senator Cantwell....................................    55
Statement of Senator McCain......................................     1
    Letter dated May 21, 2003 from Bill Gates, Chairman and Chief 
      Software Architect, Microsoft..............................     3
    Letter dated May 20, 2003 from Jerry Berman, President, 
      Center for Democracy & Technology..........................     4
Statement of Senator Nelson......................................    17
Statement of Senator Wyden.......................................     9

                               Witnesses

Dayton, Hon. Mark, U.S. Senator from Minnesota...................    15
Hughes, J. Trevor, Executive Director, Network Advertising 
  Initiative.....................................................    76
    Prepared statement...........................................    78
Leonsis, Ted, Vice Chairman, America Online, Inc. and President, 
  AOL Core Service...............................................    58
    Prepared statement...........................................    61
Rotenberg, Marc, Executive Director, Electronic Privacy 
  Information Center and Adjunct Professor, Georgetown University 
  Law Center.....................................................    83
    Prepared statement...........................................    85
Salem, Enrique, President and CEO, Brightmail Inc................    63
    Prepared statement...........................................    64
Scelson, Ronald, Scelson Online Marketing........................    89
    Prepared statement...........................................    92
Schumer, Hon. Charles E., U.S. Senator from New York.............    11
    Prepared statement...........................................    14
Swindle, Hon. Orson, Commissioner, Federal Trade Commission......    18
Report dated April 30, 2003 from the Federal Trade Commission's 
  Division of Marketing Practices entitled ``False Claims in 
  Spam''.........................................................    20
    Prepared statement...........................................    37
Thompson, Hon. Mozelle W., Commissioner, Federal Trade Commission    38
    Prepared statement...........................................    40




                  SPAM (UNSOLICITED COMMERCIAL E-MAIL)

                              ----------                              


                        WEDNESDAY, MAY 21, 2003

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:35 a.m. in room 
SR-253, Russell Senate Office Building, Hon. John McCain, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    The Chairman. Good morning. Today, the Committee will 
examine whether there are ways we can effectively deal with the 
increasing proliferation of spam in America. I commend the 
Federal Trade Commission for its dedication to the complex 
policy and technical issues involved in putting an end to 
unwanted spam. I also want to strongly commend Senators Burns 
and Wyden for their continued work over the years in trying to 
address this issue through legislation. Literally hundreds of 
hours have been spent by these two Senators and their staffs in 
trying to address this very, very difficult issue.
    Spam means different things to different people. The FTC 
defines spam generally as unsolicited commercial e-mail, and 
some Americans do not want any of it, other consumers like to 
receive unsolicited offers by e-mail. To them, spam means only 
unwanted, fraudulent or pornographic e-mail that floods their 
in-box. Many American businesses view e-mail as a new medium 
through which to market or communicate more efficiently with 
consumers. To them, that is not spam, but commercial speech 
protected by the First Amendment.
    Internet service providers are caught in the middle, often 
drawing a distinction between what they, but not necessarily 
consumers perceive as good or bad actors, and permitting some 
unsolicited e-mails to pass through their networks to consumers 
while blocking others in their spam filters. Regardless of 
whether you call all unsolicited commercial e-mail spam, it is 
rapidly on the rise, and its sheer volume is affecting how 
consumers and businesses use e-mail. E-mail messaging has 
fundamentally changed the way we communicate with family and 
friends, the way we communicate with businesses that provide 
goods and services, and the way that businesses market products 
to consumers.
    The growing affliction of spam, however, may threaten all 
of us. Less than 2 years ago, spam made up only 8 percent of 
all e-mail. Today, industry experts estimate that more than 45 
percent of all global e-mail traffic is spam, and many expect 
it to reach the 50 percent mark by this summer. AOL estimates 
that it blocks 80 percent of all its inbound e-mail, nearly 2.4 
billion messages each day. Managing this influx adds real cost 
to consumers and businesses. There are other costs to 
Americans, such as the cost to our children, who may be 
victimized by the nearly 20 percent of spam that contains 
pornographic material, some including graphic sexual images.
    The FTC also tells us that two-thirds of all spam contains 
deceptive information, much of it peddling get-rich-quick 
schemes, dubious financial or health care offers, and 
questionable products and services. While most agree that 
something should be done about spam, it is clear that 
legislation alone will not solve the problem.
    Yesterday's New York Times had a very interesting article. 
It says--and I will not, obviously, quote the whole article. I 
will include it in the record, but it said at first, it looked 
as if some students at the Flint Hill School, a prep academy in 
Oakton, Virginia, had found a lucrative alternative to an 
after-school job. Late last year, technicians at America Online 
traced a new torrent of spam, or unsolicited e-mail 
advertisements, to the school's computer network. On further 
inquiry, though, AOL determined the spammers were not 
enterprising students. Instead, a spam-flinging hacker who has 
still not been found exploited a software vulnerability to use 
Flint Hill's computers to relay spam while hiding the e-mails' 
true origins.
    I mention that story because the complexity of this issue 
is challenging to all of us, and the complexity and the 
innovative ways that spammers are employing make this to some 
degree an issue that has ever-changing challenges. The fact 
that there may be--keeping up with resourceful spammers' latest 
technology is not the only challenge. Jurisdictional barriers 
only complicate enforcement, and up to 90 percent of all spam 
may pass through mail servers outside of the United States.
    The fact that there may be no silver bullet to the problem 
of spam does not mean, however, that we should stand idly by 
and do nothing at all about it. It is clear we must act, but I 
ask the witnesses to help us define the problem and tell us 
how, whether by technical, legislative, or other means we can 
be most effective. For Congress' part, we should make no 
mistake, unless we can effectively enforce the laws we write, 
those laws will have little meaning or deterrent effect on any 
would-be purveyor of spam.
    Finally, I ask industry to continue to respond to the 
demands of American consumers in doing all that it can to stop 
the worst part of spam. Parents should not have to think twice 
before encouraging their children to use the computer.
    I thank the witnesses, and look forward to the testimony.
    Also, I would like to enter into the record, letters from 
Mr. Bill Gates and also Jerry Berman of the Center for 
Democracy and Technology, basically stating their commitment to 
working with us to try to eliminate this issue.
    [The information referred to follows:]

                                                  Microsoft
                                                       May 21, 2003

Letter from Bill Gates to the U.S. Senate Commerce Committee Regarding 
                             Spam Hearings

Dear Chairman McCain and Ranking Member Hollings:

    Thank you for holding this important and timely hearing on spam. I 
greatly appreciate the leadership of both you and your Commerce 
Committee colleagues. I regret that we are unable to participate 
directly, but would like to take the opportunity to share Microsoft's 
perspective on this critical e-commerce and consumer issue.
    The torrent of unwanted, unsolicited, often offensive and sometimes 
fraudulent e-mail is eroding trust in technology, costing business 
billions of dollars a year, and decreasing our collective ability to 
realize technology's full potential. According to some industry 
estimates, spam now makes up more than 50 percent of all e-mail. To 
make matters worse, spam often preys on less sophisticated e-mail 
users, such as our children, posing a genuine threat to personal 
security and privacy and threatening the very utility of e-mail as a 
viable communication tool.
    Microsoft firmly believes that spam can be dramatically reduced, 
and that the solution rests squarely on the shoulders of industry and 
government. There is no silver bullet solution to the problem. Rather, 
we believe that fully addressing this problem for the long-run requires 
a coordinated, multi-faceted approach that includes technology, 
industry self-regulation, effective legislation, and targeted 
enforcement against the most egregious spammers.
    In terms of technology, Microsoft is committed to providing 
customers with the best solutions available, and engaging on every 
level to find new and better technical means to stop spam. To date, 
Microsoft's investments in anti-spam technologies have already paid off 
for businesses and consumers through innovations available in new 
versions of our products, such as MSN, Hotmail, Exchange and Outlook.
    The industry is building better filters every day, and is investing 
heavily in research and development to open the door to greater 
innovation. We need filtering technologies that are easier for 
consumers to use, and more effective at determining which e-mail 
messages are spam and which are desired communications. This 
differentiation will greatly reduce the risk of falsely misidentifying 
legitimate e-mail as spam.
    While we and others have made significant advances in anti-spam 
technology, we recognize there is still much work to be done. But 
technology is not the only answer. Effective and complementary self-
regulation efforts by the industry are crucial.
    Specifically, we support the establishment of an independent trust 
authority or authorities around the globe that could spearhead industry 
best practices, and then serve as an ongoing resource for e-mail 
certification and customer dispute resolution. In short, these 
authorities could provide mechanisms to identify legitimate e-mail, 
making it easier for consumers and businesses to distinguish wanted 
mail from unwanted mail. Of course, any technology designed to 
establish the identity of legitimate commercial firms and associate 
them with a trusted sender ``seal'' should be based on open standards 
and developed with broad input from affected industries.
    But in order for the self-regulation and technology efforts to be 
successful, they need to be supported by strong Federal legislation 
that prohibits fraudulent and deceptive spamming practices, and 
empowers consumers without threatening the vitality of legitimate e-
commerce.
    Specifically, Federal legislation should create incentives for e-
mail marketers to adopt best practices, and to certify themselves as 
trusted senders who can be more easily identified by consumers and 
filters alike. One way to encourage marketers to adopt e-mail best 
practices is to provide a Safe Harbor for those companies who are 
members of an FTC-approved self-regulatory organization. Under this 
approach, safe harbor participants would be entitled to avoid the 
burden of additional labeling requirements (such as ``ADV:'' to 
identify e-mail advertisers) while enjoying other regulatory benefits 
based upon their compliance with specific sender guidelines.
    Thus, Federal legislation should identify the basic components that 
industry guidelines must address, such as notice and choice 
obligations, but permit the industry to take the lead in developing the 
specific guidelines within these parameters.
    Microsoft believes other elements of Federal legislation should 
include:

  <bullet> Effective Internet service provider (ISP) enforcement that 
        allows ISPs to prosecute spammers on behalf of their customers;

  <bullet> Meaningful definitions to capture all bad actors involved in 
        sending unlawful spam, including those who knowingly assist in 
        the transmission of unlawful spam;

  <bullet> Provisions that permit state Attorneys General to enforce 
        violations of Federal law, as well as existing state contract 
        and trespass laws, in order to further increase the pressure on 
        persistent spammers;

  <bullet> Express language that preserves the right of ISPs to combat 
        spam (i.e., provisions that make it clear that the Federal 
        anti-spam law does not impose an obligation on ISPs to block or 
        carry certain types of e-mail messages, and does not impair an 
        ISP's ability to enforce its anti-spam policies); and

  <bullet> Federal preemption of state statutes that regulate the 
        sending of commercial e-mail messages provided the Federal 
        anti-spam law contains strong substantive requirements. Because 
        ISPs rely heavily on state contract and trespass laws, as well 
        as laws relating to computer fraud and theft, in their fight 
        against spammers, Federal preemption in any anti-spam law 
        should include a carve-out for such state laws.

    The recent increase in anti-spam legislative activity both 
domestically and internationally is encouraging, and we commend you for 
the important work you are doing in this area. Current U.S. state laws 
already make it possible for the industry to begin taking action 
against spammers who are illegally targeting customers. Enforcement 
efforts across the industry to date have been successful, and more will 
come. ISPs including Microsoft, AOL and Earthlink have already begun to 
file lawsuits, as have the Federal Trade Commission and many state 
Attorneys General, in an effort to increase the costs of sending spam, 
thereby reducing its volume.
    As a leader in the industry, Microsoft is committed to using its 
resources to help address this problem from every perspective: 
technology, self-regulation, legislation and enforcement. We have 
started to see progress on all fronts, but much more work needs to be 
done.
    We pledge our support to your legislative effort, and look forward 
to sharing our proposals and working with others toward a viable 
solution. When industry, government and technology come together to 
solve the spam problem, we will truly be able to offer consumers a 
trustworthy, safe and more productive e-mail experience.
            Sincerely,
                                                Bill Gates,
                             Chairman and Chief Software Architect.
                                 ______
                                 
                          Center for Democracy & Technology
                                       Washington, DC, May 20, 2003
Chairman John McCain,
Senate Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Dear Chairman McCain:

    The Center for Democracy and Technology is continuing its activity 
to help find effective solutions to the problem of unsolicited 
commercial e-mail--also known as ``spam.'' We welcome the Committee's 
inquiry into this important issue, and look forward to working together 
towards a solution that will protect the Internet and its users from 
the choking effects of unwanted e-mail, while maintaining the openness 
and innovation that makes the Internet so valuable.
    As per your request, we have attached our recent report ``Why Am I 
Getting All This Spam?'' which we ask you to consider in the 
Committee's hearings on this issue. In the report, CDT explored the 
ways in which spam was received by over two hundred and fifty e-mail 
addresses spread all over the Internet. In six months, we received over 
eight thousand unsolicited e-mail messages to addresses that had been 
posted on the Web, used in newsgroups, or disclosed to Internet 
businesses.
    From that research, CDT created a series of tips for users to take 
steps to shield themselves from spam. Those tips, as well as the rest 
of our report, are attached.
    Based on our research and further discussions, CDT believes that 
the spam problem merits targeted Federal legislation to help alleviate 
the burdens spam causes for consumers, businesses, and ISPs. While spam 
is undeniably a major problem for the future of the Internet, we must 
be careful to craft legislation that can be effective and does not run 
counter to freedom of speech and other concerns.
    A prerequisite to narrow and effective spam legislation is open 
dialogue among policymakers, industry, and Internet users--a dialogue 
that is only beginning to occur. This committee has an important role 
to play in creating the kind of open discussion that will lead to the 
best path forward. We look forward to continued work with you on this 
important issue.
            Sincerely,
                                              Jerry Berman,
                                                         President.
                                 ______
                                 

                               LexisNexis

               Copyright 2003 The New York Times Company

   The New York Times--May 20, 2003 Tuesday Correction Appended Late 
                             Edition--Final

SECTION: Section A; Column 1; Business/Financial Desk; Pg. 1

LENGTH: 1835 words

HEADLINE: TECHNOLOGY; E-MAIL'S BACKDOOR OPEN TO SPAMMERS

BYLINE: By SAUL HANSELL

BODY:

    At first, it looked as if some students at the Flint Hills School, 
a prep academy in Oakton, Va., had found a lucrative alternative to an 
after-school job. Late last year, technicians at America Online traced 
a new torrent of spam, or unsolicited e-mail advertisements, to the 
school's computer network.
    On further inquiry, though, AOL determined that the spammers were 
not enterprising students. Instead, a spam-flinging hacker--who still 
has not been found--had exploited a software vulnerability to use Flint 
Hills' computers to relay spam while hiding the e-mail's true origins.
    It was not an isolated incident. The remote hijacking of the Flint 
Hills computer system is but one example among hundreds of thousands of 
a nefarious technique that has become the most common way for spammers 
to send billions of junk e-mail messages coursing through the global 
Internet each day.
    As spam has proliferated--and with it the attempts by big Internet 
providers to block messages sent from the addresses of known spammers--
many mass e-mailers have become more clever in avoiding the blockades 
by aggressively bouncing messages off the computers of unaware third 
parties.
    In the last two years, more than 200,000 computers worldwide have 
been hijacked without the owners' knowledge and are currently being 
used to forward spam, according to AOL and other Internet service 
providers. And each day thousands of additional PC's are compromised at 
companies, institutions and--most commonly of all--homes with high-
speed Internet connections shared by two or more computers.
    ``The spammers have mutated their techniques,'' said Ronald F. 
Guilmette, a computer consultant in Roseville, Calif., who has 
developed a list of computers that are forwarding spam. ``Today, if you 
are trying to do a really mass spamming, it is de rigueur to do it in 
an underhanded manner.''
    Just last Thursday, 17 law enforcement agencies and the Federal 
Trade Commission issued a public warning about some of the ways 
spammers now commandeer computers to evade detection. The officials 
translated the warning into 11 languages because many of the exploited 
computers are known to be in China, South Korea, Japan and other 
countries with heavy Internet use.
    Mostly, the spammers are exploiting security holes in existing 
software, but increasingly they are covertly installing e-mail 
forwarding software, much like a computer virus. For some, hacking is 
no longer about pranks, but making a profit.
    ``This is not about a hacker trying to show off, or give you a hard 
time,'' said William Hancock, chief security officer for Cable and 
Wireless, the British telecommunications company. ``This is about 
money. As long as there are people who want spam to go out, this is not 
going to go away.''
    Spam fighters say that some software is too easy to exploit and 
should be fixed. Moreover, computer users can take technical 
precautions to safeguard their machines. But not everyone will bother 
to take those steps, even if he or she discovers having been dragooned 
into the spammers' global army.
    To begin with, most users do not see much effect when their 
computer has been co-opted. Surfing the Web from the victimized 
computer may be slower than usual but that is not always easy to 
detect. In most cases, the owners' e-mail addresses are not added to 
the spammed messages, so there is no need to worry that friends and 
associates will think the PC owners have suddenly started peddling 
herbal Viagra.
    Indeed, the only way most users even become aware of such 
hijackings is when they receive telephone calls or e-mail from their 
Internet service providers saying a piece of spam was traced back to 
their machines.
    ``People are shocked,'' said Bobby Arnold, a network abuse engineer 
at Earthlink, the big Internet provider. ``Someone will say, `I thought 
my computer was running a little slow, but I had no idea it was being 
used to send spam.' ''
    Some of the victims of the hidden spammers are revolted to learn, 
Mr. Arnold said, that they are aiding the hucksters and pornographers 
responsible for what many Internet users consider the medium's great 
blight. The truly offended rush to safeguard their machines.
    But others, who see no direct impact to themselves, simply shrug 
off the problem, Internet providers say. Intent on reducing their 
network clutter, the providers then often try to cajole them into 
cooperating--and, if that fails, will sometimes cut off a user's 
service.
    Sometimes people do find that someone has been sending spam and 
using their e-mail address as the sender, but this does not mean that 
their computers were used. Nothing on the Internet verifies that an e-
mail message was actually sent by the person listed in the ``From'' 
address, which is one reason fighting spam is so hard.
    And spammers like to send e-mail that appears to be from their 
enemies or names chosen at random. The legitimate owners of those 
addresses are often left to clean out hundreds or thousands of 
complaints from their e-mailboxes.
    When a computer receives an e-mail message, it does record a code 
number, called an Internet protocol address, that can be traced to the 
computer that is connecting to it. But often e-mail is passed from one 
machine to another and the identity of the original sender cannot be 
verified.
    Indeed, the rapid rise in the number of spammers trying to hijack 
innocent computers is a direct result of their desire to hide their own 
Internet protocol addresses from spam blockers. Most commonly, they are 
taking advantage of a backdoor in much of the software that office 
users or people with high-speed connections at home often install to 
share an Internet link among several computers--or so-called proxy 
servers. Some other types of e-mail and Web surfing software, typically 
run by larger companies, can also be taken advantage of if security 
features are not properly set up.
    Because it essentially enables one computer to masquerade as 
another, a proxy server is an ideal tool for anyone seeking to use the 
Internet anonymously. So proxy servers are used by people in some 
countries to visit websites blocked by government censors. They are 
also used by hackers trying to attack other machines. And they are 
perfect for spammers trying to avoid filters.
    None of these uses would be possible if the owners of the proxy 
servers made sure to configure them for access only by authorized 
users. But whether from laziness or ignorance, many users of proxy 
servers leave them open to anyone on the Internet.
    AnalogX Proxy, a free proxy-server program that has been downloaded 
by more than a million people, is automatically in the open state when 
it is first installed. Mark Thompson, the author of AnalogX, said he 
had rebuffed the requests of many antispam activists to distribute the 
software with the security features already activated because doing so 
would make it harder to set up.
    ``The biggest plug for the proxy is it is really easy to get it 
running,'' he explained. Mr. Thompson said he did try to achieve a 
compromise by revising the program to give people a warning about 
security problems every time it starts.
    Even so, Wirehub, a Dutch Internet service provider, says that 
45,000 of the 150,000 open proxy servers it has identified as sending 
spam appear to be using AnalogX.
    To find all these vulnerable machines, spammers and other hackers 
deploy computers that do nothing more than try to connect to millions 
of computers across the Internet, looking for open proxy servers to 
exploit.
    At the Flint Hills School, ``it was pretty amazing how fast our 
vulnerability was picked up by the spammers,'' Robert Hampton, the 
school's director of technology, said recently. Once the problem was 
identified, the school was able to fix it immediately.
    Spammers and hackers trade or sell lists of open proxy servers on 
dozens of websites. And other sites sell software a would-be spammer 
can use to find new servers.
    In the last six months, an increasingly common trick has been for 
spammers to attach rogue e-mail-forwarding software to other e-mail 
messages or hide it in files that are meant to emulate songs on music 
sharing sites like KaZaA.
    As with all such hacker contraptions, and much spam, it is 
difficult to figure out who is behind these programs. But there is some 
evidence that one of the major spam-sending programs, known as Jeem, 
originated in Russia, which has been a fertile ground for both spammers 
and hackers.
    Last October, Michael Tokarev, a Russian computer programmer active 
in the worldwide antispam effort, noticed a lot of spam in Russian that 
offered bulk-mailing services. The messages were identical, but they 
came from many different computers. He investigated and found they were 
forwarded by a program, calling itself Jeem, that had not been seen 
before.
    Mr. Tokarev said that in December, a Russian forum for spammers 
called Carderplanet.com contained a posting offering to sell the 
Internet addresses of open proxy servers, for $1 each, that appeared to 
be machines infected with Jeem. ``Since the last week of December, 
several big U.S. spammers started to use those Jeems, too,'' Mr. 
Tokarev wrote in an instant message interview last week.
    Machines infected with Jeem, which is especially hard to find 
because it keeps switching its identity on the computers it borrows, 
seem to be used these days mostly by spammers selling pornography, 
David Ritz, a volunteer spam fighter, said. Using a software monitoring 
tool he helps run, Mr. Ritz last week examined the messages sent to 
Internet news groups from just one home computer infected with Jeem. On 
one day last week, this computer sent 773 pornographic news postings 
with subjects like ``Lolita paradise'' and ``N.U.D.E--L,O,L,I,T,A,S.''
    ``Open proxies are the single greatest threat to the integrity of 
the network that we see now,'' he said.
    AOL, which has made fighting spam a central part of its marketing 
thrust, is taking what some see as radical action against open proxy 
servers. It will no longer accept any incoming e-mail sent directly 
from the computers of individual home users with high-speed service. 
This will not affect most home users because they typically do not run 
e-mail servers on their own computers but connect their e-mail programs 
to servers run by their Internet providers. But a handful of advanced 
users and small businesses do run their own e-mail servers connected to 
high-speed lines, and they no longer can send e-mail to AOL users.
    Road Runner, the high-speed service of Time Warner cable, is taking 
a different approach. It is actively running the same sort of scanning 
program used by the spammers to find out whether any of its customers 
have open proxy servers. Those that do are asked to close them. Many 
other service providers shy away from such scanning because it appears 
to be an invasion of privacy.
    ``It's a race,'' said Mark Harrick, Road Runner's director of 
network security. ``There are malicious individuals scanning our users 
looking for vulnerabilities every day, and we want to find them 
first.''

CORRECTION-DATE: May 21, 2003

CORRECTION:

    A front-page article yesterday about mass e-mailers who bounce spam 
off the computers of unwitting third parties misspelled the name of a 
prep school in Virginia whose network was used to send spam. It is 
Flint Hill, not Hills.
    The article also misspelled the surname of the director of security 
for Road Runner, which is scanning its customers' systems to determine 
whether they are vulnerable. He is W. Mark Herrick Jr., not Harrick.
    GRAPHIC: Chart: ``Close the Door To Spammers'' To avoid having 
their e-mail ads blocked, spammers are increasingly relaying their 
messages covertly through computers of home and office Internet users. 
The users are often unaware that their computers have been hijacked. 
Measures to prevent spammers from commandeering a computer will also 
make for a safer Internet connection. ERECT A FIREWALL A firewall 
program governs what programs may connect to the Internet and can block 
the forwarding of rogue e-mails. Firewalls come both as software 
programs and built into routers, devices used to share a connection. 
USE ANTIVIRUS PROTECTION This software protects against infiltration by 
a covert spam-relaying program. Keep this software updated, as hackers 
are prolific. BEWARE OF DOWNLOADS Many malicious programs are 
distributed in the form of attachments to e-mails, or files to 
download, as from a music-sharing website. LIMIT PROXY SERVERS If using 
proxy-server software instead of a router to share an Internet 
connection, make sure it is set to share only with computers on the 
local area network, not the entire Internet. Common proxy-server 
programs include AnalogX Proxy and Wingate. (pg. C6)

    The Chairman. I would like to ask Senator Burns, if that is 
OK, Senator Burns and then Senator Wyden, and then we will 
welcome our two colleagues.

                STATEMENT OF HON. CONRAD BURNS, 
                   U.S. SENATOR FROM MONTANA

    Senator Burns. Thank you, Mr. Chairman, and I think you hit 
the nail on the head a little while ago. I want to thank my 
colleague, Senator Wyden, and you mentioned him spending many 
hours on this issue, and we have for the last 4 or 5 years, but 
I also want to commend you for your patience in putting up with 
us. We have been involved in this issue quite a while now, and 
now we are finally coming down to a product I think we can 
present to the American people with pride, and I think also the 
Chairman's acknowledgement that legislation alone will not take 
care of this problem. It will, however, facilitate industry and 
law enforcement people, especially the FTC, to get down to 
business and look at it seriously, as if we have the technology 
to prevent this unwanted commercial e-mail, if you want to call 
it that, and do something about it, because it is the cost to 
businesses and individuals are escalating, and they are wide-
ranging.
    Businesses lose money when employees take more time to wade 
through their e-mails, individuals who pay long distance 
charging to ISPs end up footing the bill while their inbox is 
filled with unsolicited messages. Servers all over the country 
have difficulty blocking spam, all while spammers work to find 
more and more ways to circumvent the latest software server or 
individual blocking systems.
    I want to specifically, really, at this point thank my 
colleague, Senator Wyden, who has been working tirelessly for 
years. Last month, Senator Wyden and I reintroduced the CAN-
SPAM bill, which passed unanimously out of this Committee last 
year. I thank the cosponsors of the bill, particularly those on 
this Committee and here today, including Senators Stevens, 
Breaux, Nelson, and, of course, Senator Schumer, and we will 
hear from him later.
    The CAN-SPAM bill empowers consumers and grants additional 
enforcement authority to the FTC to take action against 
spammers. The bill will provide additional tools to end this 
online harassment by allowing users to remove themselves from 
the mass e-mail lists and impose steep fines up to $1.5 million 
on those spammers. For particularly flagrant offenders, the 
CAN-SPAM bill carries criminal penalties, including up to a 
year in jail for those who disguise their identities and use 
false and misleading subject lines. In short, this bill 
provides broad consumer protection against bad actors, while 
still allowing legitimate Internet advertising as a justified 
means of flourishing.
    While it is obvious to anyone with an e-mail account that 
the scourge of spam has continued to worsen, the trends are 
becoming more apparent by the day, and even more alarming. 
According to a recent article in The Washington Post, spam 
currently accounts for 40 percent of all the e-mail traffic. 
The number is estimated to exceed that this summer. America 
Online alone is blocking 2.4 billion spam messages every day. 
That seems almost unbelievable. If current trends continue and 
nothing is done, the toxic sea of spam is threatening to drown 
the very medium of e-mail.
    The digital dreck of spam is particularly poisonous in 
rural areas. Because of the vast distances in Montana, many of 
my constituents are forced to pay long distance charges for 
their time on the Internet. Spam makes it nearly impossible for 
those in rural America to realize the tremendous economic and 
educational benefits of the online era. In today's information 
age, where beating the competitor to the next sale is 
absolutely critical to survival, spam-related slow-downs and 
shutdowns are causing real economic damage. According to one 
study done by a consulting group, spam will cost U.S. 
businesses $10 billion this year alone.
    The true impact of spam is seen is individual stories. A 
constituent of mine, Jeff Smith, who built a cutting-edge cyber 
hotel in Missoula, Montana, he has calculated that spam has 
cost his business $300,000 a year. Nearly half of the bandwidth 
he buys is sucked up by unwanted messages. His entire company 
is only worth $2.5 million, so clearly, a loud clarion call for 
Federal legislation has gone forth, and the Committee should 
heed this call.
    Just weeks ago the New York Times mentioned it, as was 
cited by our Chairman today, and understanding the peril that 
we are in is drowning something that actually a lot of folks 
have thought to be one of the great tools that we have in this 
country especially in areas we might call remote.
    So thank you, Mr. Chairman, for having this hearing. Thank 
you for your patience. Thank you for understanding the problem 
that we are facing.
    The Chairman. Thank you, Senator Burns. Senator Wyden.

                 STATEMENT OF HON. RON WYDEN, 
                    U.S. SENATOR FROM OREGON

    Senator Wyden. Thank you, Mr. Chairman. I will just make a 
few comments. Senator Burns and I have been prosecuting this 
case against spam now for more than 4 years, and he has said it 
very well, and I have been really proud to have been his junior 
partner in this cause all these years, and we appreciate the 
fact that you are willing to hold this hearing.
    Mr. Chairman, it just seems to me what this issue is all 
about is giving consumers control over their inbox. At this 
point, there are few, if any, consequences for those who have 
chosen to abuse the open and low-cost nature of e-mail, and 
that is what Senator Burns and I have been trying to change all 
these years, and I wanted to take just a minute to put a bit of 
perspective on this, because as we have been at this now for 
several Congresses, what would always happen is that we would 
get favorable reactions from people, citizens and others who 
are frustrated with spam, but we always heard a number of 
arguments that now was not the time for congressional action.
    People would say, well, the problem is not so serious, it 
is just an annoyance. They would say, you can use the delete 
key, that is the only solution that anybody needs, it is 
overkill to have a variety of enforcement tools, and what 
seemed particularly ironic in this Committee, since we led the 
effort for the Internet Tax Freedom Act, people said that spam 
legislation would stunt the growth of E-commerce. Well, I do 
not think those arguments hold much weight any more, given the 
fact that we have got this tidal wave of spam, and the question 
now is to look at the good ideas.
    Senator Burns and I think that we have come up with an 
approach that is going to work, but we know our colleagues have 
a number of good ideas, and we are anxious to look at those as 
well, but begin to change the odds. The people who are spamming 
are not technological simpletons. These are very sophisticated, 
savvy people, and what we need to do is to change the odds, and 
we believe in our legislation, by producing a tiered approach 
on enforcement--Senator Burns and I have criminal penalties, we 
give the Federal Trade Commission civil authority to bring 
action, we give the state Attorneys General the authority to 
bring action, and we give the ISPs, the Internet service 
providers the authority to bring action, and we believe that if 
you bring a modest number of enforcement actions using that 
kind of authority, you send a message to those scamming 
spammers and people who want to abuse the system that the odds 
are going to change. The odds are more likely that this is 
going to be treated as a serious problem and you are going to 
have some consequences.
    The last point that I would make, Mr. Chairman, is that I 
think you absolutely have to have a tough enforceable national 
law, because the alternative is, the country will have a crazy 
quilt of state laws. The spammers will play the states off 
against each other, and I think the problems will continue to 
proliferate. What this really comes down to is, in our country, 
we think that the consumer ought to have a right to know where 
e-mail is coming from, and they ought to have a right to tell 
the spammer to stop. We are anxious to move forward finally, 
welcome our colleagues. They have good ideas, and several of 
our other colleagues do as well. Let us move to examine them 
and then pass legislation here in this Committee.
    And I thank you.
    The Chairman. Thank you. I would like to welcome both of 
our colleagues, Senator Schumer and--Senator Allen, did you 
have an opening comment?

                STATEMENT OF HON. GEORGE ALLEN, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Allen. If I may, Mr. Chairman. Thank you, and I 
want to thank all of our witnesses for appearing this morning 
on this important topic. In fact, I was with a group of 
people--I will not mention who; it is political, but I said we 
have to leave here because we have got a hearing on spam, and 
everyone said go, great, get rid of it, and so this is a good 
bipartisan issue that I think all Americans care about. 
Obviously, for e-mail and Internet to continue, it has to be 
efficient, and unfortunately--and you will get all the 
testimony here--it is becoming that you spend more time 
deleting unwanted messages, and that is one thing personally, 
it is another thing for a business, and I will also speak 
briefly on a few points here.
    I know that Commissioners Swindle and Thompson will be 
testifying, the FTC Commissioners, and I want to commend you 
all for the effort you have been making particularly enforcing 
against e-mail that is fraudulent or containing deceptive 
information. That is very important, and I commend you. The 
goal here, as we see it, is to empower consumers or provide 
them with a choice while preserving legitimate E-commerce 
business activities that are important for the growth of our 
economy and businesses. I do think that the costs, though, 
associated with spam far outweigh the benefits of it.
    This is a balance we have to strike here, and consumers--
and I will say this as a parent--are becoming increasingly 
concerned about the spam that is coming through to our 
children, not just disruptive to the family, but children, and 
people will talk about that. I will say from personal 
experience now, using AOL as my Internet service provider 
compared to previous ISPs, it is much better in blocking this 
unwanted spam. You may have to click off a few ads, which you 
have always had to do, but as far as blocking this unwanted 
spam, it is far, far better in that regard, and I know that Mr. 
Leonsis will testify on AOL's efforts.
    Finally, I want to commend this legislation that Senator 
Burns and Senator Wyden have. I think it is a good bill pending 
before our Committee, Mr. Chairman, as it relates to the issue 
of state preemption, which is an important matter for Virginia, 
and we have just passed a very good law. It strikes the right 
balance as far as enforcement and preserving certain causes of 
action as far as fraud, so I think ultimately, an approach 
which incorporates the good legislation like the Burns-Wyden 
legislation, as well as effective Government enforcement, and 
let us also couple it with technology advancements and 
solutions, and improved business practices. We will strike that 
appropriate balance needed to empower consumers while 
maintaining e-mail as a viable commercial communications tool, 
and I thank you, Mr. Chairman, for having this very timely, 
needed hearing.
    I thank all the leaders and our colleagues for their 
leadership, and look forward to reading and hearing the 
testimony of our witnesses.
    The Chairman. Thank you. Welcome to our colleagues, Senator 
Schumer and Senator Dayton.
    Senator Schumer.

             STATEMENT OF HON. CHARLES E. SCHUMER, 
                   U.S. SENATOR FROM NEW YORK

    Senator Schumer. Thank you, Mr. Chairman. First, I want to 
thank you for holding these timely hearings and for your 
leadership on so many consumer issues. I think people who have 
problems with all sorts of different new technological and 
other industry problems look to you as a beacon, and once 
again, you are Johnny-on-the-spot, and we very much appreciate 
it. I also want to--I did not even--the double entendre was not 
intended.
    [Laughter.]
    Senator Schumer. Sometimes these things just slip out. It 
is not so bad. Worse things have been said about people.
    In any case, I also want to thank Senators Burns and Wyden. 
They have been true trailblazers and leaders on this issue, and 
I know as we try to come together on legislation that their 
proposals and their thoughts on this will help us dramatically 
in Congress solve this problem.
    Now, it is no secret, Mr. Chairman, we are under siege. 
Armies of online marketers have overrun e-mail inboxes across 
the country with ads for herbal remedies, get-rich-quick 
schemes, and pornography. Today's spam traffic is growing at a 
geometric rate, causing the superhighway to enter a state of 
virtual gridlock. What was a simple annoyance last year has 
become a major concern this year, and could cripple one of the 
greatest inventions of the 20th Century next year if we do 
nothing.
    As a result, Mr. Chairman, a revolution against spam is 
brewing as the epidemic of junk e-mail exacts an ever-
increasing toll on families, businesses, and the economy. A 
number of us in the Senate have proposed legislation aimed at 
curbing the spread of spam. I have proposed a no-spam list, 
criminal penalties for spammers, and several other initiatives 
geared toward reducing the number of unwanted e-mails we get in 
our inboxes, and obviously there are many other solutions out 
there, and we know that there is no silver bullet; that not any 
one solution is going to solve this problem, because as you 
mentioned, the technology--you have offensive and defensive 
warfare, and every time a defensive warfare does some good, the 
offense uses the same technology to get ahead.
    But there is one fact that is very encouraging, and that is 
that 90 percent of spam, it is estimated, is caused by about 
250 users, such as the fellow they just caught in my state, in 
Buffalo. That means that legislation, while it will not 
eliminate spam, can really go after the worst users. So can 
enforcement, and we can make a real dent and turn the tide, so 
instead of the number of spam messages every one of us gets 
going up each week, it will go down and down until it is back 
to being just an annoyance.
    So today I am going to discuss these measures, but I also 
want to talk about one other thing, because spam grows so 
exponentially, and that is the need for an international effort 
in the war on spam to occur at the same time we seek to deal 
with the problem here in the United States. The simple fact of 
the matter is that so many of the problems that have come about 
in the digital age are inherently global. Spam is no exception.
    Spam is truly an international issue, because the Internet 
is a global resource, and stemming the rising tide of spam is 
essential if the Internet is to continue to be an effective 
medium of communication and commerce. It would not do us much 
good if we went after the spammers here in the United States 
and they set up shop in another country and just did the same 
thing.
    Other countries are beginning to deal with spam, Korea and 
Australia among them. Their governments are considering anti-
spam measures, and collaboration with these and other Nations 
is crucial if the U.S. is to be effective, so that is why today 
I am proposing an international agreement, a treaty to fight 
spam. A global agreement will ensure that anti-spam standards 
protecting American computers are enforceable both here and 
abroad.
    An international agreement will become more important as 
new regulations and law enforcement efforts in the U.S. cause 
the most prolific spammers to flee to other countries. We know 
that is what they do. We have experience with money laundering, 
digital piracy, child pornography. We know that as soon as we 
tighten up our laws here and institute vigorous enforcement, 
those who want to violate our laws move abroad to avoid 
prosecution.
    The bottom line is that the second we tighten up 
enforcement here at home, rogue actors go overseas to continue 
their activities. If we are just focused on curbing spam here 
at home, we will be unsuccessful, but that does not mean we 
should sit on our hands until we get our fellow countries on 
board with these efforts. There is a lot of work that needs to 
be done here, and that is why so many interested parties, 
including the Direct Marketing Association, have come around to 
the view that the Federal Government can play a meaningful role 
in stopping spam. They know that effective anti-spam 
legislation makes it more likely that consumers will read 
legitimate marketing messages.
    We also have the problem of pornography, which is really a 
serious one. Let me illustrate this point with a story. My wife 
and I have two wonderful children, one of whom is just about to 
complete her first year at college, and the other, a 14-year-
old girl, Alison, is an absolute whiz on the Internet. She 
spends far more time on the Internet than she does watching 
television, which until recently we thought was great, 
considering what is on television.
    Well, as parents we do our best to make sure the Internet 
is a positive experience for her, a device to help her with her 
school work, learn about events taking place around the world, 
maybe even a way to order the latest N Sync CD. You can imagine 
my wife's and my anger and dismay when we discovered that not 
only was she a victim of spam, but like all e-mail users, much 
of the junk mail she was receiving advertised pornographic 
websites, things I would not want to see, let alone have my 
child see. That is another reason that we have to move, and we 
have to move quickly.
    So let me just discuss the solution that I have proposed. 
Criminal penalties, and we really need stiff jail time for 
repeat offenders. We can warn them once, fine them 
significantly second, but if they keep doing this, we should 
give them jail time, and I am working with my colleagues on the 
Judiciary Committee. We will have to work in concert with the 
Commerce Committee, which has primary jurisdiction, in terms of 
criminal penalties. We can hunt down the spammers one by one 
using these penalties, and again, because so much of spam is 
caused by so few people, it should make a real difference.
    Another idea I have offered is the national no-spam 
registry. A list maintained by the FTC would be a gigantic 
database of people who can call in or e-mail in and opt out of 
receiving unwanted spam by submitting their mail addresses to 
the list. The list is modeled on the highly successful do-not-
call registries that have been used to ward off telemarketers. 
It has been very successful in telemarketing. Admittedly, it is 
a little harder with spam, because it is a lot cheaper than 
having somebody make a phone call, but again, given the small 
number of people who do this, it can make a real and dramatic 
difference.
    Although a similar list for e-mail addresses poses security 
challenges that must be addressed before implementation, I am 
hopeful that this list, in conjunction with ADV labeling, 
safeguards for those who employ best practices, might be one 
way we can give consumers control over their inboxes.
    In conclusion, Mr. Chairman, this is a very important 
issue. The technology which has blessed our lives and accounted 
for so much of the prosperity we have seen in the last two 
decades is at risk, a very real part of it, and I am glad that 
you are Chairman of this Committee and look forward to working 
with you, Senator Burns, and Senator Wyden to come up with a 
good, strong, comprehensive bill. At the same time, I hope we 
can all work together to get our country to start talking to 
other countries about a treaty, so when we solve things here, 
they do not just go right overseas and we have to start all 
over again.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Schumer follows:]

            Prepared Statement of Hon. Charles E. Schumer, 
                       U.S. Senator from New York
    Chairman McCain, Senator Hollings, Colleagues, Good morning.
    Mr. Chairman, I want to thank you for holding this hearing to 
address Unsolicited Commercial e-Mail or spam. I also want to commend 
Senators Burns and Wyden for their leadership and hard work on this 
issue.
    I believe we are under siege. Armies of online marketers have 
overrun e-mail inboxes across the country with advertisements for 
herbal remedies, get-rich-quick schemes and pornography.
    As you are all aware, spam traffic is growing at a geometric rate, 
causing the Superhighway to enter a state of virtual gridlock.
    What was a simple annoyance last year has become a major concern 
this year and could cripple one of the greatest inventions of the 20th 
century next year if nothing is done.
    Way back in 1999, the average e-mail user received just 40 pieces 
of unsolicited commercial e-mail--what we call spam--each year. This 
year, the number is expected to pass 2,500. I know that I'm lucky if I 
don't get 40 pieces of spam every couple of days!
    As a result, a revolution against spam is brewing as the epidemic 
of junk e-mail exacts an ever increasing toll on families, businesses 
and the economy.
    Let me illustrate this point with a story. My wife and I have two 
wonderful children, one of whom is just about to complete her first 
year at college. The other, a 14 year-old girl, is an absolute whiz on 
the Internet who loves sending and receiving e-mail.
    As parents, we do our best to make sure she has good values and 
that the Internet is a positive experience for her--a device to help 
her with her schoolwork or learn about events taking place around the 
world and, maybe even a way to order the latest N Sync CD.
    You can imagine my anger and dismay when I discovered that not only 
was she a victim of spam like myself, but, like all e-mail users, much 
of the junk e-mail she was receiving advertised pornographic websites.
    I was and remain virtually powerless to prevent such garbage from 
reaching my daughter's inbox.
    The frustration I feel in the battle against spam is one that I 
think business owners and Internet Service Providers across that nation 
can identify with.
    According to Ferris Research, spam costs businesses in the United 
States $10 billion each year in lost productivity, consumption of 
Information Technology resources and help-desk time.
    With surveys showing that over 40 percent of e-mail traffic 
qualifies as spam, ISPs spend millions of dollars each year on 
research, filtering software and new servers to deal with the ever 
expanding volume of junk e-mail being sent through their pipes.
    And, if the spam itself isn't enough, spammers often engage in 
crimes such as identity theft and fraud to secure e-mail addresses and 
domain names from which to send millions of pieces of junk e-mail.
    All of this demonstrates that it's time to take back the Internet 
from the spammers. And why I am joining you today in saying that enough 
is enough.
    We all know that spammers use a variety of tools and methods to 
send millions of e-mail messages each day. In order to be effective, I 
believe spam solutions will have to be as creative and varied as the 
spammers' efforts.
    We should give law enforcement officials, ISPs and others a wide 
variety of tools to fight spam.
    Among the possible solutions that are exist--and this is not an 
exhaustive list--are pending legislation in the Senate and the House 
the would enact anti-e-mail harvesting provisions and special e-mail 
labeling requirements; stipulate valid unsubscribe features; and 
prohibit false and fraudulent header, router and subject line 
information.
    And that's just a start. As I said before, because of the dramatic 
challenges we face in stemming the spam flood, we need a multi-pronged 
approach.
    In particular, I believe stiff criminal penalties--including jail 
time for repeat offenders--are warranted. I am working with my 
colleagues on the Judiciary Committee on a bill to create these new 
penalties.
    We will hunt down spammers one by one, using criminal penalties to 
show what will happen to those who continue to send junk e-mail.
    Another idea I have offered is a National No-Spam Registry. This 
list, maintained by the Federal Trade Commission, would be a gigantic 
database of people who have ``opted out'' of receiving spam by 
submitting their e-mail addresses to the list.
    The list is modeled on the highly successful Do-Not-Call registries 
that have been used to ward off telemarketers.
    Although a similar list for e-mail addresses poses security 
challenges that must be addressed before implementation, I am hopeful 
that this list might be one way we can give consumers control over 
their in-boxes.
    None of these solutions will be the silver bullet that stops all 
spam. But a multi-faceted approach has a better chance of reducing the 
ever-growing amount of spam than a solitary solution.
    And stemming this rising tide is essential if the Internet is to 
continue to be an effective medium of communication and commerce.
    If spam continues to grow, people will rely on their e-mail less 
and less. Right now, consumers are becoming so frustrated at the junk 
e-mail bombardment that they delete legitimate commercial e-mail as if 
it were spam.
    This is why so many interested parties, including the Direct 
Marketing Association, have come around to the view that the Federal 
Government can play a meaningful role in stopping spam.
    They know that effective Federal anti-spam legislation will make it 
is more likely that consumers will read legitimate marketing messages.
    I think we can all agree that spammers must not be allowed to bog 
down the vast potential of e-mail and the Internet.
    It is my hope that the impressive roster of panelists you have 
assembled here today will stimulate ideas to stop spammers in their 
tracks. I look forward to hearing their testimony and working with all 
of you to bring and end to the current junk e-mail epidemic.

    The Chairman. Thank you very much, Mr. Schumer. Thank you 
for coming.
    Senator Dayton.

                STATEMENT OF HON. MARK DAYTON, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Dayton. Thank you, Mr. Chairman. I thank you for 
the opportunity to testify before you this morning, and I 
commend you for your leadership in this whole area, and I 
certainly commend Senators Burns and Wyden also for their 
leadership and the legislation that they have introduced.
    I want to just at the outset, on behalf of the state of 
Minnesota and the good Minnesota Company, Hormel, voice an 
objection to the use of the word, ``spam'' to characterize all 
of this activity. You know that spam was, for a half-century, 
the bane of existence of servicemen and women and others, and 
it came to define a certain low point in some people's view of 
things, but I think it has actually gotten much lower if that 
is the case.
    Senator Burns and I had the opportunity--I ate over in 
South Korea at the DMZ--to eat my third MRE, and I must say, 
Spam at any temperature is a lot better than the MRE that I 
ate----
    [Laughter.]
    Senator Dayton.--however automatically warmed in its pouch, 
and now we have this form of spam, which is, you know, very, 
very different from the Hormel version. For one, with Hormel, 
you get to choose whether or not you want it. Second, it is not 
forced down anyone's throat.
    [Laughter.]
    Senator Dayton. The source is clearly identified, and the 
contents, too. You can ask Hormel what they put in their Spam, 
and they will just tell you right up front it is everything but 
the kitchen sink.
    [Laughter.]
    Senator Dayton. And in what proportions, and what--it is 
left to your imagination, but my anti-spam proposals are 
incorporated in the legislation I have introduced as 563, which 
is the Consumer/Owner's Bill of Rights, and it is broader than 
just the anti-spam, but I will focus on that point alone this 
morning, and it is a starting point, not an end product at all, 
and I recognize going into this that the great appeal of the 
Internet is that it has been unregulated and it has been free.
    I have met many who have enjoyed it that way and used it 
that way and want to keep it that way, but unfortunately, 
individual freedom becomes, in a larger and ever-larger social 
system, a form of anarchy. In that process comes a form of 
Darwinism, where everyone is on his or her own. The strongest, 
the smartest, the most aggressive tend to take over and 
dominate, and that is the situation with spam today.
    There are 31 billion messages being transmitted through 
cyberspace today, each day. That is an estimate, but it is 
enormous and ever-expanding, and these 31 billion messages are 
transmitted freely and free. They are unregulated, they are 
unrestricted, and they are largely unwatched, and everyone who 
is involved in that system must individually then protect 
themselves; the individuals, businesses, and the like, which is 
great for the software industry, who has not created this 
problem, but has tried to help deal with it.
    There are all sorts of software that you can buy to prevent 
spam and pop-ups and ads and all sorts of things, which range 
from nuisances at best, but then increasingly, invasions of 
people's lives, spies, identity theft, credit card theft, and 
spam also becomes a carrier of viruses, worms, trojan horses, 
which are even more destructive and costly to individuals and 
to businesses.
    McAfee's anti-virus unit estimates that there are 62,000 
virus threats today, and these numbers that I am throwing out 
are ones that other sources would have quite different, which 
is part of the function of the expansion of this, and rapidly 
growing aspect of this whole realm, is that I have seen numbers 
that deviate quite a bit from one another, but one virus alone, 
the Code Red worm in the year 2001 was estimated by Computer 
Economics, an independent research firm, to have a worldwide 
cost of $2.62 billion, one virus, and it is expanding, and some 
would say it is even exploding. Senator Schumer referenced 
Howard Carmack, who was recently arrested. It is estimated that 
he issued himself 825 million pieces of spam last year, one 
individual in 1 year.
    Write Mail, the spam blocker firm, estimates, and others 
have said, some 40 percent of all Internet e-mail today is 
spam. I have seen figures that estimate that percentage is 
higher, but the percent share of the e-mail is increasing, I 
think everyone would agree. Legislation will not solve this, as 
others have said, but the situation will not improve without 
legislation. In fact, it will get worse, and I think this is a 
case where the perfect becomes the enemy of the good. This is 
going to be a moving target. It is going to be ongoing. It is 
sort of going to be like the Mad Magazine Spy v. Spy, where 
they will be ever-dueling, one escalating and outsmarting and 
outwitting the other, and the other needing to respond.
    So whatever we design has to be flexible, the process must 
be nimble, and it has to be dynamic. It has to keep up with 
these ever-new developments, and so I would recommend something 
along the lines of what Robert Kennedy said up in the 
Department of Justice years ago, the Anti-Organized Crime Task 
Force, a SWAT team, a team that would drive this effort, carry 
out congressional mandates, and would interact with industry, 
with users, with leaders in Congress, but we have to have 
something that is as dynamic as the industry itself, and as 
inventive as the spam producers themselves.
    My own legislation suggests a national registry, where 
people can opt out one time. Another is to make every e-mail 
sent to someone in the United States be identified as to its 
source, and finally, I think it is worth looking at--I am not 
prepared to propose this now, but some very, very small charge 
to every e-mail that is sent, so small that it would not be 
onerous for an individual or a business that has regular use, 
but it would add up and be a financial deterrent for those who 
are sending millions and even billions of these e-mails all 
over the world.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Mr. Dayton. Senator 
Nelson has an opening comment, and we will leave and go vote 
and come right back. As soon as you finish, we will take a 
quick break.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. And it will be short, Mr. Chairman. I just 
want to throw on the table another approach, and the approach 
would be to have an opt-out provision----
    If all of you leave, that means I am chairing the 
Committee.
    [Laughter.]
    Senator Nelson. We will take up the Nelson bill right now.
    [Laughter.]
    Senator Nelson. The approach is virtually along the same 
lines. It would be more, instead of the implied consent that 
Senator Wyden's bill indicates, there would be more of a 
consumer protection. The message would have to have an opt-out 
provision where the consumer could say, I do not want any more 
of this, and if we are really going to put teeth into this, 
that this violation, both criminal penalty with jail time and/
or fines, would be the first element showing the conspiracy or 
continuum of activities that would activate the RICO Act, which 
is the Racketeer Influenced and Corrupt Organization Act, which 
then gives prosecutors the tools to go after the criminal 
enterprise and to confiscate the assets.
    Now, that is starting to put some bite into the 
legislation, and so I want to offer that, and that will be a 
part of the discussion as we get in and tinker with this 
legislation, trying to fit and design a solution so that 
consumers can start using their e-mail. I mean, it is just 
unbelievable.
    A week ago, I was in my Tampa office. The press had come 
in. We were just going to shoot the breeze, and I happened to 
punch up on the computer to see what messages were there. In 1 
day, I had a normal letter-size piece of paper, single-spaced, 
full of unwanted e-mail messages, two of which were 
pornographic. Now, if that is happening to a United States 
Senator, you can imagine what is happening to our citizens all 
across the country, and they do not want this, and it is time 
for the Government to do something to stop it.
    Another interesting change is that the major network 
providers in the past have been quite skittish about any kind 
of interference with this new form of communication, but they 
have come around now because we are starting to see that there 
is so much of an interference with the normal communication 
lines that the Government is going to have to step in and do 
something about this, perhaps with the FTC, but also very 
likely with legislation.
    And I will just close my comments and dash off to vote, to 
say this. Since I had that conversation in my Tampa office, the 
media wrote about it, and that has been in Florida, and I will 
tell you, everywhere I have gone in Florida since, people keep 
coming up to me and saying, thank you for being willing to do 
something about this, because it has gotten to the point that 
we are fed up and we have had enough, so I hope that we will do 
something about it.
    The Committee will stand in recess.
    [Recess.]
    The Chairman. We will resume the hearing. The witnesses in 
the first panel are Hon. Orson Swindle of the Federal Trade 
Commission and Hon. Mozelle Thompson, also with the Federal 
Trade Commission. Welcome, gentlemen. Since one of you has 
white hair and one of you has no hair, we will begin with the 
white-haired Mr. Swindle.
    [Laughter.]
    Mr. Thompson. I am just follically challenged.
    [Laughter.]
    Mr. Swindle. I would win if we did this on looks, too.
    [Laughter.]
    The Chairman. Mr. Thompson.
    [Laughter.]

 STATEMENT OF HON. ORSON SWINDLE, COMMISSIONER, FEDERAL TRADE 
                           COMMISSION

    Mr. Swindle. Thank you, Mr. Chairman and Members of the 
Committee, for this timely discussion of spam and the threat it 
poses to potential benefits of information technology. 
Consumers must have trust and confidence and comfort with 
technology and its uses, particularly when it comes to their 
privacy and security of personal and sensitive information. 
Spam undermines consumer trust and confidence. It represents a 
significant and rapidly growing threat to web-based services. 
The Commission's prepared testimony provides the Committee with 
an excellent overview of our efforts to combat spam.
    What is spam? We have heard it discussed several times this 
morning. The FTC defines spam as any commercial electronic mail 
message that is sent, typically in bulk, to consumers without 
the consumers' prior request or consent. I think the Chairman's 
term, unwanted, may be perfect.
    There are at least four major concerns caused by spam. 
First, the volume is increasing at astonishing rates. Current 
estimates indicate that at least 40 percent of all e-mail is 
spam. Second, recent studies by the FTC indicate that spam has 
become the weapon of choice of those engaged in fraud and 
deception. Nearly 66 percent of the spam we examined appeared 
to contain falsity and deception. I would ask that our False 
Claims in Spam Report be included as part of the record, Mr. 
Chairman.
    The Chairman. Without objection.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Mr. Swindle. Third, the sheer volume of spam, coupled with 
its capacity to transmit viruses, trojan horses and other 
damaging code, threatens to do major damage to the Internet and 
our critical infrastructure.
    Fourth, there is no easy solution. No one silver bullet 
that will solve the problem. Solutions must be pursued from 
many directions. These concerns represent enormous cost to 
businesses, the economy, consumers, and society.
    Two specific problems demand attention by policymakers and 
industry leaders. First, there is the complex combination of 
technology, market forces, and public policy that will be 
evolving for years to come. The second problem is one that I 
characterize as being heavily influenced by the emotions of 
consumers, small businesses, and home users by the millions who 
are literally fed up with spam. I am concerned that spam is 
about to kill the killer app of the Internet, specifically 
consumer use of e-mail and E-commerce. If consumers lose 
confidence in web-based services and turn away, tremendous harm 
will be done to the economic potential of information 
technology. Solving these problems will require innovation, 
resources, and time.
    However, dealing with the emotional reaction to spam by 
millions of users will demand immediate attention before it 
gets out of hand. Internet service providers, software 
manufacturers, and those engaged in designing operating systems 
must empower consumers with better control over their incoming 
e-mail. Easing the spam burden on consumers would help to shore 
up trust and confidence.
    Surely consumer empowerment is possible today. Why has 
industry not solved this problem? Frankly, to date I am not 
convinced that industry has made the commitment or really wants 
to empower consumers by giving them easy-to-use tools for 
personal control.
    I read a book last summer, Tuxedo Park, by Jennet Conant, a 
fascinating account of Alfred Loomis, a wealthy financier from 
the 1920s. He funded a private research laboratory at his 
Tuxedo Park estate, attracting the greatest scientists of the 
day. They were instrumental in the rapid development of radar, 
which enabled us to keep the supply lines open to England in 
early World War II. Wartime crisis demanded that creative minds 
quickly find technical solutions to complex problems. Loomis 
and his friends were up to the task. It occurs to me that we 
have a crisis today. We must avoid major setbacks to the 
potential of information technology. We need great minds to 
quickly find solutions to spam. Empowering consumers would be a 
good first step. Is industry motivated to do the right thing, 
and do it now?
    The FTC's law enforcement efforts against spam are 
aggressive, but finding the guilty parties is resource-
intensive and a difficult technical challenge. We give consumer 
education high priority at the commission. Our information 
security website and private sector partnerships continue to 
expand our reach. Recently, we released findings from three 
studies to better understand the magnitude of the spam problem, 
how spam is proliferated, and how consumers and users are 
victimized.
    Our recent 3-day spam forum aimed to better inform the 
dialogue and find the best possible solutions to the spam 
problem. The forum was remarkable in its discussions and 
participation, over 400 participants and some 80 or so 
panelists. I would like to share some of the forum's 
revelations, as well as some personal observations about the 
realities of spam. First and foremost, the private sector must 
lead the way to finding the solution. We likely will not find 
the perfect solution. The target will be constantly moving as 
technology evolves. More laws are not necessarily the right 
answer.
    I heard little universal enthusiasm from participants for 
currently proposed legislation. Laws bestowing competitive 
advantage to larger firms over smaller firms are questionable. 
Unenforceable laws will have little real effect. Overreaching 
laws will have unintended adverse consequences. Passing 
legislation to mandate best practices for the good actors will 
not help us track down the bad actors engaged in fraud and 
deception. We must work together.
    Consumers, users, and civil society organizations must be a 
part of our continuing dialogue to find solutions. Awareness 
and safe computing practices by all participants are essential, 
and developing a culture of security where all participants 
work to minimize our many vulnerabilities is an imperative, not 
an alternative. Our efforts to solve the spam problem and 
secure our information systems and networks is not a 
destination. We are embarked upon a journey.
    I thank you, Mr. Chairman.
    [The prepared statement of Mr. Swindle follows:]

        Prepared Statement of Hon. Orson Swindle, Commissioner, 
                        Federal Trade Commission
    Thank you Mr. Chairman and members of the Committee for this timely 
discussion of SPAM and the threat it poses to the potential benefits of 
information technology.
    Consumers must have trust, confidence and comfort with technology 
and its uses, particularly when it comes to their privacy and the 
security of personal and sensitive information.
    SPAM undermines consumer trust and confidence. It represents a 
significant and rapidly growing threat to web-based services. The 
Commission's prepared testimony provides the Committee with an-
excellent overview of our efforts to combat SPAM.
    What is SPAM? The FTC defines unwanted and unsolicited SPAM as 
``any commercial electronic mail message that is sent-typically in 
bulk-to consumers without the consumers prior request or consent.''
    There are at least four major concerns caused by SPAM.
    First, the volume is increasing at astonishing rates, current 
estimates indicate at least 40 percent of all e-mail is SPAM.
    Second, recent studies by the FTC indicate that SPAM has become the 
weapon of choice of those engaged in fraud and deception. Nearly 66 
percent of the SPAM we examined appeared to contain falsity and 
deception. I would ask our False Claims in Spam report be included as 
part of the record.
    Third, the sheer volume of SPAM--coupled with it's capacity to 
transmit viruses, trojan horses, and other damaging code--threatens to 
do major damage to the Internet and our critical infrastructure and the 
Internet.
    Fourth, there is no easy solution--no one silver bullet that will 
solve the problem. Solutions must be pursued from many directions.
    These concerns represent enormous costs to businesses, the economy, 
consumers and society.
    Two specific problems demand attention by policy makers and 
industry leaders. First, there is the complex combination of 
technology, market forces and public policy that will be evolving for 
years to come. The second problem is one that I characterize as heavily 
influenced by the emotions of consumers, small--businesses and home 
users by the millions who are literally fed up with SPAM.
    I am concerned that SPAM is about to kill the ``killer app'' of the 
Iinternet--specifically--consumer use of e-mail and e-commerce. If 
consumers lose confidence in web-based services and turn away, 
tremendous harm will be done to the economic potential of information 
technology.
    Solving these problems will require innovation, resources and time. 
However, dealing with the emotional reaction to SPAM by millions of 
users, demands immediate attention before it gets out of hand.
    Internet service providers, software manufacturers, and those 
engaged in designing operating systems must empower consumers with 
better control over their incoming e-mail. Easing the SPAM burden on 
consumers would help to shore up trust and confidence. Surely, consumer 
empowerment is possible today. Why has industry not solved this 
problem?
    Frankly, to date, I am not convinced that industry has made the 
commitment or really wants to empower consumers by giving them easy-to-
use tools for personal control.
    I read a book last summer, Tuxedo Park, by Jennet Conant--a 
fascinating account of Alfred Loomis, wealthy financier from the 1920s. 
He funded a private research laboratory at his Tuxedo Park estate, 
attracting the great scientists of his day. They were instrumental in 
the accelerated development of radar which enabled us to keep supply 
lines open to England early in WWII. War time crisis demanded that 
creative minds quickly find technical solutions to complex problems. 
Loomis and friends were up to the task.
    It occurs to me that we have a crisis today--we must avoid major 
set backs to the potential of information technology. We need great 
minds to quickly find solutions to SPAM. Empowering consumers would be 
a good first step. Is industry motivated to do the right thing and do 
it now?
    he FTC's law enforcement efforts against SPAM are intensifying, but 
finding the guilty parties is resource intensive and a difficult 
technical challenge.
    We give consumer education high priority at the Commission. Our 
information Security website and private sector partnerships continue 
to expand our reach.
    Recently, we released findings from three studies to better 
understand the magnitude of the SPAM problem, how SPAM is proliferated, 
and how consumers and users are victimized.
    Our recent three-day SPAM Forum aimed to better inform the dialogue 
and find the best possible solutions to the SPAM problem. The Forum was 
remarkable in its discussions and participation--over 400 participants 
and 80 panelists.
    I would like to share some of the Forum's revelations--as well as 
some personal observations--about the realities of SPAM.
    First and most essential--the private sector must lead the way!
    We likely will not find the perfect solution. The target will be 
constantly moving as technology evolves.
    More laws are not necessarily the right answer.
    I heard little universal enthusiasm from participants for currently 
proposed legislation.
    Laws bestowing competitive advantage to larger firms over smaller 
competitors are questionable.
    Unenforceable laws will have little real effect: Overreaching laws 
will have unintended adverse consequences.
    Passing legislation to mandate best practices for ``good actors'' 
will not help us track down the ``bad actors'' engaged in fraud and 
deception.
    We must work together. Consumers, users, and civil society 
organizations also must be a part of our continuing dialogue to find 
solutions.
    Awareness and safe computing practices by all participants are 
essential.
    Developing a culture of security where all participants work to 
minimize our many vulnerabilities is an imperative, not an alternative.
    Our efforts to solve the SPAM problem and secure our information 
systems and networks is not a destination--we are embarked upon a 
journey!
    Thank you, Mr. Chairman.

    The Chairman. Thank you.
    Commissioner Thompson, welcome.

 STATEMENT OF HON. MOZELLE W. THOMPSON, COMMISSIONER, FEDERAL 
                        TRADE COMMISSION

    Mr. Thompson. Thank you, Mr. Chairman. I thank you for this 
opportunity to appear before you today and talk about the issue 
of spam, bulk unsolicited commercial e-mail. At the outset, I 
would like to praise this Committee and its Members for holding 
this hearing and the work that it has done over the years to 
focus attention on this important subject. Spam is a complex 
issue that resonates with consumers, businesses, and 
Governments alike. The FTC, along with Members of this 
Committee, have been interested in this issue for a long time.
    In 2001, the Committee asked this Commission's views on the 
CAN-SPAM Act, S. 630, sponsored by Senators Burns and Wyden. At 
that time, we unanimously supported the bill, stating the 
Commission generally favors the underlying goal of the 
legislation, and as set forth in our written testimony 
submitted today, the FTC has already brought over 50 cases 
against deceptive and fraudulent spam. While these cases are 
important, they focus on only one aspect, fraud and deception, 
of what has grown to be a much larger problem. For this reason, 
3 weeks ago, the Commission held a 3-day workshop to get a 
better insight on the problem of spam.
    My observation is that it was a unique event. It was a 
unique week. It is not every day that an FTC workshop draws 
over 400 attendees for 3 days to pose questions to 87 panelists 
representing a wide perspective on one issue. At the same time, 
three of America's largest ISPs announced a voluntary business 
initiative and three new legislative proposals were introduced, 
and there have been more since then.
    In addition, representatives from numerous countries, 
including Australia, Canada, Japan, and the European Union, 
also attended and participated in those discussions. We are 
just beginning to digest all of this information, so we have 
not reached conclusions about how this information may affect 
our views, but like Commissioner Swindle, I would like to share 
at least some of my observations.
    One key lesson we learned from our spam workshop is the 
scope of the spam problem appears to have changed 
significantly. It is no longer simply a matter of consumer 
annoyance at receiving unwanted e-mail. We have some very 
significant problems. First, that through fraud and deception 
across international borders, there is an undermining of 
consumer confidence, as shown by this chart here, that how much 
of the spam has falsity in its face.
    Second, that it threatens business, because the volume of 
e-mail places a choke-hold on E-commerce. It was the first time 
I had actually heard a large group of witnesses claim that spam 
constitutes a threat to the future of the Internet, and you can 
just see from this chart the growth from 8 percent to 45 
percent this year, and projected to 2007, that it could 
constitute up to 70 percent of e-mail.
    Finally, we heard a lot about areas that Commissioner 
Swindle has worked in, talking about security issues, including 
spam used to spread viruses, and the very disruption of service 
caused by volume that could impact the activities of consumers, 
businesses, and Governments on the Internet. What that tells me 
is that the problem of spam has become broader. It has evolved, 
and the scope of possible solutions may also have to expand. 
Clearly, strong law enforcement is an important part of this.
    To address fraud and deception, we also have to work with 
other countries' law enforcers for cross-border actions, and I 
know the Committee is aware that the FTC has submitted some 
legislative proposals this year to enable us to have better 
tools to work cooperatively with other governments to root out 
fraud and deception, but there also has to be a business 
answer, with business initiatives and best practices that 
distinguishes good actors from bad, and we also want to ensure 
that there continues to be incentives to develop technological 
tools that provide consumers with means to address and manage 
their e-mail. Finally, there has to be strong consumer and 
business education to enable consumers to make better choices, 
and to protect themselves.
    The interesting challenge for all of this is, all of it has 
to take place within a backdrop, or an umbrella that 
accommodates a desire for a timely solution, one that has 
ongoing flexibility, because, as was alluded to earlier, there 
are very clever people out there, and we have to have a 
mechanism to be as clever as they are, and finally, First 
Amendment concerns, because the Supreme Court, we know, is now 
considering what are the boundaries of commercial speech.
    Now, I would like to conclude by saying that, to recognize 
the importance of what this Committee does and how we respond 
to spam, that as you all are aware, I spend also a lot of time 
internationally as Chair of the OECD Consumer Policy Committee, 
where we are talking about this issue and how to address it 
internationally. We are also talking about how to address this 
bilaterally.
    I can tell you that, although other countries have looked 
at legislation, some have passed it, they have tried various 
enforcement tools, around the world people are looking to the 
United States for leadership on how we address this problem, 
how we can provide consumers with a good experience, how we can 
make this tool useful to businesses and consumers alike and 
still provide a free flow of information. It is an interesting 
challenge for us, but I am sure it is one the Committee is 
well-equipped to meet.
    Thank you.
    [The prepared statement of Mr. Thompson follows:]

           Prepared Statement of the Federal Trade Commission
    Mr. Chairman, the Federal Trade Commission appreciates this 
opportunity to provide information to the Committee on the FTC's 
efforts to address the problems that result from bulk unsolicited 
commercial e-mail. This statement discusses the Commission's law 
enforcement efforts against spam, describes our efforts to educate 
consumers and businesses about the problem of spam, and focuses 
particularly on the Commission's recent Spam Forum and several studies 
on the subject that the Commission's staff has undertaken in recent 
months.\1\
---------------------------------------------------------------------------
    \1\ The views expressed in this statement represent the views of 
the Commission. Commissioners' oral statements and responses to any 
questions you may have represent their own views, and not necessarily 
the views of the Commission or any other Commissioner.
---------------------------------------------------------------------------
    As the Federal Government's principal consumer protection agency, 
the FTC's mission is to promote the efficient functioning of the 
marketplace by acting against unfair or deceptive acts or practices and 
increasing consumer choice by promoting vigorous competition. To 
fulfill this mission, the Commission enforces the Federal Trade 
Commission Act, which prohibits unfair methods of competition and 
unfair or deceptive acts or practices in or affecting commerce.\2\ 
Commerce on the Internet, including unsolicited commercial e-mail, 
falls within the scope of this statutory mandate.
---------------------------------------------------------------------------
    \2\ The FTC has limited or no jurisdiction over specified types of 
entities and activities. These include banks, savings associations, and 
Federal credit unions; regulated common carriers; air carriers; non-
retail sales of livestock and meat products under the Packers and 
Stockyards Act; certain activities of nonprofit corporations; and the 
business of insurance. See, e.g., 15 U.S.C. Sec. Sec. 44, 45, 46 (FTC 
Act); 15 U.S.C. Sec. 21 (Clayton Act); 7 U.S.C. Sec. 227 (Packers and 
Stockyards Act); 15 U.S.C. Sec. Sec. 1011 et seq. (McCarran-Ferguson 
Act).
---------------------------------------------------------------------------
    Unsolicited commercial e-mail (``UCE'' or ``spam'') is any 
commercial electronic mail message that is sent--typically in bulk--to 
consumers without the consumers' prior request or consent. The extreme 
speed, anonymity and negligible cost of sending spam differentiate it 
from other forms of unsolicited marketing, such as direct mail or 
telemarketing. Those marketing techniques, unlike spam, impose costs on 
marketers that limit their use.
    There are two basic problems with spam. First, deception and fraud 
appear to characterize the vast majority of spam. Indeed, spam appears 
to be the vehicle of choice for many fraudulent and deceptive 
marketers. Second, a serious Internet infrastructure problem flows from 
the sheer volume of spam that is now being sent. Spam, even if not 
deceptive, may lead to significant disruptions and inefficiencies in 
Internet services, and may constitute a significant problem for 
consumers and businesses using the Internet. In addition, spam can 
spread viruses that wreck havoc for computer users. These problems 
together pose a threat to consumers' confidence in the Internet as a 
medium for electronic commerce.
    Virtually all of the panelists at the Commission's recent Spam 
Forum, described in more detail below, opined that the volume of 
unsolicited e-mail is increasing exponentially and that we are at a 
``tipping point,'' requiring some action to avert deep erosion of 
public confidence in e-mail that could hinder, or even destroy, it as a 
tool for communication and online commerce. In other words, as some 
have expressed it, spam is ``killing the killer ap.'' The consensus of 
all participants in the workshop was that a solution to the spam 
problem is critically important, but cannot be found overnight. There 
is no quick or simple ``silver bullet.'' Rather, solutions must be 
pursued from many directions--technological, legal, and consumer 
action. The Forum helped to suggest paths to follow toward solutions to 
the spam problems. These solutions will depend on cooperative efforts 
between government and the private sector. In fact, the Forum is only 
the most recent example of the FTC's role as convener, facilitator, and 
catalyst to encourage that activity. But the Commission also plays 
another important role--that of law enforcer.
    The Commission has pursued a vigorous law enforcement program 
against deceptive spam, and to date has brought 53 cases in which spam 
was an integral element of the alleged overall deceptive or unfair 
practice.\3\ Most of those cases focused on the deceptive content of 
the spam message, alleging that the various defendants violated Section 
5 of the FTC Act through misrepresentations in the body of the 
message.\4\ More recently, the Commission has expanded the scope of its 
allegations to encompass not just the content of the spam but also the 
manner in which the spam is sent. Thus, FTC v. G. M. Funding,\5\ and 
F.T.C. v. Brain Westby \6\ allege (1) that e-mail ``spoofing'' is an 
unfair practice,\7\ and (2) that failure to honor a ``remove me'' 
representation is a deceptive practice. In these cases, the defendants' 
e-mail removal mechanisms did not work and consumers' e-mailed attempts 
to remove themselves from defendants' distribution lists were returned 
as undeliverable.
---------------------------------------------------------------------------
    \3\ A summary listing of these cases is attached as Appendix A.
    \4\ E.g., FTC v. 30 Minute Mortgage, Inc., No. 03-60021 (S.D. Fla. 
filed Jan. 9, 2003).
    \5\ No. SACV 02-1026 DOC (C.D. Cal. filed Nov. 2002).
    \6\ No. 032-3030 (N.D. Ill. filed Apr. 15, 2003).
    \7\ ``Spoofing'' involves forging the ``from'' or ``reply to'' 
lines in an e-mail to make it appear that the e-mail was sent from an 
innocent third-party. The third party then receives bounced-back 
undeliverable messages and angry ``do not spam me'' complaints.
---------------------------------------------------------------------------
    Westby is also the first FTC case to allege that a misleading 
subject line is deceptive because it tricks consumers into opening 
messages they otherwise would not open. In other cases, the Commission 
has alleged that the defendants falsely represented that subscribing to 
defendants' service could stop spam from other sources \8\ or that 
purchasers of a spamming business opportunity could make substantial 
profits.\9\ Thus, through our law enforcement actions the Commission 
has attacked and will continue to attack deception and unfairness in 
every aspect of spam.
---------------------------------------------------------------------------
    \8\ FTC v. NetSource One, No. 022-3077 (W.D. Ky. filed Nov. 2, 
2002).
    \9\ FTC v. Cyber Data, No. CV 02-2120 LKK (E.D. Cal. filed Oct. 
2002); FTC v. Internet Specialists, No. 302 CV 01722 RNC (D.Conn. filed 
Oct. 2002).
---------------------------------------------------------------------------
    Experience in these cases shows that the primary law enforcement 
challenges are to identify and locate the targeted spammer. Of course, 
finding the wrongdoers is an important aspect of all law enforcement 
actions, but in spam cases it is a particularly daunting task. Spammers 
can easily hide their identity, forge the electronic path of their e-
mail messages, or send their messages from anywhere in the world to 
anyone in the world. Tracking down a targeted spammer typically 
requires an unusually large commitment of staff time and resources, and 
rarely can it be known in advance whether the target's operation is 
large enough or injurious enough to consumers to justify the resource 
commitment.
    To complement its law enforcement efforts, the Commission endeavors 
to educate consumers and businesses on ways they can reduce the amount 
of unwanted spam they receive, and about particular types of scams 
commonly disseminated through spam, such as illegal chain letters and 
``Nigerian'' scams.\10\ These materials are available on the FTC's spam 
website, www.ftc.gov/spam.
---------------------------------------------------------------------------
    \10\ Claiming to be well-placed Nigerians, con artists offer to 
transfer millions of dollars into the prospective victim's bank account 
in exchange for a small fee. Those who respond to the initial offer may 
receive official-looking documents. Typically, the victim is then asked 
to provide blank letterhead and his or her bank account numbers, as 
well as some money to cover transaction and transfer costs and 
attorney's fees.
---------------------------------------------------------------------------
    Another aspect of the Commission's approach to spam is to 
investigate and research the problems it poses to understand them 
better. Through this research, the Commission can refine and better 
focus its law enforcement and consumer and business education efforts.
Studying the Spam Problem
    The Commission has engaged in several research projects to explore 
how spam affects consumers and online commerce. These projects include 
a ``Remove Me'' surf, a ``spam Harvest,'' and a study of False Claims 
in Spam.
The ``Remove Me'' Surf
    Last year the Commission announced the results of the ``Remove Me'' 
surf, in which the FTC and law enforcement partners tested whether 
spammers where honoring the ``remove me'' or ``unsubscribe'' options in 
spam.\11\ From e-mail that participating agencies had forwarded to the 
FTC's spam database, the Commission's staff selected more than 200 
messages that purported to allow recipients to remove their names from 
a spam list. The agencies set up dummy e-mail accounts to test the 
pledges. We found that 63 percent of the removal links and addresses in 
our sample did not function. If a return address does not work to 
receive return messages, it is unlikely that it could be used to 
collect valid e-mail addresses for use in future spamming. This finding 
tends to disprove the common belief that responding to spam guarantees 
that you will receive more of it.
---------------------------------------------------------------------------
    \11\ The ``Remove-Me'' surf was conducted as part of International 
Netforce, an enforcement sweep in which the FTC was joined by the 
Alaska Attorney General, the Alaska State Troopers, Government Services 
of the Province of Alberta, the British Columbia Securities Commission, 
the British Columbia Solicitor General, the Canadian Competition 
Bureau, the Idaho Attorney General, the Montana Department of 
Administration, the Oregon Department of Justice, the Washington 
Attorney General, the Washington State Department of Financial 
Institutions, and the Wyoming Attorney General.
---------------------------------------------------------------------------
The ``Spam Harvest''
    In its ``Spam Harvest,'' the Commission's staff conducted an 
examination of what online activities place consumers at risk for 
receiving spam. The examination discovered that one hundred percent of 
the e-mail addresses posted in chat rooms received spam; one received 
spam only eight minutes after the address was posted. Eighty-six 
percent of the e-mail addresses posted at newsgroups and Web pages 
received spam, as did 50 percent of addresses at free personal Web page 
services, 27 percent from message board postings, and 9 percent of e-
mail service directories. The ``Spam Harvest'' also found that the type 
of spam received was not related to the sites where the e-mail 
addresses were posted. For example, e-mail addresses posted to 
children's newsgroups received a large amount of adult-content and 
work-at-home spam.
    As part of this project, the staff developed consumer education 
material, including a publication, ``E-mail Address Harvesting: How 
Spammers Reap What You Sow,'' that provides tips, based on the lessons 
learned from the Spam Harvest, to consumers who want to minimize their 
risk of receiving spam. The tips advise, among other things, that 
consumers can minimize the chances of their addresses being harvested 
by using at least two e-mail addresses--one for use on websites, 
newsgroups and other public venues on the web, and another e-mail 
address solely for personal communication. Another suggested strategy 
to reduce spam is ``masking'' (disguising) e-mail addresses posted in 
public.\12\
---------------------------------------------------------------------------
    \12\ Masking involves putting a word or phrase in one's e-mail 
address so that it will trick a harvesting computer program, but not a 
person. For example, if one's e-mail address is ``<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e9838681878d868ca98490809a99c78a8684">[email&#160;protected]</a>,'' 
one could mask it as ``<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="670d080f09030802271417060a0610061e490a1e0e14174904080a49">[email&#160;protected]</a>'' Some newsgroup 
services or message boards won't allow masking of e-mail addresses and 
some harvesting programs may be able to pick out common masks.
---------------------------------------------------------------------------
The ``False Claims in Spam'' Study
    An additional FTC staff study examined false claims in spam. The 
staff examined 1,000 spam messages selected randomly from three 
sources: our spam database of consumer-forwarded messages, the spam 
received at the addresses used in the Spam Harvest, and spam that 
reached FTC employee computers. The staff analyzed the messages based 
upon the types of products or services offered, the indicia of 
deception in the content of the messages, and the indicia of deception 
in the ``from'' and ``subject'' lines of the messages.
    The Types of Products or Services Offered--The staff found that 20 
percent of the spam contained offers for investment or business 
opportunities, which include such things as work-at-home offers, 
franchise opportunities, or offers for securities. Another 18 percent 
of the spam offered adult-oriented products or services. Of those adult 
messages, about one-fifth included images of nudity that appeared 
automatically in the body of the message. Further, 17 percent of the 
spam messages involved finance, including credit cards, mortgages, 
refinancing, and insurance. All together, the investment/business 
opportunity, adult, and finance offers comprised 55 percent of our 
sample.
    Indicia of Falsity in the Content of Spam Messages--The staff also 
determined how many spam messages appeared misleading. Using expertise 
gleaned from past law enforcement actions and recent research efforts, 
the staff identified specific representations likely to be false. The 
staff found that 40 percent of all the combined categories of spam 
messages contained indicia of falsity in the body of the message. An 
astonishing 90 percent of the investment/business opportunity category 
of spam contained indicia of false claims.
    Evidence of Falsity in the ``From'' and ``Subject'' Lines--The 
staff also looked at evidence of deception in the ``from'' and 
``subject'' lines of the spam. One third of the messages contained 
indicia of falsity in the ``from'' line. Messages falling into this 
category included ``from'' lines connoting a business or personal 
relationship, such as using a first name only, or stating ``Your 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a4e5c7c7cbd1cad0e4fcfdfe8ae7ebe98a">[email&#160;protected]</a>'' Another common instance of misleading ``from'' lines 
occurs when spammers make the sender's name the same as the recipient's 
address, so it appears that one has sent the message to oneself.
    In addition, the staff found that 22 percent of the spam messages 
contained indicia of falsity in the subject line, such as using ``Re:'' 
to indicate familiarity or a subject line that was unrelated to the 
content of the message, such as ``Hi'' or ``Order Confirmation.'' Over 
one third of adult-content spam contained false information in the 
subject line. Further, only two percent of the analyzed spam contained 
the label ``ADV:'' in the ``subject'' line, even though such a label is 
required by the laws of several states.
    Conclusions of the False Claims in Spam Study--Adding up the 
various forms of deception, the staff found that 66 percent of the spam 
appeared to contain at least one form of deception.\13\ This Spam Study 
confirms the Commission's earlier belief that fraud operators, who are 
often among the first to exploit any technological innovation, have 
seized on the Internet's capacity to reach millions of consumers 
quickly and at a low cost through spam. Not only are fraud operators 
able to reach millions of individuals with one message, but they also 
can misuse technology to conceal their identity. The Commission 
believes the proliferation of fraudulent or deceptive spam on the 
Internet poses a threat to consumer confidence in online commerce and, 
therefore, views the problem of deception as a significant issue in the 
debate over spam.
---------------------------------------------------------------------------
    \13\ The remaining spam messages were not necessarily truthful, but 
they did not contain any obvious indicia of falsity.
---------------------------------------------------------------------------
The FTC Spam Forum
    Building upon our research, education, and law enforcement efforts, 
the FTC held a three-day public forum from April 30 to May 2, 2003 on 
spam e-mail. This was a wide-ranging public examination of spam from 
all viewpoints. The Commission convened this event for two principal 
reasons. First, spam is frequently discussed, but facts about how it 
works, its origins, what incentives drive it, and so on, are not widely 
known. The Commission anticipated that the Forum would generate an 
exchange of useful information about spam to help inform the public 
policy debate. This could help the Commission determine what more it 
might do to more effectively fulfill our consumer protection mission in 
this area. Second, the Commission sought to act as a potential catalyst 
for solutions to the spam problem. Through the Forum, the Commission 
brought to the table representatives from as many sides of the issue as 
possible to explore and encourage progress toward possible solutions to 
the detrimental effects of spam.
    The Commission believes that the Forum advanced both goals. As 
described below, the panelists contributed valuable information from a 
variety of differing viewpoints to the public record. In addition, the 
Forum spurred a number of participants into cooperation and action. 
Most notably, on the eve of the Forum, industry leaders Microsoft, 
America Online, and Yahoo! announced a collaborative effort to stop 
spam. Moreover, several potential technological solutions to spam were 
announced either at or in anticipation of the Forum. The Commission 
intends to foster this dialogue, and, when possible, to encourage other 
similar positive steps on the part of industry.
    The strong interest in addressing spam is shared by: consumers, 
Internet Service Providers (``ISPs''), law enforcement authorities, 
marketing services, bulk e-mail marketers, anti-spammers, and retailers 
and manufacturers. These interest groups were represented at the Forum 
by 87 different panelists collectively possessing a tremendous range of 
expertise, and coming from all over the globe to participate in this 
discussion. Distinguished representatives from the European Commission, 
Canada, Australia, Korea, and Japan offered their views on how spam 
affects their countries and how they are trying to tackle the problem. 
On the domestic front, panelists included prominent representatives 
from all sectors affected by spam, such as the president of the 
consumer group, the SpamCon Foundation, the president of the Direct 
Marketing Association, vice presidents of America Online and Microsoft, 
and the Washington State Attorney General. Distinguished members of 
Congress--Senators Burns, Wyden, and Schumer, and Representative 
Lofgren--also addressed Forum attendees.
    The Spam Forum was organized into twelve panel discussions that 
were conducted over the course of three days. In addition to the 87 
panelists, approximately 400 people were present each day in the 
audience at the FTC Conference Center, with many more individuals 
participating via a video link or by teleconference. Questions for the 
panelists were accepted from the audience and via a special e-mail 
address from those attending through video link or teleconferencing.
    Day One of the Forum focused on the mechanics of spam. Panelists 
discussed in detail how spammers find e-mail addresses and how 
deception in the sending of spam affects consumers and online commerce. 
Discussions then focused upon security weaknesses that enable or 
facilitate spam, such as open relays \14\ and open proxies.\15\ Day Two 
explored the economic costs of spam. Panelists participated in an in-
depth discussion of economic incentives inherent in spam and the costs 
of spam to marketers, ISPs, and consumers, and its effects on emerging 
technologies. Specifically, panelists discussed spam blacklists, e-mail 
marketers, and wireless spam (unsolicited text messages received via 
cell phone). Day Three focused on potential solutions to spam. 
Panelists discussed three potential avenues to a solution: legislation, 
litigation, and technology. Specific topics covered included: state, 
federal, and international legislation; civil and criminal law 
enforcement and private litigation against spammers; and various 
technological approaches.
---------------------------------------------------------------------------
    \14\ Open relays allow spammers to route their e-mail through 
servers of other organizations, thereby disguising the origin of the e-
mail. Spammers identify and use other organizations' open relays to 
avoid detection by the filter systems that ISPs use to protect their 
customers from unwanted spam. Routing spam through open relays also 
makes it difficult for law enforcement agencies to track down senders 
of fraudulent or deceptive spam.
    \15\ A proxy server runs software that allows it to be the one 
machine in a network that directly interacts with the Internet. This 
provides the network with greater security. But if a proxy is not 
configured properly (i.e., if it is an ``open proxy''), it also may 
allow unauthorized users to pass through the site and connect to other 
hosts on the Internet. For example, a spammer can use an open proxy to 
connect to a mail server. If the server has an open mail relay, the 
spammer can send a large amount of spam and then disconnect--all 
anonymously.
---------------------------------------------------------------------------
    Panelists at the Forum bought forward an enormous amount of 
information about spam and how it affects consumers and businesses. 
Several primary themes emerged from the various discussions. First, the 
volume of spam is increasing sharply. Many panelists reported that the 
rate of increase is accelerating. For example, one ISP reported that in 
2002 alone it experienced a 150 percent increase in spam traffic. 
Second, spam imposes real costs. The panelists offered concrete 
information about the costs of spam to businesses and to ISPs. 
Specifically, ISPs reported that costs to address spam have increased 
dramatically over the past two years. ISPs bear the cost of servers and 
bandwidth necessary to channel the flood of spam, even that part of the 
flood that is being filtered out before reaching recipients' mail 
boxes. America Online reported that it recently blocked an astonishing 
2.37 billion pieces of spam in a single day. Third, spam is an 
international problem. According to our international panelists, most 
of the spam received in their countries is in English and advertises 
American products or companies. Most panelists agreed that any solution 
to stopping spam will have to involve an international effort.
    Our law enforcement experience has taught that the path from a 
fraudulent spammer to a consumer's in-box typically crosses at least 
one international border and frequently several. Thus, fraudulent spam 
exemplifies the growing problem of cross-border fraud. To enhance our 
effectiveness in the fight against fraudulent spam and other kinds of 
fraudulent schemes that cross international borders, the Commission 
will be asking this Committee, as part of our forthcoming 
reauthorization testimony, for additional legislative authority in a 
number of areas, including measures that would: allow the agency to 
share such information on targeted schemes with our overseas 
counterparts; provide investigative assistance to them in appropriate 
cases; improve our ability to obtain information from U.S. criminal 
agencies and Federal financial regulators, who are often investigating 
the same types of fraudulent conduct that we are; and improve the 
agency's ability to obtain consumer redress in cross-border cases by 
clarifying the Commission's authority to take action in such cases, and 
by expanding the agency's ability to use foreign counsel to pursue 
assets offshore. Legislation expanding the Commission's authority in 
these ways is essential to improve the agency's ability to fight 
fraudulent spam in particular, as well as other manifestations of the 
more general problem of cross-border fraud.
Approaches to Solving the Spam Problem
    The broad themes that emerged from the Forum panel discussions 
depict the spam problem as increasing volume, increasing costs, and 
increasing international effects. This confirms that finding solutions 
to the problems posed by spam will not be quick or easy; moreover, the 
consensus of panelists was that no single approach will likely cure the 
problem. Some panelists at the Forum stated that a large scale 
technological change in the e-mail protocol system is not likely to 
occur. Nevertheless, others indicated that there are incremental 
technical changes that can be grafted onto the existing e-mail protocol 
to ease the burden of unwanted e-mail on ISPs and consumers. In 
addition, consumer representatives stressed that any solution should 
include consumer empowerment--to allow e-mail recipients to decide what 
messages they want to receive in their inbox, and to give recipients 
the technical tools to effectuate those decisions. Some panelists, but 
by no means all, advocated additional Federal legislation and law 
enforcement efforts as a means to provide needed accountability and 
deterrence.
    All Spam Forum participants agreed that solving the problem of bulk 
unsolicited commercial e-mail will likely necessitate an integrated 
effort involving a variety of technological, legal, and consumer 
action, rather than one single solution. Through the Forum and the 
follow-up efforts it suggested, the Commission hopes to act as a 
catalyst for technologists, industry, law enforcement, and policy 
officials to work together to find a solution.
Conclusion
    E-mail provides enormous benefits to consumers and businesses as a 
communication tool. The increasing volume of spam to ISPs, to 
businesses, and to consumers, coupled with the use of spam as a means 
to perpetrate fraud and deception put these benefits at serious risk. 
The Commission looks forward to continuing its research, education, and 
law enforcement efforts to protect consumers and businesses from the 
current onslaught of unwanted messages.
    The Commission appreciates this opportunity to describe its efforts 
to address the problem of spam, and the outcome of its recent Spam 
Forum.

    The Chairman. I thank you both. I have gotten letters, as I 
mentioned, I would include for the record from the Center for 
Democracy and Technology, Mr. Jerry Berman. He says, based on 
our research and further discussion, CDT believes that the spam 
problem merits targeted Federal legislation to help alleviate 
the burden spam causes to consumers, businesses, and ISPs, and 
I also had a letter from Mr. Gates which I think Mr. Leonsis is 
going to talk about more, where he makes several 
recommendations. I would like for both of you, if you would, to 
comment on these recommendations, perhaps in writing to us, 
because there is a series of them, as to your views as to 
whether they should be included in the legislation or not.
    I would hope, and I know that Senator Burns and Senator 
Wyden would hope that we could get this issue to the floor 
sometime before the summer recess, because it is clearly an 
issue that needs to be addressed one way or the other, so I 
would hope that you would get us that.
    I guess my first question is, suppose that we enacted the 
best law that took care of every problem, every loophole----
    We have 5 minutes left on the vote, Conrad. Do you want to 
go and vote and then come back?
    Senator Burns. We are voting again?
    [Laughter.]
    The Chairman. I think so. Maybe you want to go and then 
come back so we can keep the hearing going.
    And what do you do about somebody located, and you have an 
international agreement with the major countries in the world, 
somebody located in the Grand Caymans, as is the case with 
Internet gambling sites today. What is the answer?
    Mr. Swindle. Senator, I will start off. Obviously, and it 
has been said by, I think, everyone who has testified to this 
point, that no single solution, no single thing is going to be 
the solution. Passing legislation is not going to solve this 
problem.
    Someone said earlier that having legislation penalties 
would help us hunt down the perpetrators, and that got right to 
the point here. The penalties are not going to help us hunt 
down the perpetrators. In fact, the biggest problem we have is 
finding those who are sending the spam out. It is a technical 
problem that from my observation, listening to the forum we had 
last week, most of the people in technology were saying we do 
not yet know how to do this. We have got a lot of work to do.
    Laws can certainly classify a certain group of people who 
do certain things as criminals if we want to go that far and 
say that if we catch them, we penalize them heavily, and that 
might be a good idea as Senator Nelson was proposing, but the 
problem still remains finding them, and until we solve that 
problem, we have got to seek other alternatives.
    I speak of the emotion of the broad base of users, hundreds 
of millions, certainly in this country, and I have been told 
the numbers may reach 600 million by the end of this year 
worldwide. It seems to me that it would be practical, and I am 
not much on technology, but if you would give me the ability to 
put a screen in front of my computer so that nothing comes in 
there except what is on that screen--in other words, my address 
book--you would go a long way to solving my emotional problem 
with spam, my frustration with it, my wanting to just turn this 
thing off and walk away from it. That will be the biggest 
disaster we can imagine right now.
    Some of this technical stuff is going to take years to 
evolve, the same way with the legislation, but give the 
consumer the power, empower the consumer to say no to what is 
coming into his mailbox, and as I mentioned in my comments, I 
am not sure that industry is prepared, and not because they 
cannot do it, but I am not sure they are prepared to do it 
because they do not want to do it, because it cuts them off 
from a potential customer. Well, I think that is dead wrong. We 
have an issue before us that can do grave damage to this 
incredible tool that we have. I think we all need to quit 
speaking and lobbying in terms of special interest, our own 
interest, and think about a cause greater than ourselves. We 
have a bigger issue here.
    The Chairman. Commissioner Thompson.
    Mr. Thompson. I think you highlight a very important point 
that we have to do what we can to eliminate jurisdictions of 
convenience, in other words, places that might serve as safe 
harbors for those who would engage in spamming. It is something 
we have discussed internationally.
    Countries have different ways of approaching that, and we 
are trying to talk to them about what has been effective, what 
has not been effective, what are ways that we can look at in 
the future. I believe that some legislative vehicle is helpful, 
but it is not the only solution, but it also means a 
cooperative effort, and not just waiting for an international 
treaty, although that can be a long-term goal.
    There is a short-term goal of having ongoing discussions, 
including bilateral agreements and understandings about how you 
actually prosecute cases that have fraud and deception at their 
core, and that includes what legislation we need to streamline 
the process so that we can share information with entities that 
have the same goals as we do.
    I think what is important is for us at the very least to 
come an understanding with countries about why this issue is a 
problem and is a threat to the Internet, and a threat to 
consumer confidence. I think we are reaching those goals, and 
to talk about what are the potential avenues for solution. I 
think we are at that point, and it is a very important point.
    The Chairman. Commissioner Swindle, would a do-not-spam 
list be an effective way of cutting down on some of this 
problem?
    Mr. Swindle. In a word, I do not believe so. We are just 
now coming to grips with how we are going to implement a do-
not-call list. In the business of telemarketing, there is a 
relatively finite or small number of telemarketers. There are 
5,000 or 10,000. I am not sure how many there are, but when you 
talk about the Internet, we are talking millions. We are 
talking in telemarketing a very regulated industry that 
literally does have borders, state control of 
telecommunications and so forth. In the Internet, it is totally 
borderless.
    I tried to imagine what the database for a telemarketing 
sales rule or do-not-call rule will be, and it will be large, 
because it is probably one of the more popular things that have 
come down the pike since I have been there. How we manage that, 
how we make it reactive, that it does what it is supposed to 
do, is a very complex problem, and we are going to get there, 
but we are not there yet. We have no experience, not ruling it 
out.
    The Chairman. Do you agree?
    Mr. Thompson. I agree. I also think there are challenges in 
terms of resources, because the scale and the size of what is 
going to be contained in any database and the security that is 
going to be necessary will be very resource-intensive. I think 
it can be part of a solution, but in and of itself it may not 
be a solution.
    The Chairman. Senator Nelson, I have got to go vote.
    Senator Nelson. Mr. Chairman, do you want me to keep the 
testimony going or wait until you return?
    The Chairman. Knowing you, I am sure that is not a problem.
    [Laughter.]
    Senator Nelson. That is an appropriate reconfirmation of 
the relationship that I have with the Chairman. He knows I am 
not going to do anything crazy.
    [Laughter.]
    Mr. Thompson. Once again, you are in charge.
    Mr. Swindle. If I might finish the point, and Senator--or 
Commissioner Thompson--congratulations.
    [Laughter.]
    Mr. Swindle. I gave you a promotion there. We are really 
going to take control here.
    I was speaking of the database for telemarketing for the 
do-not-call list on the telephone. That is going to be an 
enormously big, complex thing, but we can get a grip on it. we 
have been doing this a long time. The Internet is something 
else. First off, you know the debate we get in on telephones of 
portability of numbers. We cannot figure out exactly how to do 
that.
    How many times do people change their telephone numbers? 
Not very often. How many times do they change their e-mail 
addresses? It goes on. How many people are there out there with 
e-mail addresses, and they have multiple e-mail addresses. You 
are talking about an incredibly large database that will be 
difficult to secure, and if I am a spammer, I just look at that 
as a target-rich environment. I do not think it is a solution.
    Mr. Thompson. One of the challenges we have is trying to 
cater static responses to moving targets, and in this area the 
target is moving very quickly. As we heard earlier, people who 
are engaged in spamming have every economic incentive to be 
clever and invest their time and money in morphing themselves 
into different entities, cloaking themselves, using the 
technology in order to send out their spam because it is so 
cheap for them to do so. For just a minimal positive response, 
your return on investment is quick and rapid. It is hard for us 
in an open network to change that, but I think we are talking 
about what other things that we can do to get at the bad 
actors, and one challenge that we still have to face is what do 
we do about volume, because even if we get after the bad 
actors, you still have this chart with rapid increase.
    The slope may come down a little, but because of the 
economics, you are still going to have many people trying to 
use this in marketing, and it could have some disruptions in 
service and other things that make the consumer experience not 
very good. I do not know what the right answer is, but it is a 
challenge that we have to consider.
    Senator Nelson. You all have mentioned that the FTC is 
seeking the additional legislative authority to improve the 
agency's ability to obtain information from U.S. law 
enforcement agencies. Now, can you discuss for the Committee 
how the FTC coordinates investigations with other agencies, 
criminal agencies, and can you expand on your request for the 
additional legislative authority in this area?
    Mr. Thompson. I can talk briefly about it, that I think we 
have a good relationship with agencies within the United 
States, and I want to clarify the question a little. I think 
what we are asking for are ways to make it easier for us to 
share information with sister agencies that may lie outside of 
the United States.
    One of the trends that we are seeing, especially in the E-
commerce areas, is that we represent the richest and most 
robust marketplace in the E-commerce base in the world. That 
means others who would seek to defraud people want to come here 
and victimize our citizens. Right now, the way our legislation 
works, there are very complex rules dealing with 
confidentiality of investigations and the information we gather 
as part of a prosecution that makes it harder for us to share 
information with, for example, a law enforcer in France, or a 
law enforcer in Canada who may be interested in prosecuting 
those who are living there that victimize our citizens, so in 
some ways, what we would like to see is some legislative 
streamlining that would make it easier for us to prosecute in a 
way that recognizes the global nature of the problem.
    Senator Nelson. Would you perhaps--while I was voting, both 
of you had already commented on the legislative approach to 
this problem in trying to put a criminal penalty as a means of 
stopping it, recognizing that we have got to work with the 
international arena as well. Would you further comment how, 
what you would like to see in law that would give you the tools 
as the regulator to attack this problem?
    Mr. Swindle. Senator, I mentioned, made reference to your 
comments about rather punitive measures we could take against 
those who do cause damage, and I am moving more and more toward 
the belief that we are getting into criminal acts. When you 
consider how we are so totally integrated now with information 
systems and networks, how we are so dependent upon them, I 
mean, you know, today you can be at your home with a very 
inexpensive computer that is more powerful than the computers 
you had in the space shuttle you went up in. That computer can 
be captured if it is not adequately protected and then it can 
be used as a weapon to go out and do damage to financial 
systems, to air control systems, to the Defense Department, it 
is unlimited, because you are in these networks.
    Those who would do this intentionally to disrupt 
information systems, to disrupt power grids, to disrupt air 
control, to shut down through the devices and code that goes 
out, and they overwhelm ISPs, overwhelm financial networks, 
this is grave, grave damage. This is far beyond going out and 
stealing 150 bucks from a grocery store, which is a crime. I 
think we are approaching the point where we do need to 
establish these people who do this as criminals, but we get 
back to the same problem, how do we find them, and that is a 
technology problem that we have not yet solved as far as I am 
familiar with.
    But I do think, again to repeat the point that I think I 
made while you were out, as I said in my comment, we have got 
two problems here. One is this very complex technical, legal, 
public policy legislative arena, the other is this emotion, of 
all the wonderful people in this country and around the world 
who want to use this. They are excited about it.
    I love to shop on Amazon and eBay and things of this 
nature, but the more we are harmed by spam, and spam is one of 
the biggest carries of viruses that damage our computers, we 
lose confidence in it and we are going to back away from that. 
That is going to be a severe hit for the economic potential and 
entertainment potential and fun potential of information 
technology.
    I contend that industry had better focus on that right now 
and get something done. They need to give consumers and users 
and students and home users and small businesses the capacity 
to put a wall in front of their computer and say, I do not want 
it in here if it is not on my wall, in other words, your 
address book, and you know, the argument is, well, you are 
going to miss a message from an old friend. My problem. I can 
deal with that much better than having this open relay. So, I 
think criminal designation is probably going to be necessary, 
and I do think we need--to sort of paraphrase what you said, I 
think we need a couple of good hangings here.
    Mr. Thompson. I think a challenge, though, I think it is 
important perhaps to have some criminal penalties for the most 
egregious behavior, but let us talk a little about the fact 
that that may only represent the one tale of the people who are 
involved in spam, because one of the challenges you have when 
you introduce the element of criminalization, the standard of 
proof may be different. The idea of intent is different. Right 
now, for example, based on the FTC act for fraud and deception, 
we do not have to prove intent. Once you introduce that 
element, that makes it harder to go after what may be the bulk, 
which you may be able to get to based on civil prosecution and 
penalties.
    Also, one other factor that I think is important to 
consider is that, how do you wind up prioritizing within the 
criminal enforcement community this kind of behavior, because 
it is not only just providing some sort of criminal remedy, but 
it is also talking to criminal prosecutors and making sure that 
they understand how important this is compared to any number of 
different criminal statutes they have to enforce, so I think 
the challenge is to view criminal penalties, maybe one aspect 
of a solution, but there have to be many more tools in addition 
to that.
    Senator Nelson. Thank you for your statements.
    After the April 30 spam workshop, the Commission has 
received a tremendous amount of testimony from consumers 
marketers, ISPs, filtering technology firms and many others. 
The work that the Commission has already done in combination 
with the workshop materials would aid this Committee in its 
work on crafting spam legislation that works. Can you report to 
this Committee in 45 days an outline of a legislative approach 
that deals with the issues raised during the workshop, a 
consumer education plan, any jurisdictional needs that should 
be addressed in reauthorization, and the cost to implement such 
recommendations?
    Mr. Swindle. Senator, we would never refuse your request. 
We will make every effort. That is one of the reasons we held 
the workshop, because we believe that we needed to get 
everybody who is involved in this in the same room at the same 
time and have it out, and actually a couple of them did try to 
have it out, but I think the whole purpose of that is to try to 
better inform all of us, the regulators, and the legislators as 
to what we can do with this, and in the process co-opt the 
industry in all of its respects, and even some of the people 
who like to engage in this stuff in here and talk about the 
harm that is being done. That is our goal, to try to prepare a 
well-informed body of knowledge, and I will certainly take back 
your request, and we will get to work on this and give you a 
response to that question. I would be a little remiss if I 
answered it before I found out what we have got.
    Senator Nelson. Thank you very much. Thanks to both of you.
    Senator Wyden. Senator Burns.
    Senator Burns. Thanks for coming down today, and thanks for 
the invite you offered us during your three day workshop down 
there, and I am sorry I did not get to stay for it, and I have 
already got it written down here that maybe the video that--I 
think you videoed every session. I will tell you what, I would 
not mind having a set of those videos, and I know you have got 
hours and hours of them, but, you know, we could thumb through 
those things, and that would probably be a good way to do it, 
is just to get the videos of those sessions, those testimonies 
and those discussions. I think that was a very good workshop, 
and I thank you for allowing us to come down and participate in 
that.
    And Commissioner Swindle, you are exactly right, the best 
solution to this whole thing is people who participate and use 
best business ethics, and we know those are the answers, but we 
also know that the industry is going to have to step forward. 
It is my belief that they will not until there is a national 
legislation that forces them to at least consider some things 
that can be flexible and be very light on their feet to deal 
with this thing as far as the legitimate marketers, because I 
am a market-oriented guy.
    I think this thing, you know, when you walk from here to 
downtown, you walk by a lot of businesses and you see a lot of 
advertising, and you see a lot of things that are wanting to do 
business with you, and this industry should not be any 
different. However, I think the industry is going to have to 
step forward and set up a standard of best practices, and have 
those legitimate marketers--we welcome them--who want to do 
business in this realm of doing that.
    Now, you have already responded to the no-spam list. We 
would be remiss if we did not consider that, but I am not real 
sure that that is not a detail maybe that the FTC could--on 
their own, because you have done a wonderful job down there. 
You have taken this issue and you have elevated it to a 
position of national awareness. You have done a terrific job 
down there, and we do not want to do anything through 
legislation that would curtail that particular activity with 
the FTC, but I just want--you mentioned, Mr. Swindle, in your 
testimony, the Commission mentioned the testimony that a 
solution to spam must include consumer empowerment, and of 
course, we use that term a lot. Do you think opting out 
constitutes consumer empowerment?
    Mr. Swindle. That is certainly a form of it, Senator. 
Unfortunately, a lot of the spam does not honor the opt-out 
selection, so you have still got the spam coming in, and the 
point I made is, I was reading the article this morning about 
Microsoft's initiative that was in the Post this morning, and 
my friend and sometimes adversary Marc Rotenberg, who I believe 
is going to be testifying on a later panel, made the statement, 
or is reported to have made the statement that Microsoft's 
proposal does not address the core need of consumers, which is 
to be free of commercial e-mail unless they specifically 
request it. That is different from opt out.
    I have suggested that, to accommodate or try to resolve 
this emotional turning away from electronic commerce and e-mail 
that we are experiencing because of spam, that the ISPs and 
software manufacturers and the hardware manufacturers, whoever 
does this stuff can provide to the consumer the capacity to 
easily, recognizably simply say--this is oversimplification, 
but I do not want to receive any e-mail from anybody other than 
the ones I send to and the ones that are in my address book.
    Think of all the e-mail that would not come in any more, 
just do not even have it come in, and that is what I mean about 
quick fixes for emotional problems, but I think there is a 
basic need. Opt out certainly recognizes this, but it is not 
honored. There is a basic need for consumers to be allowed, at 
their own choice, to be free of--Senator McCain used 
``unwanted.'' That may be the best way to put it, unwanted e-
mail, and if you put them in control of that, we will have a 
lot happier users out there and we will have less a problem on 
this emotional bent, and we can really get to work on this 
legislative and technology bent.
    Senator Burns. We could call them weeds. That is kind of an 
invasive and unwanted----
    Mr. Swindle. Nutgrass down in South Georgia.
    Mr. Thompson. I think that is a nice way of characterizing 
it.
    Senator Burns. We have to eliminate the weeds, and if we 
can find a herbicide to spray them and it kills the weed and 
lets the grass grow, that is what we are looking for in this 
situation.
    Senator Nelson. Some of them are snakes.
    Mr. Swindle. I would like to use an illustration, Senator, 
if I may, and it will take just another minute. I just bought 
my wife a brand new, nice computer. It is a great computer, 
Dell, a great company, has got Microsoft XP on it, a fine piece 
of software. All of a sudden, I started getting pop-up spam 
messages that says, Messenger, centered, dead center, large, 
right in my screen, and I do not know how to copy it. There is 
a way to copy it, but I am not technically savvy enough to 
figure it out. I said, where is this stuff coming from? It 
comes from a built-in Microsoft messenger, Instant Messaging, I 
guess, sort of like AOL, a wonderful device, if you want it.
    The problem is, Microsoft put that in that computer, 
defaulted to the on position, did not tell me it was there, did 
not tell me how to easily get it off of there, and they use it, 
or somebody's using their system, maybe an affiliate, to send 
me spam that I do not want. The industry needs to solve this 
problem. They can solve it technically. They just need to want 
to solve it, and as to your initial proposal, maybe they need a 
fire lighted under them. I think they do.
    I think the FTC has done a grand job of elevating the 
subject of privacy to the public. Everybody is aware that they 
ought to be concerned about their privacy. We have achieved a 
very--I would never say excellent, because we are still working 
on it. It is a journey, not a destination, but we have more 
companies doing better things on privacy than ever before, and 
we have not passed a law to get there, but public pressure, if 
you inform the public, they then demand. Industry will respond 
because that is how they stay in business.
    Senator Burns. I believe that, and I thank you for your 
openness and your frankness about this, because I think we have 
been talking about this issue for 4 or 5 years. It is time to 
quit beating around the bushes and tell it like it is and then 
go ahead and respond to that, and I thank both Commissioners 
for coming this morning.
    Mr. Chairman, thank you.
    The Chairman. Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman. First, I always 
welcome the views of the Federal Trade Commission, but I will 
tell you, I am a little troubled about sitting around and 
waiting another 45 days, or whatever. It is time to get going, 
folks. It is time to protect consumers. This problem has grown 
so dramatically, just in the last few months, that I just fear 
if we embark on yet another prolonged kind of study session, we 
are not going to get after this, and it is time to start 
moving, and frankly, Senator Burns and I in the last 4 years 
have been looking at just about every idea under the sun. We 
are going to continue to look at others, but I want to get some 
things clear on the record.
    First, on the enforcement provisions, 2 years ago, 
Commissioner Swindle, Eileen Harrington came to the Committee 
and said that the enforcement mechanism in the Burns-Wyden bill 
would work. In fact, her comments are, the enforcement scheme 
laid out in the bill likely would work well.
    Now, it has got four tiers. The four tiers are the criminal 
penalties, the Federal Trade Commission civil penalties, the 
authority of the state Attorneys General, and the ability of an 
ISP, an Internet service provider to bring suit. I guess the 
first question I would like to know from both of you on the 
record, do you disagree this morning--so we can actually get a 
sense of what two Commissioners think this morning, do either 
of you disagree with what Eileen Harrington said when she said 
the enforcement mechanism in the Burns-Wyden bill would work 
well?
    Commissioner Swindle.
    Mr. Swindle. Senator, we essentially do that already. Under 
section 5 of the Federal Trade Commission Act we deal with 
deception and unfairness, a false header, that is an address, 
the from line of somebody that is not the real person, that is 
deception. Deception in the subject line is deception. 
Deception in the subject matter is deception. We have the 
ability, with the existing laws, to do those things. Certainly 
the criminal and civil aspects of it are positive things. We do 
that already.
    We work very well with the Department of Justice in trying 
to find solutions to these problems and certainly go after the 
bad guys. We certainly encourage the continued ability of 
states to enforce the Federal Trade Commission Act, and working 
with the AGs, and we do a marvelous job with that.
    Senator Wyden. But Commissioner, obviously, empowering the 
state Attorneys General is something the Congress has to do. 
The ISP provision is something the Congress has to do. I just 
want to know, so we do not go out and reinvent the wheel every 
45 days or 60 days, whether you agree with what Eileen 
Harrington said, and I happen to think you have done useful 
work. It is not a referendum on whether you all have done 
useful work. Eileen Harrington said our enforcement mechanism 
would work. Do you agree with that?
    Mr. Swindle. I have not disagreed, but the point I want to 
make, Senator, is, we can have this structure, which you know 
is wonderful. The problem still remains finding those who are 
doing the evil. That is a technology challenge. It is a 
staffing challenge. We go after these cases, and one of the big 
dilemmas we have is trying to figure out how many resources can 
we devote to this when we very likely will not find who did it, 
and the effect of what was happening, does it warrant the 
spending of these resources. It is a very difficult thing.
    Enforcement is many things. It is having the structures you 
described, certainly, but also you have to have the capacity to 
go do something with those tools. You have to have the capacity 
to find the person who has done wrong and bring them in and 
stand them up in front of those four standards and get them.
    Senator Wyden. Commissioner Thompson, Eileen Harrington, do 
you think she was right when she said, what we are trying to do 
on enforcement would work well?
    Mr. Thompson. I think she was right, what she said when she 
said it. What I think is based upon what I have heard and the 
information that we have gotten that the problem may have 
morphed a little. Now, I do not want to make any mistake about 
it. You will hear from me today instances where I would like to 
come back and tell you whether certain parts of the various 
bills we see will address part of the problem, but I do not 
want to make any mistake about it. I think that we need 
legislation, and we need it this year.
    The issue is whether the form of legislative vehicles we 
have seen so far address parts of the problem and not other 
parts of the problem, and we would like to be a resource to you 
to give you the best information of whether some of those parts 
might be more effective or might be necessary elements in 
addressing the problem.
    Let me give you an example. I was actually moved by the 
information that was given to us by a small ISP provider, when 
I say small, less than 20,000 subscribers who said that last 
year, they spent $200,000 to deal with spam, and they were able 
to spread that cost passing it through to their subscribers, 
but they saw a real choke point coming up ahead, because they 
were so small, that they would not be able to pass that cost 
on, and that is because of volume. I am not sure we have a way 
to address that, but I would like to give you the best 
information that I have, and I am willing to come back to you 
in 45 days or sooner, if necessary, to give you what that best 
judgment is.
    Senator Wyden. Mr. Chairman, if I could just get one other 
question in very briefly, what we tried to do in the Federal 
Trade Commission portion of it is to give you all the 
flexibility to make distinctions between the big-time offenders 
and the small-time violators. Again, because we had gotten 
favorable testimony from the Federal Trade Commission, we felt 
we were headed in the right direction. Do you all still feel 
that that is a sensible distinction to be making, either of 
you?
    Mr. Swindle. Senator, I think we need to continue this 
dialogue. I have been using this expression for a long time. 
There are no simple answers to this. I have not seen one piece 
of legislation that I think will be adequate.
    I do not know that we need additional authority. As I said, 
we have the capacity to go after deception and fraud right now. 
We have got to realize that this is going to be an evolving 
process. It is going to take technology advances, it is going 
to take industry stepping up to the plate and doing what they 
ought to do because it is the right thing to do, and it is 
going to take us working and advising and consulting with you, 
Senator Burns, Senator McCain, and other Members of the 
Congress, trying to find the best possible solution. We want to 
find the best possible solution, I mentioned.
    We are not going to find the perfect solution. We can 
forget that. We just are not going to find it, but the best 
possible solution will be the one that is effective and the one 
that does not do more harm than good and start to make 
impediments, and again, industry could solve much of this 
problem if they would get it done so that you would not be 
having to try to get it done through legislation, which 
invariably, because of the speed of this industry, the 
legislation will always be behind.
    Senator Wyden. My time has expired. My only point is that 
when you have the real scofflaws, when you have the real bad 
actors, those are not people who are paying attention to what 
industry self-regulatory initiatives are all about, and that is 
why we have got to move, and we have got to move quickly, and I 
think we ought to have your input, but Mr. Chairman, I hope 
that this effort to have 45 more days and more discussion will 
not turn into something that is so prolonged that we cannot get 
action on it. We have had a lot of years of studying it, and I 
think we ought to get moving, and I thank you for the time.
    The Chairman. Senator Cantwell.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman. I know this 
Committee and my colleagues here today have spent a great deal 
of time working on this issue, as the FTC has, on trying to 
enforce and crack down on the individuals, and I am anxious to 
hear from our second panel as well, because I think we are 
going to hear some interesting comments from them, because I 
think the industry is being very much impacted by this as well.
    There are people who very much count on having a 
relationship with online consumers, and that relationship is 
being damaged by the perpetrators of spam, so I think everybody 
is interested in moving forward. Why not focus more narrowly on 
one particular aspect of this issue, which is harvesting.
    I know my colleagues here have language in their 
legislation, but why not, as a first step, something that we 
can all have consensus on, and we know that there are 
perpetrators of spam, either autogenerated by computers, or 
people who are actually harvesting names that are available 
online from various websites. Why not crack down on that right 
away, and focus on the anti-harvesters as a key component?
    Mr. Swindle. Senator, I personally think the clandestine 
capturing of e-mail addresses and then turning around and using 
them is an abominable act. It is commonplace, we all know that, 
and perhaps we need to look at it in terms of saying you cannot 
do this, but again, we get back to how do we enforce it, how do 
we find those who do it, because from a technology standpoint, 
it is fairly well concealable, but again, it is just one small 
element of this whole problem that we need to keep working and 
need to be getting industry to step up and tell us, number 1, 
how to solve the problem with technology, and number 2, we are 
not going to do this any more.
    I have a good friendship with a member of industry that was 
telling me when he took over the company, and it is a fairly 
big company, he said that he found out that one of the 
practices of the company was, when they got e-mail addresses 
they sold them, and he asked, why are you doing that, did you 
ask for permission. They said, no. He said, we are stopping 
that right now. That is the kind of leadership we need.
    Senator Cantwell. We have had a lot of discussion, I am 
sure, in the last couple of years about what those 
relationships are and what businesses have the right, in 
various types of marketing, what relationships they can extend 
to some of their partners, but in this notion of anti-
harvesting legislation, being specific, that you cannot 
autogenerate or cannot take names that you have gotten from 
other places online and e-mail them, and then going back to 
those, and I know it is not obvious who all of these entities 
are, but with a little investigation you can find them. If that 
organization cannot prove that they have a prior business 
relationship with that name, then they would be guilty of 
having harvested it. It is a more simple framework of saying 
that there are people--you know, we have had all this debate 
about opt in and opt out, and we can continue to have it, or 
what is the right framework, and how do you make the penalties, 
but I think 90 percent of the people would agree on the anti-
harvesting aspect.
    Mr. Thompson. I think that would be helpful.
    Mr. Swindle. I think it is a legitimate approach. I would 
ask for consideration to how you define existing relationship, 
because some of the definitions of it I have seen, you could 
drive a Mack truck through them. You almost have an existing 
relationship just because you exist, and that needs to be 
carefully thought of, because, again, I made a statement in my 
opening remarks that the laws of legislation that will tend to 
favor larger firms over smaller firms is not a good idea in my 
mind, that I think some of the larger firms will have the 
capacity to drive trucks through large holes.
    Mr. Thompson. I think it would be helpful. I think it is an 
element, but I think it is only one element. I know that this 
Committee has been particularly concerned about how to deal 
with protecting what consumers' interests are. I think it is 
important, though, that we also manage their expectations. I 
think that this is one element, but I think there are other 
parts of the problem that need to be addressed, too, and I 
think that a well-crafted legislation should have various 
pieces, because there is not one single answer to this problem.
    Senator Cantwell. Well, I think that that is--I agree with 
that, but I think focusing on the most egregious issues is 
important for us to do, too. If we are not going to move 
forward on the whole framework, let us make progress on the 
most egregious side of the equation.
    And Mr. Swindle, I just wanted to clarify when you were 
talking about that example, you were talking about--with 
Microsoft, you were talking about seeing a pop-up message, 
right? You were not talking about somehow someone e-mailed you 
an additional message?
    Mr. Swindle. I am going to use the term that is alien to 
Microsoft, I guess, Instant Message, which I guess belongs to 
AOL, but right in the middle of the screen a message.
    Senator Cantwell. I know what you are referring to. So are 
you saying that you lump that in with--I am not saying it might 
not be a rude behavior, and one that the consumer----
    Mr. Swindle. It is spam.
    Senator Cantwell. How are you defining it as spam?
    Mr. Swindle. It was a commercial notice placed on my screen 
without me being able to control it, not knowing it was there. 
I found out how to control it and cut it off, and I have not 
gotten any more, but it would have been nice if Microsoft told 
me, hey, Orson, thank you for buying the new computer and 
getting our software. By the way, our instant messenger service 
is on, and you are going to be receiving messages from us, and 
if you do not want it on, just do this and turn it off. They 
did not give me the courtesy of doing that. The message 
basically said, if you do not want to receive things like this, 
go to a website and you can get instant message blocker, or 
something like that. It was advertisement, pure, unadulterated 
advertising.
    Senator Cantwell. Well, and I certainly think that there 
are issues about what should be, once you have installed 
someone's software, what capabilities they should have in 
continuing to communicate to you, and that should be clear to 
consumers and you should give them options.
    Mr. Swindle. Give me the power to turn it off, to say no--
--
    Senator Cantwell. Right. Exactly.
    Mr. Swindle.--that is all I ask, and they should have done 
that and they did not do it, and I find it interesting, they 
are now promoting how they are going to stop spam, and by their 
own practices, they are sending me spam.
    Senator Cantwell. Well, I do not know that Microsoft is, 
but----
    Mr. Swindle. An associate.
    Senator Cantwell.--I think that it is a related issue, the 
software functionality, and giving consumers obviously the 
ability to turn off and turn on, and to be asked permission is 
a very key point, but I would try to keep that as a related, 
but separate issue to this notion of that then comes into your 
e-mail queue from a variety of people that are generating.
    Mr. Swindle. I was looking at my e-mail and blanking over 
my inbox----
    Senator Cantwell. Your screen.
    Mr. Swindle.--was this spam message. It cannot be called 
anything other than that.
    The Chairman. Thank you, Senator. It is time----
    Senator Cantwell. Thank you. Thank you, Mr. Chairman.
    The Chairman. The Senator from Washington's time has 
expired. Thank you.
    Thank you very much, Commissioners. I appreciate your time 
and your input, and I will look forward to your comments on the 
Microsoft recommendations. The sooner you can get those to us, 
the better. Thank you.
    Our next panel is Mr. Ted Leonsis, the Vice Chairman of 
America Online; Mr. Enrique Salem, President and CEO, 
Brightmail; Mr. J. Trevor Hughes, Executive Director, Network 
Advertising Initiative; Mr. Marc Rotenberg, Executive Director, 
Electronic Privacy Information Center; and Mr. Ronald Scelson, 
who is of Scelson Online Marketing. I welcome you. I appreciate 
your patience, and I apologize for the delay, which has been 
caused by votes on the floor. Mr. Leonsis, welcome. It is a 
pleasure. Please proceed.

           STATEMENT OF TED LEONSIS, VICE CHAIRMAN, 
      AMERICA ONLINE, INC. AND PRESIDENT, AOL CORE SERVICE

    Mr. Leonsis. Thank you, Mr. Chairman. Chairman McCain, 
Members of the Committee. On behalf of America Online and our 
35 million worldwide members, I would like to thank you for the 
opportunity to testify before the Committee on the issue of 
unsolicited commercial e-mail. My name is Ted Leonsis, and I am 
Vice Chairman of America Online and President of the AOL Core 
Service, and as one of the early pioneers in this industry, I 
am here today because I believe this issue is the most 
important matter that is facing us today, and that is not a 
personal opinion. That comes directly from the hearts and minds 
of our members.
    I would also like to thank the fellow panelists for being 
here today, especially FTC Commissioners Orson Swindle and 
Mozelle Thompson for hosting a very timely workshop on spam 
earlier this month, and you will enjoy the tapes. It was at 
that forum where we made an announcement that to me was a 
shocking reflection of how bad things had truly gotten when it 
comes to the online medium that we helped to create, and the 
rising tide of spam.
    On April 30, we announced that our company was blocking up 
to 2.4 billion spam e-mails in one day from being delivered to 
our members. That amount is double the number of spam e-mails 
we had blocked in one day from just 8 weeks earlier, on March 
5, and over four times the amount of spam we blocked since 
early December.
    On a yearly basis, and this is mind-boggling, that means we 
are now blocking almost 24,000 spam e-mails from going to each 
one of our members' e-mail inboxes.
    And to give you some more context, if a standard business-
size envelope represented each spam e-mail we were blocking, 
and every day, every single day you laid those envelopes end to 
end, they would stretch around the earth four times and then on 
to the moon, but this is more than just sheer raw numbers. 
There is raw anger that spam generates from our members that 
has forced us and me personally to declare that the worst 
spammers are public enemy number 1, and we now know that 
canning the spam remains the priority, number 1 issue for 
online consumers today, and our members tell us, they go out of 
their way to tell us how much they hate spam every day on our 
service.
    We put a report spam button on our AOL software that came 
out in the fall and today more than 9 million receipts will 
come from our members. They are forwarding spam to help us 
block more and more of it right at our servers. Those are more 
than 9 million individual pleas from our members for action on 
spam, and as far as I am concerned, we are hearing them loud 
and clear, but even though our members are reporting more spam 
to us then ever before, and even though we are blocking more 
spam from getting to our members than ever before, it is 
clearly not enough to stop the rot of the e-mail tool that has 
become so central to our people's daily online lives, and that 
is why we are all here today. We really need your help.
    We are not just at a crisis period, but we are at a point 
now where the very tool that is the core communication point in 
the online world is under attack. In short, we are witnessing a 
serious threat to consumer confidence in the e-mail function, 
and if that happens, it will lead to an erosion of faith in the 
online medium in general, and that would be a crime. That is 
why we applaud everyone here for stepping forward. You would 
have had and will continue to have a very critical and timely 
role to play in the effort to eradicate this scourge of spam.
    This is an issue that begs for attention but more 
importantly begs for action. We recognize better than anyone 
that there is no silver bullet that is going to kill spam on 
the Internet. It is everywhere, and no one owns the spam 
problem and no one will have the solution. We are in this 
together, Government, our competitors, our consumers, the 
entire industry. Every constituent that is online this matters 
to, and we are responding in AOL forcibly and comprehensively 
to the spam attack and believe we are rising to the occasion to 
defend our members in five key areas, and these are all pillars 
of our plan to battle against spam.
    First, we are and will continue to invest in providing the 
very best software tools to empower members to fight back 
against spam and spammers, such as the report spam button in 
customizable mail controls on our 8.0 software. 100 days after 
that announcement, we released a new version of our software 
called 8.0 Plus, and made it very easy for our members to move 
into a mode where they would only receive e-mail from people 
that they knew, so we have listened to the FTC and that 
capability is already built in.
    Second, we are constantly updating and strengthening the 
anti-spam filters that we own and operate at our server level, 
and we use our daily member feedback to do so. They are 
providing us with the lists, and we are listening and 
responding technically.
    Third, we are working with State and Federal-level 
policymakers to ensure that the public laws stay abreast of and 
involved with the ever-changing, even more complex nature of 
spam.
    Fourth, we are playing offense legally. We have filed civil 
lawsuits against over 100 individuals and corporations who spam 
our members, and we are raring to go to do it with more.
    And fifth, we are working across the industry with key 
stakeholders such as Earthlink, Yahoo, and Microsoft, no small 
feat for AOL to do, in an effort to share resources, 
collaborate on technical solutions and set industry guidelines 
to beat these spammers, but even with all that, right now it is 
not enough, and so we are constantly seeking to advocate newer, 
tougher weapons against what I like to call the leadership 
targets in this war on spam, and that is where I believe you 
and Congress can step in with strong anti-spam legislation.
    We need bigger mallets in this online version of Whack-a-
Mole that we are playing to go after the worst spam offenders, 
namely the outlaws and the kingpins of the spam world, and I am 
talking about those spammers who systematically and 
perseveredly send spam using fraudulent and invasive methods, 
those who mislead, lie, and falsify with disdain and disregard 
for any law or measure of decency. They need to get what they 
deserve, criminal penalties, felony counts, and jail time.
    I pointed to the recently unveiled Virginia anti-spam law, 
which is now the toughest in our nation, and the criminal 
penalties it contains, as well as the asset forfeiture 
provision as to a good starting point for Federal action.
    At the same time, we cannot allow these spam evildoers to 
represent in any way appropriate, legitimate, and practical 
marketing via e-mail. That is why, in addition to the remedy I 
just mentioned for outlaw spammers, we would all like to see a 
Federal bill established of rules of the road on the Internet 
for marketers who legitimately communicate online with 
consumers.
    If there is ever an idea whose time has come, it is 
stronger, meaningful anti-spam legislation with this two-
pronged approach. Give law enforcement the tools to seek 
criminal and felony penalties against the very worst offenders 
on spam, and let the good practitioners of e-mail marketing be 
guided by a set of standards that we will all abide by.
    I know this is a tall order, but we will continue to play 
our part and invest and do our best to innovate and constantly 
give our members better anti-spam tools, seek more and more 
technological solutions, make our anti-spam filters even better 
so we can block more spam, and also work across the industry in 
a collaborative and cooperative way without regard to 
competitive boundaries. I am calling for us to work together in 
a multifaceted way in a more comprehensive approach, but we 
really need all of you by our side every step of the way. Do 
not let the spammers get away with it, and we have to act now.
    We are so pleased that Senators Burns and Wyden have taken 
such a strong and active interest in this issue, and we look 
forward to continuing to work with them and other Members in 
crafting legislation that will really help. I thank the 
Chairman and Members of the Committee.
    [The prepared statement of Mr. Leonsis follows:]

Prepared Statement of Ted Leonsis, Vice Chairman, America Online, Inc. 
                    and President, AOL Core Service
    Chairman McCain, Senator Hollings, and members of the Committee, on 
behalf of America Online, Inc., I would like to thank you for the 
opportunity to testify before the Committee on the issue of junk e-
mail--or ``spam.'' My name is Ted Leonsis, and I am Vice Chairman of 
America Online, Inc. and President of the AOL Core Service.
    I would like to tell you a little bit about the nature of the spam 
problem and its effect on ISPs and Internet users, as well as some of 
the things that AOL is doing--along with our other industry 
colleagues--to help address this issue. But first, I would like to 
commend you for holding this hearing and taking a forward-looking 
approach to the spam problem at such a critical time. We believe that 
there is a strong and important role for government to play on this 
issue, and we are anxious to work with you to find a solution to this 
crisis.
    Spam is one of the biggest problems facing Internet users and 
Internet service providers (ISPs) today. Junk e-mail clogs the arteries 
that carry communications across the Internet--misappropriating the 
network and resources of ISPs, and negatively affecting the online 
experience of Internet users. And because junk e-mailers do not bear 
most of the costs of sending their millions of messages, consumers and 
ISPs must shoulder the majority of the expense and burden of handling 
spam. Moreover, much of the mail contains objectionable or misleading 
advertisements. Consumers are being bombarded with offensive, 
deceptive, annoying e-mail; and legitimate commercial e-mail that 
consumers might want to read is being lost in a sea of junk. Clearly, 
spam is a significant business and consumer issue that needs to be 
addressed.
    While spam has caused problems for ISPs and consumers for years, it 
has grown exponentially in recent months. Spam now accounts for 60-80 
percent of all mail coming in from the Internet to AOL members, and AOL 
estimates that the overall volume of spam is doubling at least every 
four to six months. Spam is costing U.S. businesses in excess of $10 
billion annually, clogging the Internet and overwhelming e-mail service 
providers (see Ferris Research at www.ferris.com). For everyone in the 
online world, spam is a burden that has reached crisis proportions--and 
it's only getting worse.
    Fighting spam has become a serious quality of life issue for 
everyday consumers. At AOL, we're listening to our members and have 
declared spammers to be ``Public Enemy #1.'' AOL has taken a number of 
important steps over the past few months to fight back against spam, 
basing our actions on the complaints and concerns of our members.
    First, we have deployed strong technologies across our network to 
block and filter spam. Our anti-spam filters are now blocking up to 2.4 
billion pieces of unwanted mail per day, which means we are stopping 
almost 70 spam e-mails per account per day from landing in the e-mail 
inboxes of our members. And we've fine-tuned technology that stops spam 
before it happens by preventing spammers from gathering--or 
``harvesting''--e-mail addresses from AOL areas.
    Second, we're enlisting our members in this fight by giving them 
new tools that make it easier than ever to block spam and report 
spammers. Our popular ``Report Spam'' button has resulted in a dramatic 
increase in the amount of spam being reported directly to AOL by its 
members--we now receive upwards of 9 million reports of unwanted e-mail 
per day. AOL's Mail Controls are easy to use and allow our Members to 
block e-mail from specific mail address or entire domains, or to create 
a ``permit list'' of addresses from whom they will accept mail. We're 
also providing our members with important consumer safety tips that can 
help them reduce spam and improve the security of their online 
experience--particularly in the broadband environment, where it is 
critical that consumers know how to protect themselves in the world of 
``always-on'' high-speed connections.
    Later this year we will introduce new spam identification tools 
that will be personalized for each member, so members can decide for 
themselves what is unwanted mail. And we will strengthen our already 
powerful Mail Controls, offering more ways stop spam before it reaches 
the inbox. In addition, AOL will--in keeping with our longstanding 
commitment to providing strong Parental Controls--take special steps to 
help provide kids on AOL with a safe, spam-free experience.
    In addition to the technology tools we use and provide to our 
members, we're also joining with other ISPs in waging war against 
spammers in court. Just recently, AOL filed lawsuits against over a 
dozen companies and individuals responsible for sending 1 billion spam 
e-mails to our members. We've taken more than 100 individuals and 
companies to court over the past few years, resulting in millions of 
dollars in monetary penalties against spammers. We're supportive of the 
actions that Earthlink and other ISPs have taken to fight spam on the 
legal front, and we look forward to finding new ways that industry can 
work together to bring spammers to justice.
    We're also building alliances with others in our industry to think 
creatively and constructively about how to craft and implement real 
solutions to the spam problem. Just last month we joined with Microsoft 
and Yahoo! to announce a commitment to work together and with other 
industry stakeholders to combat spam. The group will initiate an open 
dialogue to drive the development of open technical standards and 
industry guidelines that will help fight spam, as well as discussing 
ways to cooperate with law enforcement efforts against large-scale 
spammers.
    And finally, we're working with policymakers to support efforts to 
reduce unwanted e-mail. For example, we worked with Virginia 
legislators, the Attorney General, and the Governor to get a tough new 
law enacted in Virginia earlier this month that would provide criminal 
penalties for spammers who send junk e-mail by fraudulent means. We 
were also honored to participate in the spam workshop sponsored by the 
FTC several weeks ago, which served as a lively forum for debate and 
discussion about the complexities of the spam problem and how it can be 
addressed.
    Yet despite these efforts, spam remains a problem for service 
providers and their customers, particularly because many spammers use 
fraudulent transmission tactics--such as forging e-mail addresses and 
Internet domain names--to circumvent filters that are designed to allow 
ISPs to manage their mail load and empower consumers to exercise 
choice. In fact, we believe that these ``outlaw spammers'' (those who 
engage in fraud) are the primary cause of the overall spam problem.
    The ``outlaw'' spam problem includes: 1) e-mail that is sent using 
falsified means of technical transmission; 2) e-mail sent using hacked 
e-mail accounts; and 3)e-mail sent by spammers who intentionally abuse 
legitimate e-mail service providers by registering for multiple e-mail 
accounts or domain names using a false identity for the sole purpose of 
transmitting spam. ``Outlaw'' spam has increased alarmingly in the past 
year, and we believe that this dramatic growth underlies the 
astonishing increase in overall spam volume. These spammers are 
hijacking the computer resources and bandwidth of private consumers and 
businesses large and small, threatening to overwhelm the entire online 
medium.
    With the spam problem reaching crisis proportions, we believe that 
government can play a strong role in helping fight spam--both through 
increased enforcement efforts and through the enactment of new laws to 
target spam. AOL believes that Federal legislation can serve two 
purposes in helping to fight spam. First, it can help set baseline 
rules of the road for legitimate marketers who use the e-mail medium to 
reach consumers. Such rules, combined with industry standards and new 
spam-fighting technologies developed by relevant stakeholders, will 
help to ensure that marketers use e-mail responsibly and will also 
provide legitimate businesses with some clarity regarding the legal 
obligations governing their marketing operations.
    Second, we believe that government action is critical to deterring 
``outlaw'' spammers. Strong and effective laws--including tough 
criminal penalties--must be put in place to pursue and prosecute 
spammers who use fraudulent transmission tactics. The newly amended 
Virginia Computer Crimes Act is an example of a law that gives ISPs and 
law enforcement powerful tools for fighting ``outlaw'' spam. The Act 
calls for enhanced criminal penalties if, for instance, spammers employ 
minors to send spam or derive significant revenue from sending large-
scale spam. This statute provides another way for law enforcement and 
service providers to take direct aim at ``outlaw'' spammers, using the 
law to put them out of business.
    We hope that Congress will follow Virginia's lead by enacting 
legislation that will target ``outlaw spam'' by imposing stiff 
penalties on spammers who engage in techniques of fraud and 
falsification. Such legislation is needed not only to stop existing 
abuses, but also to safeguard new e-mail technologies that outlaw 
spammers may try to circumvent. We are pleased that many Members of 
Congress--including Members of this Committee--have taken an interest 
in the spam problem and are working to advance legislative solutions.
    In the meantime, AOL is committed to maintaining a leadership role 
in the fight against spam. The goodwill and trust of our members 
depends on our continued focus on developing solutions to this problem. 
AOL will to continue to pursue strong enforcement actions and innovate 
our spam fighting tools--putting our members in even greater control. 
But ultimately, we believe the spam battle must be fought on many 
fronts simultaneously in order to be successful. From technology to 
education, from legislation to enforcement, industry and government can 
work together to reduce spam significantly and give consumers control 
over their e-mail inboxes.
    We applaud the Committee for examining this issue at such a 
critical time, and we look forward to working with you and other 
lawmakers to stop spammers in their tracks.
    Thank you for the opportunity to testify; I am happy to answer any 
questions you may have on this topic.

    The Chairman. Thank you. Mr. Salem, welcome.

 STATEMENT OF ENRIQUE SALEM, PRESIDENT AND CEO, BRIGHTMAIL INC.

    Mr. Salem. Thank you, Mr. Chairman and Members of this 
distinguished Committee, for allowing me to address you on this 
topic of unsolicited commercial e-mail, often referred to as 
spam. I am Enrique Salem, Chief Executive Officer of Brightmail 
Incorporated. Today, our software process is approximately 10 
percent of the world's Internet e-mail for our customers. E-
mail has become a ubiquitous form of communication for 
businesses and personal use. Spam is flooding our inboxes and 
it is threatening the viability of e-mail as a communication 
tool. It undermines consumer confidence and threatens the 
future of e-mail and online commerce.
    The growth curve of spam has been steep over the last 5 
years. Brightmail has seen an increase of more than 900 percent 
in the number of unique spam attacks per month, dating from 
April 2001 to April 2003. Attacks can have anywhere from 10 to 
tens of millions of messages that span a few hours to many 
days. Over the same period, the amount of unsolicited 
commercial e-mail has increased from a few messages to 
approximately 46 percent of all Internet e-mail, and that is a 
conservative number.
    The numbers are actually growing very, very rapidly, and we 
believe that by the end of this year, it will be more than 50 
percent. The current volume of spam being sent has a 
significant cost to ISPs and businesses. Spam is currently the 
number 1 complaint for many ISPs, and is negatively impacting 
customer satisfaction while driving support costs and 
infrastructure costs.
    On the business front, a recent report from Ferris Research 
estimates that spam costs U.S. businesses $10 billion a year in 
lost productivity, bandwidth, and storage costs. Businesses 
face an additional liability by allowing offensive and 
fraudulent content to reach employees. Adult content has 
increased more than 170 percent in the last 12 months. Unlike 
traditional direct mail or telemarketing, e-mail marketing has 
a very low marginal cost. As a result, despite extremely low 
response rates, spammers can make a profit. The more e-mails a 
spammer can send, the greater his profit, while costs remain 
nearly constant.
    The Internet does not know geographic boundaries. 90 
percent of the spam hitting our probe network is untraceable, 
or uses some form of deception to hide its origin. In many 
cases, this is accomplished by sending the mail through 
unsecured open relays and open proxies that are spread out 
across the world. Of the 10 percent that is traceable, 60 
percent claims to be from Europe, with 16 percent claiming to 
be from Asia.
    Spammers will continue to use deceptive techniques to evade 
filters. We are starting to see an increasing amount of 
corporate identity theft, where spammers send mail using well-
known brand names in an attempt to evade filters and reach user 
inboxes. A consequence of this technique is that less dynamic 
spam filters can blacklist legitimate corporate domains in a 
misguided attempt to fight spam.
    The sheer volume of spam is also having a direct impact on 
legitimate direct marketers. The messages are being lost in a 
sea of spam. Overzealous filters now block an increasing amount 
of legitimate mail. In many cases, it is inappropriately 
deleted or placed in a bulk mail folder, which reduces the 
response rates to legitimate marketing campaigns. It is 
important to note that spam is invading other forms of 
electronic communication, including Instant Messaging and 
wireless devices. One only needs to look at what has happened 
in the international wireless markets to see that spam has 
become a very serious problem on cell phones, such as in Japan 
and on the NTT DoCoMo Network. We should not exclude these 
other valuable communication tools from consideration, because 
the same problems affecting e-mail today will soon affect these 
other forms of communication.
    I am here to tell you we will solve the spam problem. The 
solution will require strong legislation, cooperation between 
direct marketers, ISPs, and technology providers. It will 
require legislation, but there are limits to what laws alone 
can do. Strong laws can serve as a deterrent to spammers. We 
need Federal laws that prohibit deception in e-mail headers. 
There also needs to be a valid way to opt out, but we still 
need to define what it means to opt out. What are we opting out 
of? We need to prohibit the sale of tools to harvest e-mail 
addresses, as well as the sale of e-mail lists that have been 
inappropriately created.
    Beyond spam filtering, technology will be required to 
identify legitimate e-mail. There will need to be a set of best 
practices and guidelines defined and managed by industry 
coalitions that are followed by legitimate direct e-mail 
marketers, allowing us to more effectively block spam and 
allowing legitimate mail to be successfully delivered, 
preserving e-mail as a viable communications tool.
    Thank you for the opportunity to comment and participate in 
this important discussion.
    [The prepared statement of Mr. Salem follows:]

Prepared Statement of Enrique Salem, President and CEO, Brightmail Inc.
Spam Problem Overview
    E-mail has become a ubiquitous form of communication for both 
business and personal use. With e-mail has come spam. Today, spam is 
spreading in such staggering amounts--flooding both corporate and 
personal inboxes--that it now threatens the viability of e-mail as a 
primary communication tool. Unsolicited commercial e-mail (UCE), 
commonly known as spam, has reached epidemic proportions. Analyst firm 
IDC currently estimates that 7.3 billion pieces of spam are sent each 
day with 3.9 billion of those sent in North America.
    The growth curve has been steep. Over the last 5 years, we have 
seen the amount of unsolicited commercial e-mail increase from a few 
messages to approximately 46 percent of all Internet e-mail. Brightmail 
predicts that by December of 2003 spam will become more than 50 percent 
of all Internet e-mail. It has become a serious problem for Internet 
Service Providers (ISPs), businesses and individuals.
    Unlike direct mail or telemarketing, e-mail marketing has very low 
marginal cost. As a result, despite extremely low response rates, 
spammers can make a profit fairly easily. The more e-mails a spammer 
can send, the greater his profit, while the cost remains nearly 
constant. Bulk e-mailers are sending between 80 and 100 million 
messages a day. This both explains the alarming growth rate of spam and 
makes it more frightening--there is no financial disincentive for 
flooding the Internet with more and more spam.
Costs to ISPs and Businesses
    A recent Gartner Group study on spam estimates that spam costs an 
ISP with 1,000,000 users $7 million per year. Spam is currently the 
number one complaint for many ISPs and is negatively impacting customer 
satisfaction while driving up support and infrastructure costs. 
Businesses are also not immune from the costs. A 2003 report by Ferris 
Research estimates that spam costs U.S. businesses $10 billion/year in 
lost productivity alone. Businesses must also add additional storage 
and bandwidth to handle the increase in e-mail traffic due solely to 
spam. Lastly, businesses face an additional liability--allowing 
offensive and fraudulent content that is often a part of spam to reach 
employees. Adult content has increased more than 170 percent in the 
last 12 months and scams have nearly doubled in the same time period. 
These are concerns that go beyond the IT department and into the human 
resources arena.
Costs to Direct Marketers
    Another significant consequence of the sheer volume of spam being 
sent is that over zealous filtering attempts are now blocking an 
increasing amount of legitimate mail. In many cases it is improperly 
deleted or placed in a bulk mail folder reducing the response rates to 
legitimate marketing campaigns.
Spam is a large and growing problem
    As seen in Chart 1 below, Brightmail has seen an increase of more 
than 900 percent in the number of unique spam attacks/month from April 
2001 to April 2003. A spam attack is a unique grouping of messages 
based on their content--for example, Herbal Viagra. Spammers will 
inject random content into each message to attempt to confuse filters 
by making each message that they send appear to be different. Attacks 
can have anywhere from ten to tens of millions of messages and can last 
from a few hours to many days.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Chart 1
Spam is becoming increasingly offensive or fraudulent
    As noted in Charts 2 and 3 below, from April 2002 to April 2003, 
Brightmail has seen ``adult'' spam increase by more than 170 percent 
and spam categorized as ``scams'' nearly double. These offensive e-
mails are troublesome and costly for consumers as well as for 
businesses.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Charts 2 & 3
Spam is threatening the viability of e-mail
    As seen in Chart 4 below, over the past two years, both spam and e-
mail have grown. However, spam comprises a greater and greater 
percentage of the total amount of e-mail that is sent each year, which 
is threatening the viability of e-mail as a communications tool.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Chart 4

Spam is an International Problem
    Much of the spam reaching U.S. inboxes is routed through other 
countries. The majority of spam is untraceable (90 percent), but of 
that spam that does claim to come from a certain region of the world, 
the majority comes from Europe--with the Russian Federation comprising 
10 percent--and Asia--with China leading Asia. A key point to make is 
that even if a spam message claims to originate in China, it very well 
could have originated in North America or somewhere else. This point 
has implications as we consider the impact of various state and Federal 
spam legislation.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Chart 5
Tracking Spammers is difficult
    Spammers often obfuscate their true location by enlisting open 
relays or proxy servers throughout the world. Trying to track down the 
true origin of a known spam message is often quite difficult, as 
demonstrated in Exhibit 1 below.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Exhibit 1

Use of Open Proxies
    Spammers aggressively use technology to hide their tracks. A 
perfect example is the growing use of open proxies; open proxies are 
misconfigured servers that allow spammers to generate large volumes of 
e-mail that are not easily traceable to the actual sender. There are 
many thousands of open proxy servers available to spammers at any given 
time and a great deal of spam flows through these servers--both in the 
U.S. and overseas.
Changing Techniques to Reach Inboxes
    Spammers have moved beyond simple text-based e-mail to entice end-
users to click through. One such technique is using HTML-based e-mail. 
An example of a recent HTML-based spam message appears to the recipient 
as follows:
Exhibit 2
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    When in reality, the HTML code behind this seemingly benign image 
is collecting valuable information for the spammer.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Spam Can Lead to Digital Identity Theft
    Spammers also employ well-known brand names in an attempt to get 
end-users to open e-mails. Not only does this perpetrate the spam 
problem, it also does considerable damage to the reputations of 
companies.
    We see spam from global corporations that was actually sent out by 
a spam shop halfway around the globe. These innocent corporations face 
more than the wave of bounced messages and angry responses from the 
spammed. This type of corporate identity theft can severely damage a 
company's worldwide brand since spammers have global reach.
    Additionally, some misguided attempts to fight spam result in 
building blacklists that often include the domain names of these 
victims of domain identity theft. These blacklists further the damage 
done by the open relays and falsified headers of spammers when 
subscribers to these blacklists can no longer receive e-mail from the 
legitimate enterprises. Domain names are an intrinsic part of a 
corporate brand. The theft of these names for mass mailing of 
unsolicited e-mail has hurt some companies already and the trend may 
grow in the months and years ahead.
    Corporations have a responsibility to their employees and 
shareholders to take measured steps in securing their messaging 
systems. In fact, as liability cases do make their way into the courts, 
the extent to which corporations can demonstrate that they made ``best 
efforts to protect against spam'' will have a large bearing on the 
outcomes.
    In the header information in Exhibit 3 below, a spammer has used 
two well-known company names to trick the recipient into thinking that 
the e-mail is from a trusted source, when in fact it is just an attempt 
to obfuscate the true identity of the sender.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Exhibit 3

Spam: Moving Beyond E-mail
Wireless Spam
    There is a huge impending need for anti-spam protection in the 
mobile/wireless environment. Wireless e-mail produces a unique set of 
threats from spam, including volume issues when wireless users receive 
large amounts of spam. Viruses and worms can harm or temporarily 
paralyze PDA devices or the applications that run on them. Cell phones 
are particularly vulnerable to dictionary attacks done by spammers 
using phone numbers, with the advent of text messaging and SMS.
    There is currently more of a need for anti-spam protection for 
wireless devices in foreign markets than in the U.S. The highest risk 
to wireless spam and viruses exists in Asia and Europe, but the need in 
the U.S. for protection is growing. We can see the future for U.S. 
wireless in overseas experiences as they have adopted wireless 
technology more rapidly. One way that spam is affecting wireless 
communications overseas is by causing carriers to pay back their own 
customers for each spam message received. Since carriers like NTT 
DoCoMo in Japan charge for incoming messages, customers were at first 
paying their carrier for the pleasure of receiving and having to delete 
spam from their own devices. Now DoCoMo refunds customers for spam 
messages received, which is detrimental to DoCoMo's bottom line.
    Additional costs of wireless spam are passed on to end-users. With 
wireless messaging pricing models, wireless users must pay for each 
message and, often, each line of content within that message. With 
unwanted messages flooding wireless devices, end-users will no longer 
find technologies like SMS a viable mode of communication. With the 
continued adoption of wireless communications in the U.S. will come a 
dramatically increased need for wireless anti-spam and anti-virus 
technology, to protect the end user and the provider's bottom-line. As 
wireless adoption continues, spammers will increasingly target wireless 
users with spam, making for an expensive and very inconvenient dilemma. 
As spam invades PDAs, cell phones and the like, wireless carriers will 
have to block spam or face customer churn and costly refunds for 
unwanted wireless spam.
Instant Messaging (IM) Spam
    Spam is also infiltrating the desktops of business and home users 
via another popular communication tool--Instant Messaging (IM). As more 
businesses use IM to communicate with business colleagues who are 
offsite or traveling, spam via this route has some of the same negative 
impacts that it does via e-mail--productivity issues and potential 
liability issues for offensive content that is delivered via IM.
    Exhibits 4 and 5 below are examples of recent IM spam that were 
received by business users. Exhibit 4 offers a common pitch to lose 
weight while Exhibit 5 contains more offensive content. Spam via IM is 
of particular concern to parents whose children use IM to communicate 
with friends.

Exhibit 4
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Exhibit 5
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Impact of Current Spam Legislation
State Legislation
    As of April 2003, twenty-nine (29) states have spam control laws. 
In July 1997 Nevada became the first state to enact spam control 
legislation (law amended in 2001 and 2003). Nevada law states that it 
is illegal to send unsolicited commercial e-mail unless it is labeled 
``ADV'' or ``ADVERTISEMENT'' at the beginning of the subject line, and 
includes the sender's name, street address, and e-mail address, along 
with opt-out instructions.
    Similar spam control legislation was passed in California in 
September 1998. California law currently states that unsolicited 
commercial e-mail messages must include opt-out instructions and 
contact information, and opt-out requests must be honored and that 
certain messages must contain a label (``ADV:'' or ``ADV:ADLT'') at the 
beginning of the subject line. Only a small percentage of the messages 
Brightmail processes each month uses these labels, partly because less 
sophisticated spam filters were identifying messages with these marks 
and partly because spammers do not abide by these U.S. state laws since 
they are not sending spam from these states
    Indiana and New Mexico and Virginia are the states to most recently 
pass spam related legislation, doing so in April 2003. Virginia's 
recently updated law has received a great deal of attention due to the 
stiff penalties for sending spam from within the state of Virginia, 
including giving the authorities power to seize assets earned from 
sending bulk unsolicited e-mail pitches while imposing up to 5 years in 
prison for violators.
    Have these state laws had an impact on the volume of spam? Not 
really--spam has continued to increase dramatically over the past few 
years, from being an annoyance to a serious threat to the viability of 
e-mail. Part of the problem has to do with enforcement of the laws--
there have been limited number of cases that leverage current state law 
given that the burden of proof is often on the recipient and can be a 
heavy burden at best. An example of this heavy burden is the eTracks 
case that is currently being litigated by a San Francisco-based law 
firm, Morrison and Foerster LLP. States have limited budgets and those 
dollars are being allocated to enforcing laws that more directly 
impacts the safety and well being of its residents.
Foreign Spam Legislation
    We've seen spam legislation enacted in other countries, such as 
Japan where businesses delayed implementing technological solutions in 
hopes that Federal legislation would eliminate the spam problem. The 
law, enacted in October 2002, which required unsolicited text messages 
to be tagged, has had little impact on reducing the volume of spam sent 
via text messaging in Japan.
    The European Union (EU) has also passed legislation that its member 
states must comply with by October 2003, which requires that there must 
be a prior opt-in relationship between a sender and recipient in order 
for unsolicited e-mail or text messaging to be sent. Some member states 
are already in compliance, but the amount of spam that European e-mail 
users receive continues to climb. ISPs and European businesses are 
being forced to examine technological solutions to the spam problem, 
given that legislation is having little impact on the spam problem.
Federal Spam Legislation
    There is hope that Federal laws will have the muscle required to 
combat the growing spam problem. The only current Federal restrictions 
on e-mail spam are the general criminal and civil fraud prohibitions. 
The FTC currently works with law enforcement to combat fraudulent e-
mail scams, but at the moment 56 percent of spam does not fit the legal 
definition for fraud, according to a recent study by the FTC, and is 
therefore beyond current law. Given federal, state, and local law 
enforcement's focus on preventing terrorism and their limited 
resources, they simply cannot keep up with spam.
    However, there are a number of proposals currently in front of 
Congress.
    These include the Can Spam Act (revised in April 2003) that would 
require unsolicited commercial e-mail messages to be labeled, require 
unsolicited commercial e-mail messages to include opt-out instructions 
and the sender's physical address, and prohibit the use of deceptive 
subject lines and false headers in such messages. Additionally, this 
bill would pre-empt any state laws that prohibit unsolicited commercial 
e-mail outright, but would not affect the majority of state spam laws.
    Another Federal initiative, the Computer Owners' Bill of Rights (S. 
563) would require the Federal Trade Commission to establish a ``do-
not-e-mail'' registry of addresses of persons and entities who do not 
wish to receive unsolicited commercial e-mail messages. Additionally, 
the FTC would be empowered to impose civil penalties upon those who 
send unsolicited commercial e-mail to addresses listed on the registry.
    A third proposed law, the Reduce Spam Act, requires that 
unsolicited bulk commercial e-mail messages would be required to 
include a valid reply address and opt-out instructions, and a label 
(``ADV:'' or ``ADV:ADLT'', or other recognized standard 
identification). These requirements would apply to messages sent in the 
same or similar form to 1,000 or more e-mail addresses within a two-day 
period. In addition, false or misleading headers and deceptive subject 
lines would be prohibited in all unsolicited commercial e-mail 
messages, whether or not sent in bulk.
    Additionally, New York Senator Charles Schumer is planning to 
propose legislation that would incorporate many elements of other 
proposed legislation but also adds funding for enforcement of the ``do 
not mail'' registry component of his proposed legislation.
    From our point of view labeling has not helped to solve the 
problem, as it is a component of current state legislation.
Benefits and Consequences of Legislation
    As with other public hazards, legislation can play an important 
role in the fight against spam. However, the extent of the problems 
often extends beyond state and country borders, preventing legislation 
alone from solving the problem. Consider the parallels in the offline 
world. While there are many ``laws of the road'' for drivers, still the 
public wants the auto industry to build as many safety features into 
cars as they possibly can. Similarly, while ``Breaking and Entering'' 
is a felony crime, homeowners use locks, bars and alarm systems to 
protect themselves from robbery.
    While legislation plays an important role in highlighting the 
seriousness of spamming, it is currently very difficult to enforce. 
Spamming is a global problem, with e-mail being routed around the globe 
and with wanton disregard for local regulations. Governments cannot 
impose regional laws on assailants outside their boundaries. Even when 
legal authorities can catch a spammer within their jurisdiction, the 
burden of proof can be daunting to prosecuting attorneys.
    Legislation may help to deter some spammers and provides a 
framework for prosecution and operations of both Direct Marketers and 
anti-spam companies. But, enforcement is key and will prove expensive 
and difficult. We need to alert this committee that is it critical to 
set the expectations of the public at the right level as far as the 
real impact of legislation on the volume of spam received.
    We believe the solution will involve a coordinated effort by 
Internet Service Providers, Direct Marketers, technology providers and 
law enforcement agencies. We will need to establish guidelines that 
outline e-mail best practices. These guidelines will need to be 
followed by direct marketers. It will become important to be able to 
identify legitimate direct marketers and there will need to be 
improvements in how direct marketers manage their lists.
                                Appendix
Brightmail Corporate Overview
    Brightmail, the worldwide leader in anti-spam technology, provides 
anti-spam software that makes messaging secure and manageable. Founded 
in 1998, Brightmail protects the networks of enterprises, service 
providers, and mobile network operators by filtering spam, viruses and 
undesired messages at the Internet gateway. Brightmail currently serves 
many of the largest service providers, including AT&T WorldNet, 
EarthLink, MSN, and Verizon Online as well as leading enterprises that 
include eBay, Booz Allen Hamilton, Deutsche Bank, and Cypress 
Semiconductors.
    In April 2003, across its customer base, Brightmail software 
filtered over 60 billion messages and protected over 250 million 
mailboxes.
    Brightmail anti-spam architecture includes a patent protected 
``spam alert network'' called the Brightmail Probe Network, a 
collection of more than a million decoy e-mail accounts. It is designed 
to attract unsolicited e-mail and has a statistical reach of more than 
250 million e-mail accounts that provide Brightmail with a unique 
insight into the changing face of spam throughout the world.
    Brightmail is backed by world-class investors and partners and is 
headquartered in San Francisco, CA.
Brightmail Architecture
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Probe Network<SUP>TM</SUP>
    The Probe Network has a statistical reach of more than 250 million 
e-mail accounts. It consists of millions of decoy e-mail addresses that 
receive more than 300 million spam messages per month. The data from 
the Probe Network is used for the real-time creation of anti-spam rules 
that are propagated to Brightmail customers every few minutes--24 hours 
per day. This patent protected technology is used to provide Brightmail 
customers with spam protection from the highly dynamic, ever changing, 
phenomena that spam has become.
    U.S. Patent 6,052,709 (Apparatus and method for controlling 
delivery of unsolicited electronic e-mail)
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

BLOC (Brightmail Logistics and Operations Center)
  <bullet> Operates 24 hours/day--365 days/year

  <bullet> Employs state-of-the-art tools to identify new spam attacks

  <bullet> Messages are automatically grouped into spam attacks and 
        then rules automatically written against them

  <bullet> QA technicians verify the rules before they are made 
        available

  <bullet> New anti-spam rule updates every few minutes

  <bullet> Rules are transmitted via a secure conduit (HTTPS)
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


  <bullet> Brightmail software is installed at the customer site

  <bullet> Brightmail's extensive anti-spam rule set contains filters 
        that automatically block identified spam attacks

  <bullet> Uses sophisticated grouping algorithms and pattern matching 
        to identify and eliminate spam as it enters the e-mail gateway

  <bullet> Updated in real-time

  <bullet>  Protection against spam is always current

    The Chairman. Thank you, sir. Mr. Hughes.

  STATEMENT OF J. TREVOR HUGHES, EXECUTIVE DIRECTOR, NETWORK 
                     ADVERTISING INITIATIVE

    Mr. Hughes. Mr. Chairman and Members of the Committee, I 
want to thank you for inviting me to testify. My name is Trevor 
Hughes, and I am the Executive Director of the Network 
Advertising Initiative.
    The NAI is a cooperative group of companies, and we are 
dedicated to resolving public policy concerns related to 
emerging technologies. In the past, the group has tackled 
issues such as self-regulatory solutions for online ad 
targeting and the use of web beacons online. We have now turned 
our focus to the growing problem of spam and to that end, a 
coalition has been formed within the NAI which is made up of 35 
leading companies which are e-mail service providers. All of 
these companies are struggling with the onslaught of spam, as 
well as the emerging problem related to the deliverability of 
legitimate and wanted e-mail.
    Let me tell you a little bit about e-mail service 
providers. E-mail service providers enable their customers to 
deliver volume quantities of e-mail messages. These messages 
originate from the full spectrum of the U.S. economy. Large and 
small businesses, educational institutions, nonprofits, 
governmental agencies, publications and affinity groups all use 
the services of e-mail service providers to communicate with 
their customers, members, and constituents.
    While ESPs do serve the marketing needs of the marketplace, 
it is by no means the only customer group served. My members 
provide and deliver transactional messages such as account 
statements, airline confirmations, and purchase confirmations. 
They deliver e-mail publications and newsletters. They deliver 
affinity messages. The NAI and the e-mail Service Provider 
Coalition believes that much can be done to solve the problem 
of spam. At the most fundamental level, we believe that we need 
to create accountability within the e-mail delivery system. 
Spammers spend their days concocting new methods to obscure and 
falsify their identity in order to sneak past existing filters 
and avoid accountability.
    In many ways, our existing tools are merely reacting to the 
spam that is received today and not preparing for or combatting 
the spam that will arrive tomorrow. For this reason, we believe 
that the solution to spam exists in three components, a 
legislative component, a technological component, and a social 
component. I will address the technological component briefly, 
and then focus on the part of the solution for which we look to 
you, Federal legislation.
    Part of the problem in treating the spam epidemic is that 
spammers enjoy the impunity of anonymity. Spammers hide behind 
open relays, they spoof identities, and they deceive recipients 
with misleading from and subject lines. Make no mistake, the 
business of spamming is one of fraud and deception.
    The NAI recently proposed a technological blueprint to 
respond to this problem. Essentially the blueprint, called 
Project LUMOS, is designed to force senders of volume e-mail to 
incorporate authenticated identity into every message sent. The 
use of authenticated identity, along with a rating of sending 
practices over time, prevents spammers from hiding behind the 
technology of e-mail, and forces all senders to be accountable 
for their sending practices. We have engaged with many of the 
major ISPs and other groups on this effort, and we are greatly 
encouraged by the traction our effort has gained since it was 
launched 1 month ago.
    The ESP coalition strongly believes that strong, preemptive 
Federal legislation will be a critical component, but again not 
the only component in the successful resolution of the spam 
problem. In the United States today we have 28, and it could be 
29 by now, states that have enacted some form of spam 
legislation. Unfortunately, the standards and definitions 
applied by these statutes are not consistent. As a result, we 
have a crazy quilt of different standards that has created an 
unnecessarily complex compliance system.
    To make matters worse, enforcement within the global medium 
of e-mail is exceedingly difficult when limited by state 
boundaries. We need preemptive Federal legislation to harmonize 
these standards and provide powerful tools to enforcement 
officials.
    We believe that the current spam bill before the Senate, 
the CAN-SPAM Act, strikes the appropriate balance with regard 
to preemption. The CAN-SPAM Act would allow for a national 
standard to be set for the delivery of unsolicited commercial 
e-mail. Given the incentives provided within the bill, most 
legitimate businesses will move to a fully consent-based model 
for e-mail delivery. This is particularly true where the 
standards set by the bill will be uniform across the entire 
country. To combat spammers, the bill provides strong 
enforcement tools for the FTC, the state Attorneys General, and 
to ISPs. We strongly support enforcement by all of these 
groups.
    One issue that has been raised in discussions regarding 
spam legislation and may be raised again is a private cause of 
action. Such a solution, while tempting, would do nothing to 
stop spam. Spammers spend their days looking for ways to 
technologically obscure their identity. Pursuing spammers 
requires enormous technological, financial, and investigative 
resources. Individuals do not have such resources, but 
Governments and ISPs do.
    We have a very real example of what a private cause of 
action means when included in a spam statute. In the state of 
Utah, a spam statute was passed last year that allows for a 
private cause of action in class action lawsuits. A single 
plaintiffs firm in Utah has now filed hundreds and by some 
accounts thousands of class action lawsuits under the statute, 
but the firm is not pursuing spammers.
    Given the cost and complexity of finding actual spammers, 
this firm has targeted leading companies and brands using law 
firm employees as plaintiffs and seeking out ``gotcha'' moments 
as the basis of their complaints. Perhaps most telling is the 
fact that there are no data to suggest that the amount of spam 
in Utah has been reduced by even one message.
    Another issue that has been raised in relation to spam is 
that of opt in versus opt out. Over the past few years, our 
industry has lost critical time debating this issue while spam 
has been allowed to proliferate. Let me make this perfectly 
clear. This debate, regardless of what standard is eventually 
adopted, will not result in the reduction of spam. A spammer's 
stock in trade is in deception. They do not care about whether 
they have permission from the recipient. They pay no heed to 
all of the existing state laws regarding spam. The most 
restrictive opt-in statute will do nothing to dissuade spammers 
from sending their messages.
    Again, the NAI is very supportive of the CAN-SPAM Act. We 
will continue to work with staff over a few technical details 
of the bill, but look forward to seeing a Federal law enacted 
this year. On behalf of the NAI E-mail Service Provider 
Coalition, I want to pledge that we will continue to work to 
fight spam and preserve e-mail with you and the members of your 
staff.
    Thank you, and I look forward to your questions.
    [The prepared statement of Mr. Hughes follows:]

      Prepared Statement of J. Trevor Hughes, Executive Director, 
                     Network Advertising Initiative
Executive Summary
    The NAI is a cooperative group of companies dedicated to resolving 
public policy concerns related to privacy and emerging technologies. In 
the past, the NAI has successfully launched self-regulatory solutions 
to online ad targeting, and the use of web beacons. The NAI has now 
turned its focus to the growing problem of spam and the related concern 
of deliverability of wanted e-mails. As part of this effort, a 
coalition has been formed within the NAI to represent the interests of 
e-mail service providers (ESPs). The E-mail Service Provider Coalition 
(``ESP Coalition'') is made up of 35 leading companies--all of which 
are struggling with the onslaught of spam, as well as the emerging 
problems related to the deliverability of legitimate and wanted e-mail.
    E-mail service providers enable their customers to deliver volume 
quantities of e-mail messages. These messages originate from the full 
spectrum of the U.S. economy--large and small businesses, educational 
institutions, non-profits, governmental agencies, publications, and 
affinity groups all use the services of ESPs to communicate with their 
customers, members, and constituents. While ESPs serve the marketing 
needs of the business community, it is by no means the only customer 
group served. E-mail service providers also deliver transactional 
messages (such as account statements, airline confirmations, and 
purchase confirmations); e-mail publications; affinity messages; and 
relational messages. Within the ESP Coalition, we estimate that our 
members provide volume e-mail services to over 250,000 customers.
    The ESP Coalition sees spam as a threat to the long-term viability 
of the ESP industry. Indeed, spam presents a dire threat to all uses of 
e-mail--marketing, transactional, affinity and relational--as the 
continued growth of spam will lead to the widespread abandonment of e-
mail as a communications tool. Put simply, the spam problem will 
critically damage the ESP industry if it is not curtailed. Consumers 
and businesses will not use e-mail if the system becomes so choked with 
misleading and deceptive messages that those messages that are actually 
wanted are lost in the fray.
    The ESP Coalition strongly supports legislation to respond to the 
growing menace of spam. We believe that strong preemptive Federal 
legislation will be a critical component (but not the only component) 
in the successful resolution of the spam problem.
    In the United States today, we have 28 states that have enacted 
some form of spam legislation. Many more are considering spam 
legislation in their current legislative sessions. Unfortunately, the 
standards and definitions applied by these statutes (and proposed in 
pending bills) are not consistent. As a result, we have a crazy quilt 
of differing standards and definitions that has created an 
unnecessarily complex compliance system. To make matters worse, 
enforcement within the global medium of e-mail is exceedingly difficult 
when limited by state boundaries. We need preemptive Federal 
legislation to harmonize these standards and provide powerful tools to 
enforcement officials.
    Federal legislation must carefully balance the legitimate use of e-
mail against the need to respond to spam. E-mail represents one of the 
most powerful drivers of efficiency and productivity in today's 
economy. Our response to spam must take into account and protect the 
widespread utility of e-mail. Overly restrictive or poorly crafted 
solutions may end up ``throwing the baby out with the bathwater'' and 
damaging the very tool we hope to protect.
    The NAI is very supportive of the current spam bill proposed in the 
Senate (the CAN-SPAM Act). While we continue to work on some minor 
technical details within the bill--such as the length of time available 
for processing unsubscribe requests and definitional issues--we are 
encouraged by the fundamental structure and approach taken by Senators 
Burns and Wyden. We feel that this bill endeavors to balance the 
continued use of e-mail as a legitimate communications tool with strong 
standards and enforcement tools to prevent spam.
Testimony
    Mr. Chairman and Members of the Committee, I want to thank you for 
inviting me to testify. My name is Trevor Hughes, and I am the 
Executive Director of the Network Advertising Initiative (NAI). The NAI 
is a cooperative group of companies dedicated to resolving public 
policy concerns related to privacy and emerging technologies. In the 
past, the NAI has created self-regulatory programs for online ad 
targeting, and the use of web beacons. The group has now turned its 
focus to the growing problem of spam and the related concern of 
deliverability of wanted e-mails. As part of this effort, a coalition 
has been formed within the NAI to represent the interests of e-mail 
service providers (ESPs). The E-mail Service Provider Coalition (``ESP 
Coalition'') is made up of 35 leading companies--all of which are 
struggling with the onslaught of spam, as well as the emerging problem 
related to the deliverability of legitimate and wanted e-mail.
    Let me begin my testimony by explaining the unique role that e-mail 
service providers play in the search for solutions to the spam problem.
    E-mail service providers enable their customers to deliver volume 
quantities of e-mail messages. These messages originate from the full 
spectrum of the U.S. economy--large and small businesses, educational 
institutions, non-profits, governmental agencies, publications, and 
affinity groups all use the services of ESPs to communicate with their 
customers, members, and constituents. While ESPs serve the marketing 
needs of the business community, it is by no means the only customer 
group served. E-mail service providers also deliver transactional 
messages (such as account statements, airline confirmations, and 
purchase confirmations); e-mail publications; affinity messages; and 
relational messages.
    The ESP industry is robust and growing. Within the ESP Coalition, 
we estimate that our 35 members provide volume e-mail services to over 
250,000 customers. These customers represent the full breadth of the 
U.S. marketplace--from the largest multi-national corporations to 
smallest local businesses; from local schools to national non-profit 
groups and political campaigns; from major publications with millions 
of subscribers to small affinity-based newsletters. Even my local 
soccer association uses an e-mail service provider to deliver schedules 
and standings to the players in the league.
    Jupiter Research estimates that the e-mail marketing industry 
(which, again, is only a portion of the total spectrum of ESP 
customers) will grow in size to 2.1 billion dollars in 2003 (up from 
1.4 billion dollars in 2002). By 2007, Jupiter estimates that the size 
of the e-mail marketing industry will reach 8.2 billion dollars. All of 
these numbers are for the U.S. market alone. Expanding the scope of 
this research to include all customers served by ESPs and foreign 
markets would increase these numbers significantly.
    But the size and importance of e-mail in the marketplace should not 
be measured by dollars alone. E-mail is indeed the ``killer app''. Over 
the past ten years, e-mail has been a strong driver of productivity and 
efficiency in the marketplace. It has also been an important social 
tool. E-mail has shortened distances in the world--allowing 
communication to occur with unprecedented speed and detail. E-mail has 
created affinity within groups that previously were too widely 
separated geographically to effectively recognize their common 
interests and positions.
    As an example of the importance of e-mail, a recent study by the 
META Group showed that, given a choice between e-mail or telephones, 74 
percent of business people would give up their phones before e-mail. In 
other words, 74 percent of people now find e-mail to be more critical 
than the telephone in their daily work.
The Threat of Spam and the Solution(s) to Spam
    The ESP Coalition sees spam as a threat to the long-term viability 
of the e-mail service provider industry. Indeed, spam presents a dire 
threat to all uses of e-mail--marketing, transactional, affinity and 
relational--as the continued growth of spam will lead to the widespread 
abandonment of e-mail as a communications tool. Put simply, the spam 
problem will critically damage the ESP industry if it is not curtailed. 
Consumers and businesses will not use e-mail if the system becomes so 
choked with misleading and deceptive messages that those messages that 
are actually wanted are lost in the fray.
    I will not belabor the statistics on the growth of spam or the 
costs associated with handling spam. Surely all of the panelist can 
agree that we are presented with an enormous problem. Without an 
expedient solution, spam may end up killing the ``killer app'' of e-
mail.
    The media and marketplace have been replete with spam solutions for 
many years. Important vendors, such as Brightmail, have done a 
tremendous job at stemming the tide of spam. But the problem still 
exists and continues to grow. Increasingly, we are presented with the 
question: can anything be done?
    The NAI believes that much can be done to solve the problem of 
spam. At the most fundamental level, we believe that we need to create 
accountability within the e-mail delivery system. Spammers spend their 
days concocting new methods to obscure and falsify their identity in 
order to sneak past existing filters and avoid accountability. In many 
ways, our existing tools are merely reacting to the spam received 
today--and not preparing for or combating the spam that will arrive 
tomorrow. Stated differently, our efforts to cure spam are responding 
to the symptoms (the actual spam received) and not the cause (the lack 
of accountability on the part of spammers).
    So how do we create accountability within the e-mail system?
    We believe that the solution to spam exists in three components: 
legislative, technological, and social. Let me address the 
technological and social components quickly and then focus on the part 
of the solution for which we look to you: Federal legislation.
The Technological Component
    Part of the problem in treating the spam epidemic is that spammers 
enjoy the impunity of anonymity. Spammers hide behind open relays, they 
spoof identity, and they deceive recipients with misleading ``from'' 
and ``subject'' lines. Make no mistake; the business of spamming is one 
of fraud and deception.
    The recent efforts of the FTC in relation to open relays and 
deception in spam should be commended. It is critical that we have 
strong deterrents to dissuade spammers from their trade. But the 
fundamental architecture of the Internet and e-mail protocols still 
allows for the deception to occur.
    The NAI recently proposed an architectural ``blueprint'' to respond 
to this problem. I will submit a description of the effort along with 
this testimony. Essentially, the NAI's blueprint, called ``Project 
Lumos'', is designed to force senders of volume e-mail to incorporate 
authenticated identification into every message sent. The use of 
authenticated identity, along with a rating of sending practices over 
time, prevents spammers from hiding behind the technology of e-mail and 
forces all senders to be accountable for their sending practices. We 
have engaged with many of the major ISPs and other groups on this 
effort and are greatly encouraged by the traction our effort has gained 
since our launch just one month ago.
    Other technological solutions also hold promise. The NAI is 
actively working with other constituencies in the marketplace to bring 
about such solutions. I hope that we will have much more to share with 
you before the end of this year.
The Social Component
    One part of the spam problem that has not been actively discussed 
is the need for consumer education around the appropriate use of e-mail 
addresses.
    The Center for Democracy and Technology (www.cdt.org) recently 
released a study on the consumer actions that result in exposure of e-
mail addresses and, subsequently, spam. The results were compelling: 
the CDT report found that appropriate management of an e-mail address 
by the holder of that address can drastically reduce the amount of spam 
received. Further, the study found that there are a few actions that 
can create enormous amounts of spam. Specifically, the CDT reported 
that posting an e-mail address on a public website and posting an e-
mail address in a public newsgroup or chatroom both resulted in huge 
amounts of spam. This is due to the use of ``spiders'' or ``bots''--
programs that scour the web for e-mail addresses and harvest them into 
a spammer's database.
    Clearly, one component in the total solution to spam is the 
education of consumers on issues such as those raised by the CDT 
report. If consumers understand those practices that result in spam, 
they will be much better able to control the amount of spam in their 
in-boxes.
The Legislative Component
    The ESP Coalition strongly supports Federal legislation to respond 
to the growing menace of spam. We believe that strong preemptive 
Federal legislation will be a critical component (but not the only 
component) in the successful resolution of the spam problem.
    In the United States today, we have 28 states that have enacted 
some form of spam legislation. Many more are considering spam 
legislation in their current legislative sessions. Unfortunately, the 
standards and definitions applied by these statutes (and proposed in 
pending bills) are not consistent. As a result, we have a crazy quilt 
of differing standards that has created an unnecessarily complex 
compliance system. To make matters worse, enforcement within the global 
medium of e-mail is exceedingly difficult when limited by state 
boundaries. We need preemptive Federal legislation to harmonize these 
standards and provide powerful tools to enforcement officials.
    We believe that the current spam bill before the Senate, the CAN-
SPAM Act, sponsored by Senators Burns and Wyden, strikes the 
appropriate balance with regard to preemption. The CAN-SPAM Act would 
allow for a national standard to be set for the delivery of unsolicited 
commercial e-mail. Given the incentives provided within the bill, most 
legitimate businesses will move to a fully consent-based model for e-
mail delivery. This is particularly true where the standard set by the 
bill will be uniform across the entire country. To combat spammers, the 
bill provides strong enforcement tools to the FTC, state attorneys 
general, and ISPs. We strongly support enforcement by all of these 
groups.
    As a coalition made up of legitimate businesses in the e-mail 
industry, the NAI also strongly supports the inclusion of an 
affirmative defense for good faith compliance efforts within the CAN 
SPAM Act. Such tools help to ensure that litigation is properly 
targeted towards true spammers, and offers important protections for 
businesses working diligently to maintain approved best practices.
    One issue that has been raised in discussions regarding spam 
legislation, and may be raised again, is that of a private cause of 
action. Such a solution, while tempting, would do nothing to stop spam 
and would definitely create a morass of litigation against legitimate 
companies. Spammers spend their days looking for ways to 
technologically obscure their identities. Pursuing spammers requires 
enormous technological, financial and investigative resources. 
Individuals do not have such resources, but governments and ISPs do. In 
fact, if a private cause of action existed, ISPs would be drawn away 
from their enforcements efforts by a flood of discovery requests 
generated through consumer litigation.
    We have a very real example of what a private cause of action means 
when included in a spam statute. In the state of Utah, a spam statute 
was passed last year that allows for a private cause of action and 
class action suits. A single plaintiffs' firm in Utah has now filed 
hundreds (and by some accounts, over a thousand) class action lawsuits 
under this statute. But the firm is not pursuing spammers. Given the 
cost and complexity of finding actual spammers, this firm has targeted 
leading companies and brands--using law firm employees as plaintiffs 
and seeking out ``gotcha'' moments as the basis of their complaints. 
Perhaps most telling is the fact that there are no data to suggest that 
the amount of spam in Utah has been reduced by even one message.
    Another issue that has been raised in relation to spam legislation 
is that of ``opt-in'' versus ``opt-out''. Over the past few years, our 
industry has lost critical time debating this issue, while spam has 
been allowed to proliferate.
    Let me make one thing perfectly clear: the debate over ``opt-in'' 
or ``opt-out'', regardless of what standard is eventually adopted, will 
not result in the reduction of spam. A spammer's stock and trade is in 
deception. They do not care about whether they have permission from the 
recipient of the message. They pay no heed to all of the existing state 
laws regarding spam. The most restrictive ``opt-in'' spam statute will 
do nothing to dissuade spammers from sending their messages.
    A recent FTC study conveys this point succinctly. By reviewing a 
large body of spam received within the agency, the FTC estimated that 
fully two thirds of spam is fraudulent, misleading or deceptive. This 
means that the majority of spam is already violating an existing law in 
the United States.
    As currently written, the CAN-SPAM Act will provide important 
incentives for legitimate businesses to raise their e-mail standards. 
The NAI firmly believes that e-mail must be sent with the consent of 
the recipient, or within a pre-existing business relationship. 
Furthermore, we believe that e-mail should be sent with informed 
consent--meaning that recipients have clear and conspicuous notice as 
to the results of providing their e-mail address. This is a meaningful 
and workable standard.
    Again, the NAI is very supportive of the CAN-SPAM Act. We will 
continue to work with staff on a few technical issues details of the 
bill (such as the need for longer processing periods for unsubscribe 
requests), but look forward to seeing a Federal law enacted this year.
The Threat of Filtering and Blacklists
    Before I conclude today, I want to raise one growing problem in the 
fight against spam. While spam clearly represents a serious threat to 
the continued viability of e-mail, the problems created by some of the 
current tools used to combat spam are equally threatening. Internet 
Service Providers (ISPs) are aggressively building filtering 
technologies to limit the amount of spam entering their systems. 
Conceptually, this is a positive development. However, the spam filters 
currently in place are creating a new problem: wanted e-mail is not 
being received.
    According to a report by Assurance Systems, in the 4th quarter of 
2002, an average of 15 percent of permission based e-mail was not 
received by subscribers to the major ISPs. Some ISPs had non-delivery 
rates that were startling:




          NetZero                    27%
          Yahoo                      22%
          AOL                        18%
          Compuserve                 14%
          AT&T                       12%


    The same report for the 3rd quarter of 2002 showed an average of 12 
percent non-delivery rate for the major ISPs--meaning that the 
filtering of permission based e-mail increased 25 percent from the 
third to fourth quarters of 2002. Some of the e-mail campaigns within 
the Assurance Systems report had non-delivery rates as high as 38 
percent.
    Non-delivery of wanted messages due to filtering (called ``false 
positives'' within the industry) represents an enormous threat to the 
ongoing viability of e-mail as an effective communications tool. The 
market will stop using e-mail for important communications if e-mail 
delivery is unreliable. It is critical that false positives be 
eliminated if e-mail is to survive as an efficient and productive means 
for communication.
    One of the main drivers in the false positive problem is the 
emergence and use of blacklists. These are lists of alleged spammers 
that ISPs--and any network administrator--can use to filter incoming e-
mail. The blacklist operators build registries of IP addresses that 
they believe are associated with spam and make the lists available 
publicly. Currently, there are an estimated 300 blacklists in 
operation.
    Again, the concept of a blacklist may seem to make sense at first 
glance. Unfortunately, the reality of blacklists in today's marketplace 
is far different.
    Many blacklists operate without standards and operate behind a veil 
of anonymity. For example, one of the leading blacklists, SPEWS 
(www.spews.org), offers no contact information: no phone numbers, no 
names, no addresses, and no e-mail address for the organization. The 
website has purportedly been registered in Irkutsk, Russia. SPEWS has 
no defined standards for posting to its blacklist--evidence has shown 
that a single complaint can result in the blocking of an entire range, 
or ``neighborhood'', of IP addresses. Further, for those innocent 
senders that become listed on SPEWS, the only way to resolve the 
problem is to post their request for removal to a public spam forum 
available through Google (http://groups.google
.com/groups?hl=en&lr=&ie=UTF-8&oe=UTF-8&group=news.admin.net-
abuse.email).
    All of these efforts are designed to combat spam. But in their zeal 
to eliminate the problem, they have created a potentially disastrous 
``ricochet'' effect: false positives. Going forward, our solution to 
spam must carefully balance the need for strong action against spammers 
with a determination to preserve the deliverability of legitimate e-
mail.
Conclusion
    The NAI believes that the problem of spam will be best resolved 
through three powerful forces: legislation (and enforcement); 
technology; and consumer education. Our group is actively working with 
ISPs and solutions providers to craft architectural solutions to spam 
that will drive accountability into the dark recesses of the Internet. 
We strongly feel that technology must be used to force spammers to 
identify themselves and be held accountable for their practices. We 
also believe that consumers must understand the need for careful 
management of their e-mail addresses. We could drastically reduce the 
amount of spam received by average consumers through educational 
efforts on what not to do with an e-mail address.
    But the technological and educational solutions are not enough. We 
need a strong Federal statute to raise the standards for e-mail 
practices across the entire country. Legitimate businesses will respond 
to such a statute by raising their practices to meet or exceed the 
standard set by law. Enforcement officials at both the state and 
Federal level and ISPs will have powerful tools to seek out and bring 
to justice those individuals responsible for spam. And we can do it 
while maintaining the balance necessary to preserve the legitimate use 
of e-mail.
    Mr. Chairman, on behalf of the NAI E-mail Service Provider 
Coalition, I want to pledge that we will continue to work to fight spam 
and preserve e-mail with you and members of your staff. Spam is a 
complex problem and our efforts to craft solutions must be thoughtful, 
robust and effective.
    Thank you and I look forward to any questions you may have.

    The Chairman. Thank you. Mr. Rotenberg.

        STATEMENT OF MARC ROTENBERG, EXECUTIVE DIRECTOR,

       ELECTRONIC PRIVACY INFORMATION CENTER AND ADJUNCT

          PROFESSOR, GEORGETOWN UNIVERSITY LAW CENTER

    Mr. Rotenberg. Thank you, Mr. Chairman and Members of the 
Committee. My name is Marc Rotenberg. I am Executive Director 
of the Electronic Privacy Information Center. We are a 
nonprofit, nonpartisan research organization here in 
Washington. We work in close association with the consumer and 
civil liberties organizations both in the United States and 
around the world.
    I think it is fair to say that there are few issues of 
greater concern to Internet users today than the growing 
problem of spam, but I think it is also fair to say that it is 
one of the most complex policy issues facing the Internet. Even 
though there is broad agreement about the tremendous cost and 
inconvenience that spam is placing on the use of the Internet, 
there is still important questions about the appropriate role 
of law and technology, the relationship between the Federal 
Governments and the states, and even the question of how best 
to ensure consumer protection with a problem that clearly has 
international dimensions, but all of these factors do not 
diminish the scope of the problem.
    As Chairman Muris stated at the public workshop last month, 
approximately 40 percent of e-mail messages today could be 
considered spam, and it is to be anticipated that in the next 
year the majority of e-mail traffic on the Internet will be 
spam.
    As Mr. Salem commented as well, it is also the case that 
spam will be migrating to new communication environments, 
including both Internet messaging and cell phone advertising, 
so the need to draw an effective line here with respect to the 
Internet has consequences as well for development of new 
industry and new consumer services.
    There are many factors that contribute to the problem of 
spam. As you all know, it is relatively easy and inexpensive to 
send a message to many, many people online. It is also 
obviously difficult to determine the origin of the messages, 
particularly for the most aggressive spammers. There are 
difficult jurisdictional problems, particularly with respect to 
international spam, and there are even some definitional 
problems associated with spam, as well as the fact that 
technical solutions which are being pursued aggressively by the 
ISPs are nonetheless imperfect.
    As one of the witnesses commented earlier, spam filters 
have the effect of both underblocking, which is to say, 
allowing messages to go through that the user does not desire, 
as well as overblocking, which means to exclude messages that 
the end user would like to receive. In almost any filter 
system, the end user has to download the e-mail and incur the 
cost and connection time to receive the messages before the 
filters are activated.
    I wanted to focus briefly on what I think are the key 
policy issues in trying to find a solution to the spam problem, 
and I am going to draw both on the experience of list 
development on the Internet as well as previous efforts with 
legislation to protect privacy when similar problems have 
arisen, and I would like to point out first of all that I think 
if any case is clearly made for an opt-in provision, it is for 
online marketing. In fact, the traditions on the Internet 
indicate this, because as people who have been on the Internet 
for a while and understand the operations of lists, the best 
lists operate on an opt-in basis.
    People are provided the opportunity to sign up for the 
list. If their e-mail address changes, there are easy ways for 
them to change the e-mail address, and if they wish to be 
removed from the list, they can do so by quickly going to a web 
page or sending an unsubscribe message. These are the practices 
that are being followed by the best marketing firms online, as 
well as the companies that understand that permission-based 
marketing, marketing based on opt in, works particularly well 
in the online environment. Now, there is a good argument about 
whether or not it would work in the offline environment, but 
for the online environment, I think opt in is the right way to 
go.
    I would also like to suggest that on the question of 
enforcement means, the private right of action that is found in 
the Telephone Consumer Protection Act that gives individual 
consumers the opportunity to go to small claims court and seek 
a maximum, a maximum of $500, has proven to be an effective way 
of dealing with the problem of junk faxes and telemarketing, 
and I think a private right of action that provides limited 
damages is also a matter of fairness, because, of course, it is 
the end user who is being inconvenienced and burdened by the 
unsolicited marketing.
    Finally, on this critical issue of preemption, I am very 
sympathetic to the concerns of the industry groups about trying 
to comply with 50 different state statutes, but the reality is 
that it is the state Attorneys General who have been on the 
front lines of dealing with the spam problem, and it has been 
the state legislatures that have developed many of the most 
effective and innovative responses in response to the growing 
problem of spam, and I would like to caution you about the 
danger of basically telling the state legislatures and the 
state Attorneys General that the problem to spam will be found 
in Washington, and that the limited opportunities to go after 
spammers if a Federal preemption law was passed will 
essentially be eliminated.
    That having been said, I would like to thank you, Mr. 
Chairman and Members of the Committee, and particular Senator 
Burns and Senator Wyden, who I know have been doing a great 
deal of work on this issue for a number of years, for your 
efforts. Many people online will be very grateful to you if an 
effective, sensible solution can be found to the problem of 
spam.
    [The prepared statement of Mr. Rotenberg follows:]

 Prepared Statement of Marc Rotenberg, Executive Director, Electronic 
     Privacy Information Center and Adjunct Professor, Georgetown 
                         University Law Center
Summary of Recommendations
  <bullet> Continue to support strong enforcement action by the FTC

  <bullet> Promote international cooperation, particularly with 
        consumer protection agencies

  <bullet> Recognize that many of the current spammers are likely 
        subject to prosecution under current unfair and deceptive trade 
        practices laws

  <bullet> Enact a Federal baseline that establishes an opt-in 
        standard, gives consumers legal rights to go after spammers, 
        and does not preempt state law

  <bullet> Anticipate that similar problems may arise with cellular 
        phone advertising in the near future
Statement
    Mr. Chairman, members of the Committee. Thank you for the 
opportunity to testify today about the problem of Unsolicited 
Commercial E-mail, or ``spam.'' My name is Marc Rotenberg. I am the 
Executive Director of the Electronic Privacy Information Center. EPIC 
is a non-profit, non-partisan research organization. We work in close 
association with a wide range of consumer and civil liberties 
organizations, both in the United States and around the world.
    There are few issues of greater concern today to users of the 
Internet than spam. Spam is also one of the most complex policy issues 
for the Internet. Even though there is broad agreement about the 
urgency of the problem, there are still questions about the appropriate 
role of law and technology, the relationship between the Federal 
Government and states, and even the question of how best to tackle a 
consumer problem that clearly has a significant international 
dimension.
Scope of the Spam Problem
    As Chairman Muris noted at the recent FTC public workshop, the spam 
problem is increasing rapidly. In 2001 the FTC began to routinely 
collect spam. During that year, the FTC received an average of 10,000 
messages per day. In 2002, that figure went up to 47,000 a day. The 
number has gone to 130,000 e-mails a day this year. As a measure of how 
fast a new e-mail address can attract spam, Chairman Muris reported 
that the FTC had seeded an e-mail address in a chat room. That e-mail 
address began receiving spam in eight minutes.
    It has been estimated that 40 percent of e-mail in the United 
States is spam, creating an annual cost of over $10 billion. These 
costs are incurred through lost productivity and the additional 
equipment, software and labor needed to deal with the problem.
    On spam, the interests of Internet users and the Internet industry 
are generally aligned. Only the Direct Marketing Association has 
expressed opposition to sensible opt-in legislation. However, as the 
recent FTC Workshop made clear, this position is simply not viable in 
the online world. Permission-based marketing, which relies on the 
affirmative consent of consumers, has always been a good business 
practice. Now it may be critical to stem the flood of undesired e-mail.
Factors Contributing to Spam
    Several factors contribute to the spam problem. First, it is 
inexpensive and relatively simple to send spam to a very large number 
of Internet users. Unlike traditional junk mail, the marginal cost for 
each additional electronic message is essentially zero. Therefore, 
spammers are as likely to send to a million users as they are to a 
thousand.
    Second, the origin of spam is often difficult to determine. 
Spammers will frequently send messages from domains they do not own and 
in ways that conceal the source of the message. The spammers also show 
little regard for any effective list management. There is no meaningful 
effort to obtain consent or allow users to opt-out of undesired 
marketing.
    Third, spam raises difficult jurisdictional problems. Spammers may 
send messages from one state to another and even from one country to 
another. While there is general agreement across jurisdictions about 
the need to reduce spam, there are questions about how best to 
coordinate enforcement measures.
    Fourth, there are definitional problems associated with spam. 
Commercial marketers who engage in bulk e-mail advertising may be 
reluctant to concede that their messages are spam even though the vast 
majority of recipients find the messages burdensome and undesirable. 
Some Internet users may consider bulk political mail as ``spam,'' 
though for both practical reasons and the First Amendment, it is 
appropriate to distinguish between commercial and non-commercial bulk 
mail.
    Fifth, technical solutions are imperfect. While ISPs have had some 
success identifying the source of spam, spammers rotate domains and 
even change the key terms in a message to avoid detection. Similarly, 
typical users find it difficult to adapt filters and other techniques 
to accurately remove spam. There is always the risk that a filter will 
delete messages that the user needs to receive. Other techniques, such 
as challenge and response, may be too cumbersome for most users.
    Sixth, the long-time reluctance of the private sector to 
acknowledge the need for a legislative solution to the spam problem 
coupled with the Direct Marketing Association's active opposition to 
Internet privacy has certainly contributed to the problem. While the 
industry's desire to avoid regulation is understandable, here the 
failure to establish strong measures to limit spam are contributing to 
a tragedy of the commons that threatens to undermine the commercial 
potential of the Internet.
Difficultly Consumers Face with Spam
    While ISPs clearly face a significant cost that can be measured in 
bandwidth, staff hours, hardware, and even litigation fees, consumers 
face the ongoing annoyance that spam simply makes the Internet less 
friendly and e-mail less useful. For the consumer facing a mailbox full 
of spam, even good software programs do not solve the problem of the 
time and cost of downloading e-mail before it can be analyzed and 
assessed. These burdens fall particularly on consumers in rural 
regions, consumers who are traveling outside the country, and others 
who are likely to pay high fees while connected to the Internet.
    The most widely used spam filters, while they can be effective, 
invariably under block and over block incoming mail. As a result, users 
continue to receive undesired e-mail and are losing important e-mails 
that may include business proposals or simply notes from friends. Some 
spam filters group incoming messages as likely being spam, but the 
consumer must still sort through the messages.
    In addition, many of the techniques proposed by some are simply 
impractical or nonsensical. For example, a challenge response method to 
determine whether e-mail is coming from an actual person would probably 
discourage even desired communication. Similarly, routinely changing 
mail addresses is an impractical solution as is trying to prevent one's 
mail address from being posted on a website where it can be harvested 
by one of the programs is not a workable approach as anyone who has a 
publicly accessible staff directory knows.
    A better approach for the consumer is one that empowers individuals 
to go after the spammers who misuse their personal e-mail address for 
unsolicited commercial e-mail and impose costs and burdens.
Technical Measures
    It is clear that industry groups and technical groups are eager to 
find a solution to the spam problem. Many innovative approaches are 
currently being pursued even as some of the routine flaws that are 
exploited by spammers are fixed.
    Congress should continue to encourage technical solutions, but the 
possibility of technical solutions should not be a reason to avoid 
legislation. ISPs clearly favor better legal tools as well as better 
technologies to go after spammers when they can be identified. 
Moreover, without legal sanctions there is no practical basis to put an 
end to egregious spamming.
    There is one caution on the technology front that should be brought 
to the attention of the Committee. Several technological solutions, not 
surprisingly, focus on determining the actual identity of spammers, and 
would make identification through digital certificates and other means 
a requirement for sending e-mail to multiple recipients. While this 
approach may be appropriate for commercial speech, it would not be 
appropriate for political or religious speech. The Supreme Court has 
made clear in a series of cases that the right to speak anonymously is 
a central element of the First Amendment. Any attempt by the government 
to require identification for bulk e-mail that would include political 
speech would raise significant Constitutional concerns.
Legislative Proposals
    S. 877, the CAN-SPAM Act, sponsored by Senator Burns and Senator 
Wyden, contains many important elements for a good anti-spam measure. 
All unsolicited marketing e-mail would be required to have a valid 
return e-mail address so recipients could ask to be removed from mass 
e-mail lists. Once notified, marketers would be prohibited from sending 
any further messages to a consumer who has asked them to stop.
    The bill would enable Internet Service Providers (ISPs) to bring 
action to keep unlawful spam from their networks. The legislation 
contains enforcement provisions allowing the Federal Trade Commission 
to impose civil fines on those who violate the law. State Attorneys 
General would be given the ability to sue on behalf of citizens who 
have been targeted by unscrupulous marketers.
    This a good starting point, but we urge the Committee to go 
further, particularly to protect consumer interests. As the Burns-Wyden 
measure currently stands, it is simply not a sufficient solution. It 
gives the FTC a great deal of authority and the ISPs many opportunities 
to bring complaints. However, for the state attorneys who are already 
on the front lines and for the users who are also saddled with the 
costs and burden of spam there is not enough in the bill currently to 
reform egregious online practices or assure that spammers will be 
pursued.
    Three critical changes are necessary to strengthen the Burns-Wyden 
measure. First, the Committee should endorse a full opt-in regime for 
unsolicited commercial e-mail except in those cases where a prior 
business relationship exists. Opt-in is the logical basis for Internet 
mailings. In fact, most Internet lists today are based on opt-in. These 
lists typically also provide users with the opportunity to update their 
contact information and remove themselves from the list if they choose. 
There are many opportunities for companies to obtain consent and to 
build online marketing techniques, in parallel with the traditional 
Internet lists, which would be welcome by consumers. Where there is a 
genuine preexisting relationship, then it would be appropriate to 
communicate by e-mail. Simply visiting a website is not sufficient. 
There should be some actual exchange for consideration before a 
``preexisting business relationship is established.''
    Second, the bill should incorporate a private right of action that 
allows individuals to bring action in small claims court, similar to 
the approach established by the Telephone Consumer Protection Act 
(TCPA) for junk faxes and telemarketing. The opportunity to pursue a 
modest judgment in small claims court has provided a useful incentive 
in the effort to stem junk faxes and would be helpful for spam. In 
fact, many of the state measures take an approach similar to the TCPA 
in recognition that those who are the target of spam should have the 
legal right to seek redress against those who are responsible for the 
spam. Also, as the TCPA has shown, a national do not e-mail list may 
help with enforcement, though technical experts have expressed some 
concerns about the possible misuse of a national Do Not Spam list.
    Third, the bill should not preempt state law. While it is clear 
that some revisions have been made to the CAN SPAM Act to take account 
of the important efforts of states to combat spam, the bill still 
unduly restricts state legislatures that have been on the front lines 
of the problem. Even with the FTC's important enforcement efforts, 
there is a real risk that a ``one size fits all'' approach will not be 
effective and will undermine the basic structure of federalism in the 
United States that allows the states to pursue different approaches to 
common problems.
    As Washington Attorney General Christine Gregoire stated on behalf 
of the Attorney Generals for 44 states, a weak Federal statute that 
preempts stronger state laws will reduce the level of consumer 
protection and facilitate the continued growth of spam. This would 
clearly not be a desirable outcome.
House Proposals
    Several proposals are also under consideration in the House. Those 
bills that establish opt-in, provided for a private right of action, 
and leave the states free to pursue innovative approaches will respond 
to the spam problem most effectively. There is also an interesting 
provision in one of the House measures that would penalize automated 
harvesting techniques that are deployed for the purpose of sending 
unsolicited commercial e-mail. This provision may help with the spam 
problem.
Additional Issues
    Mr. Chairman, you asked us also to address related issues that may 
be of interest to the Committee. I'd like to note that the problems of 
Unsolicited Commercial E-mail are likely to arise in a new setting that 
will impact million of consumers in the United States and that is cell 
phone based advertising. Although we are still in the early stages, it 
is apparent from the experience of other countries that consumers are 
beginning to express concern about advertising on their phones. If it 
is permission-based, there should be few problems. But if marketers 
begin to send bulk text messages or video messages to cell phone users, 
there will certainly be negative effects on the growth of cell phone 
based services. Already, providers in the United States are proposing 
to send e-mail to cell phones.
    There is also significant work on the spam problem underway in many 
countries outside of the United States, and in particular in the 
European Union. It is interesting to note that virtually all of these 
approaches rely on an opt-in and some private right of action. The 
approach taken in the European Union Communications Directive 
emphasizes permission-based marketing and the need to ensure that even 
after opt-in is established, consumers retain the right to opt-out of 
online marketing lists.
    Similarly, an extensive report from the Australian government on 
the spam problem released just last month urges the adoption of 
legislation based on prior consent where there is no preexisting 
business relationship; requires commercial electronic messages to 
contain accurate details of the senders names and physical and 
electronic addresses; and further recommends appropriate codes of 
conduct for marketers and effective means of enforcement.
    Finally, a joint resolution issued in 2001 by the Trans Atlantic 
Consumer Dialogue, an alliance of more than sixty consumer 
organizations in the United States and Europe, recognized that the use 
of unsolicited commercial electronic communication is a growing burden 
for people who use e-mail. The TACD said, ``governments need to work 
together to develop common approaches to address consumer concerns 
about unsolicited commercial e-mail.'' The group acknowledged the 
important differences between commercial and non-commercial speech, and 
urged the adoption of a policy based on prior affirmative consent.
Conclusion
    Mr. Chairman, spam is a complex problem. There is no simple 
legislative solution. A multi-tiered approach that includes aggressive 
enforcement, better technology for identifying and filtering spam, and 
cooperation at the state and international level will all be necessary. 
In addition, baseline Federal legislation that gives users the 
opportunity to go after spammers and ensures that marketing lists are 
built on explicit consent and not on deception is a critical part of 
the effort to stem the tide of undesired commercial e-mail. Given the 
rapid increase in the spam problem in just the last two years, I urge 
the Committee not to delay action on legislation.
References
    Prepared Statement of the Federal Trade Commission before the 
Subcommittee on Commerce, State, the Judiciary and Related Agencies of 
the Committee on Appropriations, United States House of 
Representatives, April 9, 2003 (Chairman Timothy J. Muris).

    Coalition Against Unsolicited Commercial E-mail
    http://www.cauce.org/

    Commission Nationale Informatique et Libertes, website on spam.
    http://www.cnil.fr/frame.htm?http://www.cnil.fr/thematic/internet/
spam/spam sommaire.htm

    CNIL's Report on Spam
    http://www.cnil.fr/thematic/docs/internet/boite a spam.pdf

    EPIC Spam Page
    http://www.epic.org/privacy/junk_mail/spam/

    FTC Spam Page
    http://www.ftc.gov/spam/

    Federal Trade Commission, ``False Claims in Spam'' (April 2003)
    http://www.ftc.gov/spam/

    CAN-SPAM Act, S. 877 (Senators Burns-Wyden)
    http://www.spamlaws.com/federal/108s877.htm

    Internet Society, ``All About the Internet: Spamming''
    http://www.isoc.org/internet/issues/spamming/

    Junkbusters
    http://www.junkbusters.com/

    National Office of the Information Economy, ``Final Report of the 
NOIE Review of the Spam Problem and How It Can Be Countered'' (April 
2003)

    David E. Sorkin, Spam Laws
    htp://www.spamlaws.org/

    Directive 2002/58/EC of the European Parliament and of the Council 
Concerning the Processing of Personal Data and the Protection of 
Privacy in the Electronic Communications Sector (``Directive on Privacy 
and Electronic Communications'') http://register.consilium.eu.int/pdf/
en/02/st03/03636en2.pdf

    TransAtlantic Consumer Dialogue (TACD), ``Resolution on Unsolicited 
Commercial E-mail'' (2001)
    http://www.tacd.org/cgi-bin/db.cgi?page=view&config=admin/
docs.cfg&id=98

    The Chairman. Thank you, Mr. Rotenberg. Mr. Scelson, 
welcome.

                 STATEMENT OF RONALD SCELSON, 
                    SCELSON ONLINE MARKETING

    Mr. Scelson. First off I would like to thank Senator McCain 
for inviting me here for this. I know I am probably the most 
disliked person in this entire room. I send close to 100 
million e-mails out every 12 hours.
    The Chairman. You have shown a great deal of courage by 
coming here today, and we appreciate it.
    Mr. Scelson. There are a lot of things, listening to you 
speak----
    The Chairman. Pull the microphone closer.
    Mr. Scelson. Listening to you all speak, I originally had a 
speech just like these gentlemen, but being here today, I have 
to get a little bit more of a feel about the things people do 
not like and what the Government's aspects of this are, and the 
e-mails I send out right now, the reason I have gone back to 
being a spammer--I originally started out, spam was not known 
as spam back then, but eventually started becoming one----
    The Chairman. How long have you been in business?
    Mr. Scelson. Fifteen years. The reason e-mail has grown is, 
people still buy. My average complaint ratio is 1,000 people 
complain, close to 2,000 removes in a mailing, and a 1 to 2 
percent response rate. If it is hated so bad then why do more 
people buy than they complain about it?
    Most of what the Government is not aware of, and certain 
ISPs, including Hotmail's newest filters that are here with us, 
leave out in detail to you all is, right now, the state laws, 
for instance, that say you have to provide a valid remove and 
ADV and a subject, their key filter, which was just updated on 
Thursday, I had broken as of Friday and released free to the 
other bulk mailers, has in there that remove word, unsubscribe, 
opt in.
    Well, now, you tell me follow the law, do not send spam, be 
a good guy. I would be a good guy and mail in the Hotmail and 
AOL, no offense, and their filters will filter this out. Now, 
if I do not use this, I am then accused of being a spammer. I 
agree with all of the people here, there is no reason to use 
proxies, there is no reason to use relays, and a remove is a 
good option to add in there for people to use.
    As far as the way we gather our addresses, most addresses 
for bulk snail mail are purchased from banks and a lot of 
companies. Your proposal to make extracting and gathering e-
mail addresses and buying them is a good idea if this is also 
going to be added to the snail mail industry. What is fair for 
one is fair for the other.
    Personally, I do not get addresses this way, so it does not 
affect me. Most of the gentlemen that are here all offer a 
member's directory and I am a paid member of all of these 
clients. This member's directory is identical to a Yellow Pages 
providing e-mail name, phone number, and address. To automate 
software, which I have done for clients to extract phone 
numbers and phone books, is the exact same technology that 
extracts their members directory, which I am a paid member of, 
and this is granted free from AOL to give me access to all 
these users.
    AOL does have the highest filter system in the world, no 
matter what anybody thinks. I do this every day. I give them 
full credit for this. The biggest thing I find, most people 
also seem to forget when it comes to this, is the carriers 
right now are deciding and filtering whose mail gets what. 
Whether you are going to read and see our mail or not, this is 
censorship. I was brought up and fought for this, and still 
fight for this, because I believe in freedom. As an individual, 
what makes us free is the freedom of choice, and that is who 
should decide whether or not they are going to receive this 
mail or not. The Senator here does not like receiving e-mail. 
It should be his choice to decide whether he is going to 
receive it or not.
    I have heard the facts that it has risen the price of AOL 
and other companies' business to their customers, to increase 
pricing, and the burden of mail basically getting into their 
system. Some of these price increases are brought on by their 
own filters. At one time, you could send 100 messages, 100 
people one message at a time, using less resources and less 
bandwidth. Their new filters now make it mandatory that we send 
one person one message at a time, thus chewing up their 
bandwidth and increasing their cost.
    On our end, I have one location alone that is $2,200 a week 
in bandwidth, so I keep hearing, the more we send, the less 
cost we have. The same bandwidth which you chew up on your end 
we are chewing up on our end. I am more than willing to work 
with any legislation to solve this problem. I agree spam is not 
the way to go. When I set up my company to not send spam and 
send 100 percent legal mail, we went above and beyond that to 
include a toll-free phone number, a physical address, a 
website, full information on the bottom of our messages, so 
that we were 100 percent we are above and beyond all common 
laws.
    The areas such as Qwest, which I have lawsuits against some 
of these carriers, AT&T, BellSouth, AOL I have had dial up 
accounts through that they have also terminated. If you mail 
100 percent legal and they get a single complaint, they will 
turn around and kill your circuit, so A, we go out of business, 
or B, we then resort to forging the headers.
    The biggest complaint here is, you cannot find us. Well, if 
you could, you are going to shut us down, so why should we let 
you find us?
    The laws definitely need to be made. I keep hearing there 
is no one simple solution. If you look at my written testimony, 
which it will take Government backing, and I am sure AOL's 
people would like to look at this as well, it states in there a 
very simple way that costs no money on AOL's end, no money on 
our end, makes the tax dollars go back to the Government, 
because if I stay here in the U.S. I owe you tax money for all 
the money I am making, the customers, et cetera. You pass the 
laws, we go outside the U.S., operations get moved outside the 
U.S., and from what attorneys have told me, if the corporation, 
the incoming money and everything is outside the U.S., there is 
no tax dollars owed in the U.S.
    And basically, if you look at this system, it is very 
simple, to the point it does not cost money, and if the 
system's broken, that is where legislation again would have to 
enforce it. It solves the whole problem.
    As of right now the last carrier I was on was Covista. I 
was on them for 2 weeks, sending approximately 180 million e-
mails a day. That is one e-mail per user in my database a day. 
I never send more than that. They shut me down for a total of 
1,200 complaints. Well, when you look at the volume of mail I 
am pumping out, to get 1,200 complaints mathematically is 
nothing.
    I do honor my removes. Even to this day, I send spam 
because I have to cloak my circuits to protect them from being 
shut down, but I still run, still have an honor, have a valid 
remove. It is not known as opt out, it is not known as a remove 
because the filters would interfere, but words such as take me 
off your list is very understandable to a person receiving it, 
and very much honored.
    One of the other big problems in e-mail is, the anti-spam 
organizations preach, do not use the removes, we are confirming 
your address is good, we will not remove you. I cannot say 
there are not dumb people in the world. They are in every form 
of business and any walk of life, every nationality, it does 
not matter, but most companies I know of have the advanced 
technology that when I send an e-mail to Hotmail server, I know 
right out of the gate whether that address is good or bad, and 
if it is bad, instead of, because we have to force affirm 
addresses due to your filters, if that address is bad, my 
mailer will not send it to it, just to keep from clogging up 
anybody else's server, so since I know whether the address is 
good or bad or not, whether you ask to be removed, all that 
tells me is yes, you want the mail or no, you do not. I already 
know you are good. AOL, on the other hand's, system accepts 
everything, but AOL is nice enough to provide the undeliverable 
to everybody, so I still know if you are good or not.
    Agreed, there needs to be a solution, but just do not take 
the freedom away from the individual. This should be their 
right and not the carrier's to say, we are going to shut you 
down and we are going to block you.
    Most anti-spam groups that are fighting against spam are 
not Government-backed, Government-owned or anything. The reason 
Covista shut me down is that Spam House went to Qwest, which is 
Covista's carrier, and threatened to blacklist their entire 
network because every anti-filtering trick they hit me with did 
not work, and I still stayed 100 percent legal, and because of 
their threat Qwest passed it on down the line. I had to sue 
Covista for this.
    Now, between everybody here, it is not their fault. I do 
not feel I should have to sue them, but that is the way the 
Government works. The anti-spam groups that have no legal right 
are interfering and forcing these people to shut us down. The 
Pink Contracts, which is what got me really well-known, 
everyone thinks they are contracts to send spam. I can show 
these contracts to you. There is not a single word in that 
contract to send spam. The details of that contract define 
every state, what its law is, and that if I send mail staying 
within every one of these laws, they will not shut me down, 
which I should not have a contract to have to do this.
    My price for the bandwidth is three times higher when used 
for this particular means of doing it, and they still will step 
in eventually, once they get threatened enough, and shut you 
down, and most people are not aware of all of this. Most bulk 
mailers are scared to admit it because of the recourses that 
will happen. I have been fighting for so long that if I do not 
say anything and no one else does, then either everyone is 
going to really turn to the underground and become a really bad 
thing, or we can find a solution and work together.
    AOL has AOL's special offers. I am assuming you are 
familiar with this. It is their own personal spam company. They 
spam their own users with it, and I have received at my Hotmail 
account from AOL special offers advertisements to sign up for 
AOL, so the same people that are here complaining about mail 
send mail. Why? Because it is profitable to the client and to 
them.
    I am told there are a lot of cost factors in reading this 
e-mail, and the time it takes up on your end, Senator, when you 
read this e-mail, for you to go through it and push delete, 
which if we could use ADD you would know which ones are junk to 
make it a lot easier.
    When you read this mail and push delete, yes, it took some 
of your time, but if you are at home where you do not have the 
extra assistance of the people around you, you have to walk 
outside, go get the junk mail out of the box, read this junk 
mail--do you ever think of how many chemicals, pollution, trees 
and all are involved in this, and then you have to throw it 
away, so if you add the time it takes you to deal with snail 
mail versus e-mail, both of them cost you time and money. E-
mail is less on that comparison.
    And that is basically all I have to say, and thank you 
again for having me here today.
    [The prepared statement of Mr. Scelson follows:]

                                 Scelson's Online Marketing
                                                        Slidell, LA
To Whom It May Concern,

    My name is Ronald Scelson and I am the owner/operator of a 
commercial e-mail company that sends bulk e-mail as a form of 
advertising for companies over the Internet. I feel my company is doing 
no different than any other advertising company who uses the postal 
service to send out unsolicited bulk-mail to your home. The only 
difference is we send this information via the Internet instead of the 
United States Postal Service.
    It all began with sending e-mail into newsgroups. It went from 
there to the sending of e-mail, as we know it today. At that time mail 
was just sent, we didn't care how. It was just pumped out and there 
were no removes. ``Removes'' is an industry term meaning--a hyperlink 
that will be sent back to the sender asking to have his/her e-mail 
address removed from your mailing list. When e-mail advertising started 
getting known by people as ``Spam,'' my company was one of the first 
companies to get removes and valid ``From'' addresses. Now, in response 
to the commercializing of e-mails, some groups were formed as 
``Blacklisting'' companies. For example, SpamCop started interfering 
and getting us blacklisted. Note: These companies are not government-
backed nor funded, they are typical ``everyday people'' playing the 
role of a bully. Intimidating Internet carriers to cut off service to 
my company and other companies paying top dollar for Internet Service. 
My belief is that this business is doing a legitimate form of 
advertising and when done correctly, makes the client, government, and 
the commercial mailers money.
    In response to the bully tactics used by the Anti-Spam hate groups, 
my company decided to go Opt-In. In order to do this, Commercial 
Mailers had to sign a contract with the carriers now known as ``Pink 
Contracts.'' They are said to be Spam contracts to allow the sending of 
Spam under today's terminology. What these contracts were really for 
was to force us to pay twice as much money as a normal business would 
for Internet Service. Allow commercial e-mail to be sent not ``Spam'' 
to people without shutting us down. Now what this really means is that 
all states have laws pertaining to e-mail and if you break this law the 
e-mail that is sent will be considered to be ``Spam.'' This contract 
allowed us to send e-mail as long as we abide by every state law. 
Meeting all of the requirements indicated by individual state law will 
not be considered Spam. This would also not be in violation of any 
ISP's (Internet Service Provider) policy.
    Now, when we sent the mail this way Anti-Spam (groups of people 
against Commercial e-mail that post your private info on their site. 
They also violate and interfere with current laws) groups would go to 
the carrier and tell the carrier ``Hey! We've blacklisted them every 
way we can they are getting around it somehow so either you shut them 
down or we will shut you down!'' Well, then the carrier shuts us down 
and breaks the contract. We have tried this with several companies. The 
last time we tried this doing it 100 percent legal the outcome was my 
circuit was shut down, we were put out of business and a major 
lawsuit--which to this day has still not been resolved. So, I was 
forced to go back to being a ``Spammer,'' where I could keep my 
Internet connection live and support my family. I believe that there 
should be guidelines and Spam should be illegal. But the only way this 
would work is when the carriers realize that we live in the United 
States and not a communist country! They provide services that aren't 
different than any electric company. They get paid not to read, censor, 
and destroy people's e-mail, but to provide a service!
    Now the individual has lost his/her right to get any e-mail he/she 
wants. The Carriers have determined that they would screen all incoming 
mail and only allow e-mail that the carrier wants the end user to 
receive. But not limiting themselves to their own advertising, that 
still to this day does not get screened. If I were to go into your Post 
Office Box, without your written permission, open your, mail, decide 
what I think you should have or should not have, I would go to jail for 
this. This is exactly what the carriers are doing, The government says 
they want you to identify yourself and put ``ADV'' (advertising) in the 
subject and not forge your headers. If I mail 100 percent legal you 
come across two problems:

  1.  The carrier, not the individual, filters ADV, then none of my 
        mail will get in and I will go out of business,

  2.  If I identify myself and not forge anything, the 'SP will 
        terminate my circuit for mailing legal and put me out of 
        business.

    This is called legal mail, but I won't last a week and my line will 
be turned of For no legal reasons, except for the bullying power the 
anti-spam groups have. 1 agree with having laws governing bulk e-mails. 
But carriers should be held accountable when they submit to these anti-
spam groups. Terminating service to companies; such as my own, without 
any legal reason to do so is not the democracy that we all should be 
living. I think it should be done the right way as long as the carriers 
know they will be shut down for blocking a company or shutting down a 
company doing it legally. Filters are designed for 1SPs to eliminate 
``Spam''. Most of these people that design these are ``scam-artists.'' 
Think about it, if the server accepts mail in any way. Then there is a 
way to send bulk mail. If laws are passed to eliminate bulk e-mail, 
then the ISPs will shut down the commercial mailers. Then all the 
mailers are going to do is start corporations offshore and send their 
mail from offshore, now your laws and filters do nothing. Then, there 
is no taxable money being exchanged and money will be sent out of the 
country. This is not a solution, this is a joke!
    I designed a system 5 years ago because I believe in the freedom of 
the United States and the company that I stand behind. We should have 
the right to do our business in a legal way with out any interference 
from someone whom has no say so in the matter. The system that can stop 
Spam gives the freedom back to the people, It is very simple and very 
cheap, especially when you look at AOT. who spent 11 million dollars 
last year to stop Spam and it did not work. Most people are not aware 
when you hit the send e-mail button what all happens behind the scenes. 
Mail servers talk together just like people, if you send an e-mail to 
fjdhfjhdhsj
@hotmail,com it will give an answer, error 550 user not available this 
means the address is no good. If you send it to 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e0928f8e8e89859383858c938f8ea0888f948d81898cce838f8d">[email&#160;protected]</a> and my mailbox is full it will give an error 
520 users mailbox full. Now my system is really simple and would be 
used by the individual not the carrier to stop Spam. They all have 
buttons in web-based e-mails example (Send mail) all you have to do is 
put an option ``No Bulk E-mail'' and put a check in the box. What this 
will cause to happen is when I send an e-mail to you, I will see an 
error (example: 420) at that point, I know this user does not want e-
mail.
    This could only work if legislature enacts a law that would require 
Commercial mailers to look for this error when mailing. They would also 
be held criminally liable if they ignore and continue to send mail to 
these accounts. If you mail without forged headers, a valid from 
address, contact information and ``Adv'' in the subject they cannot 
shut you down or block you. If they do, there should be a fine imposed 
on the ISP. There would be no need for removes. Users are complaining 
they didn't ask to receive the mail so why should they remove 
themselves from 2000 plus different e-mail companies; they are right 
this system eliminates that problem.
    Reporters have interviewed me several times on this issue; and the 
articles have always focused on the money being made and never mention 
the cost that ``we'' as Commercial Mailers have to put out. The 
bandwidth at just one location cost $2,100.00/wkly, which is 
approximately $110,000.00 annually just for one carrier. AOL says they 
spend millions stopping Spam. This is a cost factor they brought on 
themselves and are passing on to the consumer. They are spending money 
doing something they should not be doing in the first place. I find 
this to be illegal, immoral, and unconstitutional. An example of this, 
is if I take a gun and shoot someone, the gun doesn't go to jail for 
murder, I do. I, as a human, squeezed the trigger. Well, AOL puts a 
filter in place that reads, censors, and destroys legal mail THIS is 
illegal. They get away with this because they say a human does not read 
these messages, but a human did press the enter key to read and destroy 
mail. What is the difference? Some people state that snail mail is okay 
because you pay the post office to send it. We are more like private 
carries like UPS and FedEx. (UPS and FedEx are registered trademarks to 
the individual companies. They are not in any way affiliated with my 
company.) A customer pays a private carrier to send mail. This company 
then pays the costs for fuel, drivers, and the truck to deliver the 
mail. As a customer pays us to send mail, we in turn pay for the 
servers, networking, electricity, and technology to deliver the mail. 
The ISPs say that ``Spam'' is chewing up so much bandwidth they are 
right at the end of capacity; this is their own fault. Part of ISPs 
Anti-spam filters do not allow high ``BCC'' (blind carbon copy) I could 
set my BCC setting to 500 for every 500 people who get this e-mail I 
will use up a total of 33k in size (est. the ad is 33k). Since this 
filter is in place, I have to mail at 1 BCC, which means that if I send 
an ad to 500 people then it would be like 500 times 33k. Now I have 
consumed 1.6 megabytes of bandwidth for those 500 people. So, now you 
see why their cost went up,
    They say ``Spammers'' break laws, well here are some examples:

        If we use ADV it, we are blocked.

        If we use Remove or unsubscribe, we are blocked.

        If we use the same ``From'' address that is valid, we are 
        blocked..

        If we send too many e-mails from one IP, we are blocked.

    So, we have two options:

  (1)  Break the law and stay in business or do it legal and go out of 
        business. (Meanwhile these carriers continue to violate the 
        laws that are passed and for a touch of proof if you go to this 
        website there is a list of common filters look for yourself. 
        http://www_mirror.ac.uk/sites/spamassassin.taint.org/spam
        assassin.org/tests.html)

  (2)  If the government wants to pass laws it needs to be fair to 
        everyone involved. The Commercial Mailers and the Carriers. But 
        not allow these Anti-Spam groups to get away with threatening 
        peoples lives just to feel that they have the power to control 
        a company's destiny. Every state should have the same law to 
        eliminate any possibility of violating these laws. This is 
        necessary, due to the fact, that it is unknown where the 
        recipient of an e-mail resides and whether or not you have 
        violated any laws.

    I don't believe you should e-mail private servers. AOL, Hobnail, 
Yahoo etc. provide consumers a service offering e-mail addresses. The 
consumer should have the right to choose to receive and sort his or her 
own mail, not the carrier. Laws and Censoring (filtering) e-mail are 
not going to work, it will only drive the price up for the smaller 
companies. As with the larger companies, like Norton's System Works,. 
Which sold more copies than ever before with e-mail. Due to the 
reduction of the marketing and merchandising costs, the product was 
made available to the consumer at $39.95 in contrast to the $299.99 
retail cost in stores.
    I consider myself living the American dream. I went to school in 
New Orleans where it was plagued by drugs and weapons. This is not what 
school was meant to be. I managed to survive the experience and ended 
up in a low-income neighborhood, still filled with drugs and violence. 
Even with a GED, I could not give my children the life I believe they 
deserve. So I started my own company and taught myself how to 
accomplish these things. In doing so, I found a way to create a 
business, provide for my family and put my children through a better 
school environment than I had. This to me IS the American Dream; 
freedom to grow and become something you dream of being. For doing this 
I was criticized, shut down, put out of business and threatened. I hope 
by me coming forward, this will show the untold side of the story that 
these anti-spam groups don't want you to hear.
    Please allow yourself to be open-minded and compare this industry 
to bulk mail. The differences between the two are that when you receive 
mail at your home, You open it, read it if you want, then throw it in 
the trash. You then have to carry that trash to the curb, where it is 
then hauled away and used as landfill (like we don't have enough trash 
already). Not to mention the trees that are cut down for the paper 
used! Then there is the Electronic Mail (E-Mail). If you don't want it, 
just check off DELETE. No mess, no cleanup, no pollution. I think my 
way is better!
    If there are any questions or comments, or if I could be of any 
service, please don't hesitate to contact me.
            Respectfully submitted,
                                            Ronald Scelson.

    The Chairman. Did you say that it took you less than 24 
hours to break one of Mr. Salem's filters?
    Mr. Scelson. Yes, sir.
    The Chairman. How do you feel about that, Mr. Salem?
    Mr. Scelson. Excuse me, on his part, to defend him, 
something most people forget is, if a server accepts mail, 
obviously there is a way in. Unless the server does not accept 
mail there will always be a way in.
    Mr. Salem. So I think that it is pretty clear that spammers 
have an economic incentive to try to avoid filters. One comment 
that I will make is that the way our solution works, we 
actually have set up a very elaborate system that basically 
only receives unsolicited bulk e-mail, so any mail messages 
that are being blocked are not based on words such as remove or 
unsubscribe, or anything else, so what that means is, if you 
hit our decoys, by definition, that decoy never requested the 
mail, so we are able to say, yes, it is definitively spam, and 
what our customers contract us to do is block that mail.
    I will tell you that we will continue the fight, because 
that is what our customers want us to do, and over the next 
couple of years I am confident we will solve this problem.
    The Chairman. Mr. Leonsis, are you a spammer?
    Mr. Leonsis. Well, I would like to hire you.
    [Laughter.]
    Mr. Leonsis. We would probably have a better relationship 
if you were on our side of the fence. I took a couple of notes 
during your comments, and very articulate, very heartfelt, and 
we have not raised prices to our members because of spam. We 
are absorbing that cost. We are taking an advocacy position for 
our members.
    With AOL, when you sign on, and since you are a paid member 
you would know that there is a terms of service, and our 
privacy policy, and we do not allow any member or any company 
or any partner that pays us to spam our members. We have 
preferences that allow you to opt out of AOL e-mails, AOL pop-
ups, and we promote that.
    In fact, we have been actively promoting that off of our 
front screen, and so you have been violating TOSS, and I am 
sure you have been opening multiple accounts.
    In regards to how they are getting e-mail addresses from 
member directories, that is a shame. AOL has always considered 
itself a community, and we have been able to get people to 
locate other people. My mother, as an example, died of breast 
cancer, and when she was sick she would go to the member 
directory to try and locate other women who were recently 
diagnosed with breast cancer. She certainly was not going to 
the member directory so that she could get e-mails that were 
unwanted or unsolicited or pornographic, and that is why that 
part of the business across the industry has shrunken, because 
people are gaining knowledge of what the tricks are and are now 
looking at their identity as being something that they need to 
protect.
    So while I believe that marketing is important, I also 
believe that e-mail is not a medium, that e-mail is more a 
utility. It is something basic and fundamental. There are 
places on ISPs and places on services that you can buy 
advertising and reach out to members, it does not trick people, 
and we need to kind of separate out kind of the myths from the 
facts of how commerce is done.
    The Chairman. Mr. Scelson talks about Pink Contracts. What 
do you know about that, and do you believe it is prevalent 
today, and I will ask Mr. Hughes and Mr. Rotenberg the same 
question.
    Mr. Leonsis. We are taking a different approach right now. 
We do not look at black lists.
    The Chairman. My question is, do you know about Pink 
Contracts and do you believe it is prevalent today?
    Mr. Leonsis. I am not aware of how prevalent or not it is. 
What we have really done is say that how we look at what spam 
is, it is not our opinion, it is our members' opinion. We every 
day baseline where the complaints are coming, and the ones that 
rise to the top and get escalated, that is what spam is, and we 
have really no opinions on it. We have a very, very large, 
active community. We let them report in, and the numbers do not 
lie. When our members say, this is spam, that is when it gets 
blocked.
    The Chairman. Mr. Hughes, do you know of the Pink Contracts 
that Mr. Scelson refers to, and Mr. Salem knows about them. 
Maybe I should ask him next. Go ahead, about the Pink 
Contracts.
    Mr. Salem. There are definitely relationships between 
marketers and ISPs, and oftentimes we are asked to make sure 
certain mail is not blocked. That is absolutely the case. as 
far as the details of those agreements, I am not aware of those 
details.
    The Chairman. Mr. Hughes.
    Mr. Hughes. Clearly, we have heard of Pink Contracts, and 
as we understand it, Pink Contracts are paid for delivery 
contracts. I am not aware of any of my members engaging in 
those practices, but let me say that we truly are in a Spy v. 
Spy situation. We have heard on the other end of our panel here 
today that AOL on the one hand is building more robust filters 
day by day by day, and spammers on the other side are working 
at ways to avoid those filters.
    As a result, the legitimate players in the middle 
delivering transactional messages, the consent-based marketing 
messages, have to build relationships with ISPs in order to 
make sure that wanted mail is actually delivered, and in some 
situations this is actually critical mail to have delivered. 
For example, it could be an airline ticket confirmation. It is 
a transactional message that is delivered in volume.
    So I can tell you quite definitively that a year ago, 18 
months ago, none of my members really had resources that were 
dedicated to ISP relationships. In other words, delivery 
relationships. Today, most of my members have at least one, and 
sometimes they have full staffs.
    The Chairman. I was referring to the relationship of 
spammers and ISPs. I am talking about the illegitimate 
contracts, not the one where you get an airline ticket.
    Mr. Hughes. Sure. We have definitely heard of the practice. 
I have never heard of it within our organization. There 
definitely is a place, though--I want to make sure it is clear, 
there is a place for a dialogue between senders and ISPs.
    The Chairman. I understand there is room for dialogue 
between all the mail recipients and senders, but if there are 
contracts that go, that actually not only condone but 
contractualize the practice of spamming, then we have got an 
issue here.
    Mr. Hughes. I would agree.
    The Chairman. Mr. Rotenberg.
    Mr. Rotenberg. Mr. Chairman, I am not familiar with the 
practice, but I do want to say briefly that I would challenge 
Mr. Scelson's assertion that he gets 1 to 2 percent response 
rate on his mailings. I find that very hard to believe.
    The Chairman. Well, we will let Mr. Scelson respond, then. 
Go ahead.
    Mr. Scelson. I can pull lead stats from one of my servers 
off my laptop top show you what it did before filters were 
kicked in, after filters were penetrated. The 1 percent is the 
most average. There are a few exceptions, and one good 
exception to this was Norton System Works was a reseller, was a 
client of mine. AOL is very familiar with that one. I know they 
got hit hard with it. I think they also have a lawsuit involved 
in that one, too, if I am not mistaken.
    The Chairman. Mr. Scelson, one of the things that disturbs 
a lot of us about this, and maybe you could comment on this, 
does it disturb you that so much of this is pornography, and 
occasionally child pornography?
    Mr. Scelson. Yes, sir, totally. I personally do not send 
any adult material, have not sent adult material, and do not 
intend to, no matter how this boils out.
    The Chairman. But it is up to--I understand about 20 
percent of the spam.
    Mr. Scelson. Yes, sir, it is, and most of the bad names 
that all e-mail companies get is not Norton System Works being 
sold that is really making people upset, it is the adult 
industry. Personally, you and I, even though I will not mail 
it, Playboy advertises that in the real world today nobody 
frowns on it. Why? Because it is kept very low key. There is no 
nudity, there is no vulgarity, unless you are a paid member. 
The porn you see in your e-mail today, all of us have seen, and 
it is just dreadful. My daughter is 9 years old, and she uses 
the computer quite well, and she sees this, so I understand 
where you all are coming from this, and totally agree with you.
    The Chairman. My time has expired.
    Mr. Leonsis, you want to make a comment?
    Mr. Leonsis. I think as an ISP, as I stated earlier, we 
have a very strict covenant with our members on privacy and 
security. It is called Terms of Service, and we never enter 
into contracts to allow spam on our service. It is why the most 
egregious spammers we are taking to court, and you have to read 
TOSS. It prohibits unsolicited bulk e-mail, and that applies 
whether you are one of our partners or not. We have people that 
pay us a lot of money, and sometimes it gets escalated to me on 
why cannot we spam, and we say, that is not what our rules 
allow, and so again, this is a utility function. You cannot 
just look at it as media, and an efficient way to deliver ad 
messages.
    The Chairman. Well, again, I was not challenging your 
organization, but if the so-called Pink Contracts are in 
existence, then it is something we have to deal with.
    Mr. Leonsis. There are none in our organization.
    The Chairman. But there is ample testimony that they are in 
existence.
    Mr. Scelson. Senator McCain, again the contracts are not to 
send spam. The contracts are to send e-mail that obeys all the 
laws. There is no such thing as a spam contract. If you are 
going to violate a law, I have not seen a carrier yet sign a 
contract for this.
    The Chairman. Now we get into definitions. Senator Wyden, 
do you want to go, or Senator Burns? Either way.
    Senator Burns. I have a couple of questions, and I will 
tell you what I am going to do, I am going to set up a private 
little appointment with a couple of you, because we need to 
explore some of this a little bit further.
    We have heard you may get legislation that has unintended 
consequences, and that worries me a little bit, and Mr. 
Rotenberg, you are exactly right about some of these areas.
    As you know, I am a free marketer. I like that, and I do 
not want to get into a situation where we do have unintended 
consequences. In other words, when you come up here and serve 
in the Senate you sort of file back here the little saying that 
says, do no harm in everything that you do. I am wondering if 
this legislation--now, this is the first time I have run into 
Pink Contracts. Now, you would have thought I would have picked 
that up along the way, but us country boys, we do not pick up 
everything.
    This tells me that should you pass a law that you are 
actually falling into forcing people into the grips of maybe an 
enterprise that another middle man in business that somebody 
does not want to pay just to get your message to a legitimate 
message of what you have a return address that you really want 
to do business on the Internet, but you are putting another 
middle man in there, injecting one in there that is going to 
drive the costs for both the consumer and the person that is 
doing business. Is that a false way of looking at things? It 
was not explained very well, but you understand where I am 
coming from.
    Mr. Salem. If I could make a quick comment, I think there 
has to be a way to identify legitimate marketers, and that is 
something that is going to become very, very important so that 
we can deliver messages from airlines or car companies, and so 
there is going to have to be relationships between the direct 
marketers and the carriers to make sure that that can happen, 
because what has happened to date is because some of those 
relationships do not exist. They are all being treated the same 
in many cases.
    Mr. Leonsis. Nine million reports a day on spam, and I 
cannot remember the last e-mail I received from an AOL member 
saying, please send me spam, so I understand the concern about 
erring, or the pendulum swinging too far, but it is way over 
here right now, and the laws that we are in discussion about 
today are very good steps, and as an industry we are going to 
work with our State AGs, and we need your help to get that 
pendulum back into a balance.
    Senator Burns. If anybody wants to comment on this, because 
it is sort of an interesting idea.
    Mr. Rotenberg. I think it is a very important point you 
make, Senator. Consumer groups are not against the use of the 
Internet for advertising. In fact, one of the wonderful things 
about the Internet for the consumer is the ability to get great 
prices on stuff you want, to be notified about books and 
authors that you are interested in, to get travel deals, and a 
lot of people are signing up for those lists to get that 
information because it frankly gives them a good deal.
    The problem, and I agree with Mr. Leonsis, the pendulum has 
swung so far in terms of the amount of marketing that the stuff 
you desire is just getting drowned out. You cannot even find it 
any more, because there is so much junk you are getting with 
the commercial marketing that you would like to receive, so I 
think legislation is appropriate. I want to be clear on that 
point. I think there is always a risk of unintended 
consequences. I think legislation will help. I do not think it 
will solve the problem, but I am sensitive to this issue of not 
closing some doors you might want to leave open, and the 
question of state enforcement, particularly if they are issues 
around illegal business contracts, suddenly becomes very 
important.
    Senator Burns. Anyone else? I want to hear a comment from 
all of you, really, basically.
    Mr. Hughes. Senator Burns, this is clearly complex problem, 
and unintended consequences exist today. I would like to give 
you two dystopian visions of the future we have about e-mail. 
One is, we allow spam to proliferate, and all of us stop using 
e-mail because our inboxes have become so choked with spam. The 
other is, we use blunt instruments to solve spam, and in the 
process of fixing the problem we kill the killer app. We kill 
e-mail. That emerges in something called false positives. False 
positives are wanted messages that are unreceived because of a 
filter or black list or some other tool to block them.
    What we have seen in the marketplace today, there is a 
study that came out from a company called Assurance Systems, is 
that in the fourth quarter of 2002 there was an average 15 
percent false positive rate across the top 10 ISPs. That means 
15 percent of wanted messages, of legitimate messages were not 
being delivered the inboxes of recipients. That is one of the 
unintended consequences of the blunt instruments that we are 
using. We need a much more balanced system to make sure that we 
kill spam but save e-mail.
    Senator Burns. Yes, sir.
    Mr. Scelson. Senator, I do totally agree there needs to be 
legislation on it. Again, the solution that is in my written 
testimony that I gave you all, you all have not got to see this 
yet. I am sure you will see it before the end of the day. It is 
a no cost factor. It is very simple. There is no loss of 
unwanted mail, and one of the biggest complaints I have heard 
from people I send mail to is, there are over 2,000 bulk mail 
companies, not 200, that I am well aware in full existence out 
of 2,000 bulk companies you did not ask to receive mail in the 
first place.
    Why should you have to remove from each one? The Government 
gets involved with the remove. Why should the Government have 
to spend tax dollars on a global remove system? The system I 
propose costs no money and gives the power back to the people.
    The other thing I am looking for from the Government is, if 
I mail 100 percent within your laws, that companies like 
Brightmail will not filter the removes that are mandatory on 
us, and that carriers like BellSouth and AT&T and MSN will not 
come in and shut my circuits down for sending legal mail, and 
right now that is basically what they are doing, so I cannot 
reveal who I am, but they are right, we need to.
    Now, the same people that fight the spam have websites up 
that I used to reveal exactly who I was, and everything about 
the company website, the whole info. These people have my 
children's school on their website, my children's social 
security numbers, they have threats in there that if nothing 
else can stop me, maybe we should do something to their family. 
They are not bluntly saying go out and hurt them, but they are 
pushing strong accusations. I have never seen AOL or you all do 
anything like this, but a lot of these big anti-spam groups 
that were at the FCC hearing, it is on their website. You have 
the Internet, look for yourself. All I ask is, open your eyes 
to see it all.
    Senator Burns. I am going to go to Senator Wyden now, but I 
appreciate those comments, and sure, we will take a very 
serious look at this, because I am still--we think we are on 
the right track with our piece of legislation, but that is not 
to say that we are written in stone of a better idea or 
something that could be incorporated with what we are doing, 
and we will probably explore that as we move along.
    Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman. All of you were 
excellent.
    Mr. Scelson, a question for you to see if I can get it 
straight. You said that you were above-board and complying with 
all the laws and trying to act in a straightforward way, but I 
think I also heard you say, and I just want to clarify this, 
that you are, in fact, disguising the source of the e-mail 
because you believe otherwise you are going to get blocked by 
ISPs, is that right?
    Mr. Scelson. Senator, that is a two-part question. I have 
not sent 100 percent legal mail in the last 6 months, since my 
last carrier breached a contract for sending legal mail. Since 
that time, again, if I send right off of one IP their systems 
detect how many e-mails come from one IP, will block this. If I 
send right off of my real IP, the carrier will come in and yank 
the circuit from me, so I have no choice but to hide this. I do 
not want this. If I am told today, you mail legal we will not 
shut you down, my spam days are over with. There is no need for 
spam. There are legitimate ways to do this.
    Senator Wyden. I understand that, and that is really what 
is at issue, and to your credit you are being very honest. What 
I think has concerned Senator Burns and I now for 4 years is 
that the bottom line is, is that the recipient of the e-mail 
cannot really tell where it is coming from, number 1, and 
number 2, if the recipient, again empowering the consumer, 
wants to tell the ISP to do certain things to protect them, the 
recipient is not in a position to do it. That is why we are 
trying to come up with a legislative solution here.
    And just a couple of other points. Is there any dispute 
among you five about the urgency of this effort, because I will 
tell you, it just seems to me that the volume of spam today 
really has the potential of poisoning the medium, and doing it 
in a real hurry.
    If you look at how fast it is going, I have been at this 
for three or 4 years now, and I am going to be looking at 
Senator Nelson, who has an attractive idea, and Senator Schumer 
has an attractive idea, but you know, those ideas of sending it 
to the Federal Trade Commission for 45 days, giving the 
exponential growth, I want us to move now, and I would just 
like to make sure that all of you are clear for the record how 
urgent this is, and if it is not done quickly, you are really 
talking about the potential to poison this medium.
    Mr. Hughes. Senator, if I could, we needed legislation last 
year, we needed it yesterday, we need it as soon as possible, 
but more important than Federal preemptive legislation is, once 
we have that, we need strong enforcement. Legislation will be 
useless unless we create the deterrent effect that it is 
intended to create, so we are very supportive of legislation 
today.
    Senator Wyden. I will tell you that beyond the fact that 
the Federal Trade Commission 2 years ago said that the 
enforcement model on the Burns-Wyden bill worked well, I am 
absolutely convinced, having worked on these issues since the 
days when I was Director of the Gray Panthers, that you bring a 
modest number of enforcement actions--you are not going to have 
to bring hundreds, but you bring a modest number of enforcement 
actions that are tough, that send a real message out there, 
that there are going to be consequences, that there are going 
to be significant consequences, and I think you change the 
world out there in the cyber arena.
    The only other point I wanted to make sure we were on the 
record, Mr. Rotenberg, you know I have enormous respect for you 
and what your organization does. We work with you on everything 
from the total information awareness program to CAPS, privacy 
issues and the like, but clearly what the states are doing is 
not working. We have got 30 states now that have enacted anti-
spam statutes. If this was going to be solved at the state 
level, it would seem to me what the states would have put 
together collectively would have been more effective. Do any of 
you disagree with the proposition that Senator Burns and I have 
been advancing that this has got to be dealt with at the 
national level?
    Mr. Salem. Just a couple of comments, Senator Wyden. First, 
there is definitely an urgency on this problem right now. A lot 
of the state legislation has talked about labeling. Labeling 
has not proven to help us solve the problem, so I think that is 
something that does need to be looked at as your bill continues 
forward. I think the other thing that I would say is that we 
are going to need to invent some technology, because in my 
testimony I said 90 percent of e-mail today is untraceable, so 
there is some form of deception that is making it hard to 
identify who is sending it, and that is why I am surprised it 
took 24 hours.
    I think that is good, because we actually have data filters 
every five to 10 minutes to try to stay ahead of the spammers, 
because that is what is required to block and keep spam out of 
inboxes, so we absolutely support what you are doing. We would 
like to continue to help shape it so that it can be enforced, 
but there is going to have to be some technology invention so 
we can track who is the originator of that mail.
    Senator Wyden. It is a fair point, and that is one of the 
reasons we tried to give a wide berth as it relates to the 
enforcement tools. We have got four enforcement tools, we have 
got flexibility for the Federal Trade Commission, because we 
know that the spammers are not technological simpletons. They 
are people who are constantly going to be on the cutting edge, 
and you can act on Tuesday and they will be devising something 
on Thursday.
    The last point that I wanted to ask about was the question 
in the New York Times report yesterday that indicated that in 
the last 2 years 200,000 computers worldwide had been hijacked 
without the owners' knowledge, and are currently being used to 
forward spam.
    Now, in our legislation, we say that you cannot use an 
originating e-mail address the access to which was obtained by 
means of false or fraudulent pretenses or representations. We 
think that that might have been a useful tool had it been 
enacted to try top prevent the hijacking, but I am going to 
turn this over to Senator Nelson to wrap up.
    We would just like you to look at that language, because it 
may need some tweaking, but my sense is that had that part of 
the Burns-Wyden bill been on the books, that could have been 
used to derail that very serious hijacking situation, and we 
would like you to work with us, and I am not saying this is the 
last word.
    Mr. Rotenberg.
    Mr. Rotenberg. I wanted to say we very much supported the 
efforts to pass Federal legislation. We think it is necessary. 
We think your bill is a good model. We completely agree that 
there has to be a strong national approach. I think the FTC has 
done good work and the workshop was good, and I think the 
enforcement intentions are there.
    As I said, I think the real concern is simply, if you close 
the door on the states, which is not to say that they solved 
the problem, but if you largely prevent them from pursuing the 
problem, then I think that raises some problems, but beyond 
that, I think there is a lot of support in the consumer 
community, and it was the consumer groups actually a couple of 
years ago, to their credit, that said we have got to get a 
handle on the spam problem, because otherwise the Internet is 
going to be largely useless in terms of consumer use, and the 
groups that we have worked with have said, make this a 
priority, so I think if it can be done right, it will be a 
great accomplishment.
    Senator Wyden. You are absolutely right. We would not be 
anywhere near where we are without the consumer groups, and you 
are absolutely right on that point. The reason that Senator 
Burns and I give that activist role to the state Attorneys 
General to bring actions is that we think, again, that they 
bring a modest number of those actions, and that is a 
significant deterrent.
    And my final message to you five, because you have been 
excellent, keep the heat on us and do not let the Congress 
dawdle on this. At every possible stage for the last three or 4 
years Senator Burns and I have been up against this argument. 
Well, now is not really the time. We need to study this. We 
need to send it to the Committee on Acoustics and Ventilation 
and let them look at it for another 6 months, and we cannot 
afford it. Ted Leonsis has made the point that this has grown 
so dramatically that we cannot afford to let that happen.
    There are a lot of good ideas in the Congress. We should 
look at them. You should tell us how to make them fit into an 
integrated system, but my message is, do not let the Congress 
dawdle now, do not let the Congress delay, so that we can get 
this passed.
    Mr. Chairman, are you going to chair? I know Senator Nelson 
had some questions.
    Senator Burns. I do not have any more, and it is almost 
lunchtime, and I have never missed a meal and by God I do not 
plan to.
    Senator Nelson. Well, you can just turn the Committee over 
to me.
    [Laughter.]
    Senator Burns. We already did that a while ago and it did 
not work, Senator.
    [Laughter.]
    Senator Nelson. We got a lot of business done while you 
were gone.
    Senator Burns. You proceed on, please, Senator. We signed 
on for the term.
    Senator Nelson. Mr. Chairman, one of the characterizations 
that I would modify in some of your characterizations, your 
concern naturally about impeding the normal intercourse of 
commerce, and that is a legitimate concern also expressed by 
Mr. Scelson, but the difference, I think, that I would look at 
it, you gave the example of walking down the street and seeing 
advertisements, and that is in a public domain.
    I think when you get into personal mail coming into a 
personal box sitting in your personal home, then it is a little 
bit different, and that is what I think rises this to the level 
of concern where I think we are going to have to have some 
criminal laws applicable. I would love to have your response to 
that.
    Mr. Scelson. Senator, based upon what you said is basically 
the reason I am fighting. That choice is the individual's 
right. No offense to any of these individual companies. They 
should not decide if they are going to censor, read or destroy 
your legal mail. As an individual, that should be that person's 
right to decide. If the carriers did not shut you down for 
doing it the right way, ADV is a way that as soon as you open 
your e-mail you know you can get rid of it. My IPs would never 
change. If the individual wanted to block me, I have no 
problems with this. It is the companies that are going in and 
destroying your mail.
    If I go to your office and decide to go snoop through your 
mail and decide what you are going to get, I am not going to 
make it out the front door without going to jail, but at the 
same time, these filters are taking from your rights. They say 
a computer is doing this. There is nothing wrong with it. A 
human does not see this. Well, as an example, if you shoot 
someone with a gun, the gun shot him, not me. But I am a human, 
I squeeze that trigger, I am responsible.
    When they filter and censor people's mail, a human is 
sitting in that entity. A human is responsible for destroying 
your private mail. It is the same scenario. What you are saying 
is absolutely correct.
    Senator Nelson. Well, the temporary Chairman characterized 
the problem at one point as weeds, weeds growing up, you use 
some Round-Up on them, get rid of the weeds, and I interjected 
with a big smile on my face. I said, it is not weeds, it is 
snakes in the weeds, and when the pornography starts coming at 
me, I think that is poisonous snakes, and that is where we have 
got to figure out some way to draw the line.
    Let me just ask one final question. Twenty-nine states have 
grappled with this, the most recent of which is Virginia, which 
has the strongest law, and so since Mr. Leonsis is from 
Virginia, what do you like about the new Virginia law, and are 
there parts of that that could serve for us to incorporate in 
this Federal legislation?
    Mr. Leonsis. Well, the Virginia law really worked in tandem 
with what we can do commercially, and where we like the law, it 
really does give teeth especially to the Attorney General, and 
I think in all cases at the state level it is the Attorney 
General who has to go in and do the biting, and I think what is 
really important is that there be a rules of the road on a 
national level, and the states, looking at their individual 
laws we will have to deal with, it would be much better if we 
had a unified view from the top down, but we always need to be 
able to empower the AGs to go execute the law state by state.
    Senator Burns. If the Senator would yield, what drove us in 
this direction, Senator Nelson, was the fact that some of us 
that has been here for a day or two know and understand and see 
the ramifications of trying to pass legislation that one size 
fits all for 50 states, and it does not work. We tried to write 
policy in agriculture, I mean, a host of things that it just 
does not work, so that is the reason we did not want to take a 
giant step that erodes the state's ability to deal with the 
situation. That is the reason we went down the road we went 
down.
    Senator Nelson. Well, I would just give in response, from 
the basis of my experience when I was in the state legislature 
in the 1970s, I passed the first computer crimes law in the 
Nation, giving prosecutors the tools to go after the more 
sophisticated type of criminal that was using a computer 
instead of a crowbar.
    When I came to Congress, I passed the Federal computer 
crimes law. Now, it was a law that had Federal application, but 
it supplemented what the states were starting to do, and we 
have got to kind of find this balance. I can understand Mr. 
Scelson. He would be going nuts if he had to deal with 50 
different state standards, and so somehow you have got to have 
perhaps if there is a stronger standard in a state, that that 
takes precedence over the Federal law, but that there would be 
a uniformity with the Federal law to which they could then 
comply.
    Mr. Scelson. Excuse me, Senator, what I am about to tell 
you has never been challenged before, and very few people are 
aware of this. There is a website called w3c.com. It is all the 
guidelines that were presented by the Federal Government when 
the Internet was released to the people. In those guidelines it 
states, ``states do not have the right to pass laws pertaining 
to the Internet.'' It has not stopped anyone. It has not been 
changed on that site, so if that is true, then Federal law is 
the only way to go with this, but as of so far, no one has ever 
fought or challenged this to my knowledge.
    Senator Burns. Well, thank you, and Senator Nelson, we 
thank you for your participation. We are going to leave this 
record open for a couple of weeks if there is something else, 
and there are other Senators that will probably want to make 
inquiries, so if there are, you can respond both to the 
Senators and the Committee, and we thank you for your testimony 
today, and this Committee is adjourned.
    [Whereupon, at 12:30 p.m., the hearing was adjourned.]

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
